No.

In the Supreme Court of the United States
UNITED STATES DEPARTMENT OF HOMELAND SECURITY,
ET AL., PETITIONERS
v.
STATE OF NEW YORK, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
JEFFREY BOSSERT CLARK
Acting Assistant Attorney
General
HASHIM M. MOOPPAN
Counselor to the Solicitor
General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
BENJAMIN W. SNYDER
Assistant to the Solicitor
General
DANIEL TENNY
GERARD SINZDAK
JOSHUA DOS SANTOS
JACK STARCHER
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTIONS PRESENTED

Under the Immigration and Nationality Act, 8 U.S.C.
1101 et seq., an alien is “inadmissible” if, “in the opinion
of the [Secretary of Homeland Security] at the time of
application for admission or adjustment of status, [the
alien] is likely at any time to become a public charge.”
8 U.S.C. 1182(a)(4)(A). Following notice-and-comment
rulemaking, the United States Department of Homeland Security (DHS) promulgated a final rule interpreting the statutory term “public charge” and establishing
a framework by which DHS personnel are to assess
whether an alien is likely to become a public charge.
The questions presented are:
1. Whether entities that are not subject to the
public-charge ground of inadmissibility contained in
8 U.S.C. 1182(a)(4)(A), and which seek to expand benefits usage by aliens who are potentially subject to that
provision, are proper parties to challenge the final rule.
2. Whether the final rule is likely contrary to law or
arbitrary and capricious.

(I)

PARTIES TO THE PROCEEDING

Petitioners (defendants-appellants below) are the
United States Department of Homeland Security; Chad
F. Wolf, in his official capacity as Acting Secretary of
Homeland Security; the United States Citizenship and
Immigration Services, an agency within the United
States Department of Homeland Security; and Kenneth
T. Cuccinelli II, in his official capacity as Senior Official
Performing the Duties of the Director of the United
States Citizenship and Immigration Services. *
Respondents (plaintiffs-appellees below) are the
State of New York; the City of New York; the State of
Connecticut; the State of Vermont; Make the Road New
York; African Services Committee; Asian American
Federation; Catholic Charities Communities Services
(Archdiocese of New York); and Catholic Legal Immigration Network, Inc.

The complaints in both cases named Kevin K. McAleenan, then
the Acting Secretary of Homeland Security, as a defendant in his
official capacity. Chad F. Wolf has since assumed the role of Acting
Secretary, and has thus been automatically substituted as a party in
place of former Acting Secretary McAleenan. See Fed. R. App. P.
43(c)(2); Fed. R. Civ. P. 25(d). Similarly, the complaints named Kenneth T. Cuccinelli II in his role as Acting Director of the United
States Citizenship and Immigration Services. Mr. Cuccinelli is now
serving as Senior Official Performing the Duties of the Director.
*

(II)

RELATED PROCEEDINGS

United States District Court (S.D.N.Y.):
New York v. United States Department of Homeland
Security, No. 19-cv-7777 (July 29, 2020) (related
litigation)
New York v. United States Department of Homeland
Security, No. 19-cv-7777 (Oct. 11, 2019) (granting
preliminary injunction)
Make the Road New York v. Cuccinelli, No. 19-cv7993 (Oct. 11, 2019) (granting preliminary injunction)
United States Court of Appeals (2d Cir.):
New York v. United States Department of Homeland
Security, No. 20-2537 (Sept. 11, 2020) (related litigation)
New York v. United States Department of Homeland
Security, No. 19-3591 (Aug. 4, 2020) (affirming
preliminary injunction)
Make the Road New York v. Cuccinelli, No. 19-3595
(Aug. 4, 2020) (affirming preliminary injunction)
New York v. United States Department of Homeland
Security, No. 19-3591 (Jan. 8, 2020) (denying stay
pending appeal)
Make the Road New York v. Cuccinelli, No. 19-3595
(Jan. 8, 2020) (denying stay pending appeal)
Supreme Court of the United States:
Department of Homeland Security v. New York,
No. 19A785 (Jan. 27, 2020) (granting stay pending
appeal)

(III)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Statutory provisions involved ...................................................... 2
Statement ...................................................................................... 2
A. The public-charge inadmissibility rule ................... 3
B. Procedural history .................................................... 6
Reasons for granting the petition ............................................. 11
I. The court of appeals erred in holding that
respondents are likely to succeed in their
challenge to the rule ...................................................... 12
II. The decision below warrants this Court’s review ...... 24
Conclusion ................................................................................... 27
Appendix A — Court of appeals opinion (Aug. 4, 2020)........ 1a
Appendix B — District court memorandum decision and
order (Oct. 11, 2019) .................................. 91a
Appendix C — District court order granting plaintiffs’
motion for a preliminary injunction
(Oct. 11, 2019)........................................... 121a
Appendix D — District court memorandum decision and
order (Oct. 11, 2019) ................................ 125a
Appendix E — District court order granting plaintiffs’
motion for a preliminary injunction
(Oct. 11, 2019)........................................... 158a
Appendix F — Statutory provisions ................................... 162a
TABLE OF AUTHORITIES

Cases:
Association of Data Processing Service
Organizations, Inc. v. Camp, 397 U.S. 150 (1970) .......... 13
CASA de Maryland, Inc. v. Trump,
971 F.3d 220 (4th Cir. 2020) ...................................... passim

(V)

VI
Cases—Continued:

Page

City & County of San Francisco v. United States
Citizenship & Immigration Services,
944 F.3d 773 (9th Cir. 2019) ...................................... passim
Clarke v. Securities Industry Ass’n,
479 U.S. 388 (1987).............................................................. 13
Cook County v. Wolf, 962 F.3d 208 (7th Cir. 2020) ... passim
Department of Commerce v. New York,
139 S. Ct. 2551 (2019) ......................................................... 22
Department of Homeland Security v. Regents of the
University of California, 140 S. Ct. 1891 (2020) ............. 24
FCC v. Fox Television Stations, Inc.,
556 U.S. 502 (2009).............................................................. 22
Federal Deposit Insurance Corp. v. Philadelphia
Gear Corp., 476 U.S. 426 (1986)......................................... 18
Fiallo v. Bell, 430 U.S. 787 (1977) ........................................ 26
Jama v. Immigration & Customs Enforcement,
543 U.S. 335 (2005).............................................................. 18
Make the Road New York v. Pompeo,
No. 19-cv-11633, 2020 WL 4350731
(S.D.N.Y. July 29, 2020) ....................................................... 3
Match-E-Be-Nash-She-Wish Band of Pottawatomi
Indians v. Patchak, 567 U.S. 209 (2012) .......................... 13
Radzanower v. Touche Ross & Co.,
426 U.S. 148 (1976).............................................................. 23
Southeastern Community College v. Davis,
442 U.S. 397 (1979).............................................................. 23
Thompson v. North American Stainless, LP,
562 U.S. 170 (2011).............................................................. 14
United States v. Curtiss-Wright Export Corp.,
299 U.S. 304 (1936).............................................................. 17
Wolf v. Cook County, 140 S. Ct. 681 (2020) ....................... 2, 8

VII
Constitution and statutes:

Page

U.S. Const.:
Art. III .............................................................................. 9
Amend. V .......................................................................... 6
Administrative Procedure Act,
5 U.S.C. 701 et seq.:
5 U.S.C. 702 ...................................................................... 12
5 U.S.C. 705 ........................................................................ 6
5 U.S.C. 706(2)(A) .............................................................. 6
Illegal Immigration Reform and Immigrant
Responsibility Act of 1996, Pub. L. No. 104-208,
Div. C, Tit. V, § 531, 110 Stat. 3009-674 .............................. 9
Immigrant Fund Act, Act of Aug. 3, 1882,
ch. 376, §§ 1-2, 22 Stat. 214 .................................................. 4
Immigration Act of 1917, ch. 29, 39 Stat. 874 ..................... 14
Immigration and Nationality Act, ch. 477,
66 Stat. 163 (8 U.S.C. 1101 et seq.) ...................................... 2
§ 212(a)(15), 66 Stat. 183 ................................................. 4
8 U.S.C. 1103 .................................................................... 3
8 U.S.C. 1182(a)(4) ............................................... 15, 162a
8 U.S.C. 1182(a)(4)(A).............................2, 3, 13, 26, 162a
8 U.S.C. 1182(a)(4)(B)............................................ 3, 162a
8 U.S.C. 1182(a)(4)(B)(i)(II) ................................ 23, 162a
8 U.S.C. 1182(a)(4)(C).......................................... 15, 163a
8 U.S.C. 1182(a)(4)(D) ......................................... 15, 163a
8 U.S.C. 1183a(a)(1)(A) ........................................ 15, 165a
8 U.S.C. 1183a(b)(1)(A) ....................................... 15, 165a
8 U.S.C. 1227(a)(5) ........................................... 3, 21, 167a
8 U.S.C. 1601(1).............................................. 16, 20, 167a
8 U.S.C. 1601(2).............................................. 11, 16, 167a
8 U.S.C. 1601(2)(B) ........................................ 17, 20, 168a
8 U.S.C. 1601(3).................................................... 16, 168a

VIII
Statutes—Continued:

Page

8 U.S.C. 1601(4)................................... 13, 16, 17, 20, 168a
8 U.S.C. 1601(5).................................................... 16, 168a
8 U.S.C. 1611(c)(1)(B) .......................................... 16, 172a
Rehabilitation Act of 1973, 29 U.S.C. 701 et seq.:
29 U.S.C. 794 (§ 504) ............................................... 6, 173a
29 U.S.C. 794(a) ..................................................... 23, 173a
6 U.S.C. 211(c)(8) ..................................................................... 3
6 U.S.C. 557 .............................................................................. 3
Miscellaneous:
Black’s Law Dictionary:
(3d ed. 1933) ..................................................................... 14
(4th ed. 1951) .................................................................... 14
Arthur E. Cook & John J. Hagerty, Immigration
Laws of the United States (1929) ...................................... 14
64 Fed. Reg. (May 26, 1999):
p. 28,676 .................................................................... 4, 5, 18
p. 28,689 .................................................................... 4, 5, 18
83 Fed. Reg. 51,114 (Oct. 10, 2018) ........................................ 5
84 Fed. Reg.:
p. 41,292 (Aug. 14, 2019) ..........................3, 5, 6, 10, 20, 24
p. 54,996 (Oct. 11, 2019)..................................................... 3
S. Rep. No. 1515, 81st Cong., 2d Sess. (1950) ....................... 4

In the Supreme Court of the United States
No.
UNITED STATES DEPARTMENT OF HOMELAND SECURITY,
ET AL., PETITIONERS
v.
STATE OF NEW YORK, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Acting Solicitor General, on behalf of the U.S.
Department of Homeland Security et al., respectfully
petitions for a writ of certiorari to review the judgment
of the United States Court of Appeals for the Second
Circuit in this case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra, 1a90a) is reported at 969 F.3d 42. The opinions of the district court (App., infra, 91a-120a, 125a-157a) are reported at 408 F. Supp. 3d 334 and 419 F. Supp. 3d 647.
JURISDICTION

The judgment of the court of appeals was entered on
August 4, 2020. The jurisdiction of this Court is invoked
under 28 U.S.C. 1254(1).

(1)

2
STATUTORY PROVISIONS INVOLVED

Pertinent statutory provisions are reprinted in the
appendix to this petition. App., infra, 162a-175a.
STATEMENT

The U.S. Department of Homeland Security (DHS)
issued a rule interpreting the provision of the Immigration and Nationality Act (INA), ch. 477, 66 Stat. 163
(8 U.S.C. 1101 et seq.), that makes an alien inadmissible
if, “in the opinion of ” the Secretary of Homeland Security, the alien is “likely at any time to become a public
charge.” 8 U.S.C. 1182(a)(4)(A). The district court here
issued orders preliminarily enjoining implementation of
the DHS rule nationwide, see App., infra, 121a-124a,
158a-161a, as did district courts in four other States
(some nationwide and some on a more limited basis).
Those preliminary injunctions were all stayed—several
by the Fourth and Ninth Circuits, see Order, CASA de
Maryland, Inc. v. Trump, No. 19-2222 (4th Cir. Dec. 9,
2019); City & County of San Francisco v. United States
Citizenship & Immigration Services, 944 F.3d 773
(9th Cir. 2019), and the remainder by this Court, see 140
S. Ct. 599; Wolf v. Cook County, 140 S. Ct. 681 (2020).
The Fourth Circuit subsequently reversed the preliminary injunction entered by a district court in Maryland,
see CASA de Maryland, Inc. v. Trump, 971 F.3d 220
(2020), but a divided panel of the Seventh Circuit affirmed the statewide preliminary injunction entered by
a district court in Illinois, see Cook County v. Wolf, 962
F.3d 208 (2020). In the decision here, the Second Circuit affirmed the preliminary injunctions entered by the
district court, but limited their scope to New York, Connecticut, and Vermont. App., infra, 1a-90a.

3
A. The Public-Charge Inadmissibility Rule

1. The INA provides that “[a]ny alien who, * * * in
the opinion of the [Secretary of Homeland Security] at
the time of application for admission or adjustment of
status, is likely at any time to become a public charge is
inadmissible.” 8 U.S.C. 1182(a)(4)(A). 1 That assessment “shall at a minimum consider the alien’s (I) age;
(II) health; (III) family status; (IV) assets, resources,
and financial status; and (V) education and skills.”
8 U.S.C. 1182(a)(4)(B). A separate INA provision provides that an alien is deportable if, within five years of
entry, the alien “has become a public charge from
causes not affirmatively shown to have arisen” since entry. 8 U.S.C. 1227(a)(5).
Three agencies make public-charge determinations
under this provision: DHS, for aliens seeking admission
at the border and aliens within the country applying to
adjust their status to that of a lawful permanent resident; the Department of State, for aliens abroad applying for visas; and the Department of Justice, for aliens
in removal proceedings. See 84 Fed. Reg. 41,292, 41,294
n.3 (Aug. 14, 2019). The rule at issue governs DHS’s
public-charge determinations. Ibid. The State Department has adopted a consistent rule (which has been preliminarily enjoined in separate litigation), and the Department of Justice expects to do likewise. Ibid.; 84
Fed. Reg. 54,996 (Oct. 11, 2019) (State Department interim final rule); Make the Road New York v. Pompeo,
No. 19-cv-11633, 2020 WL 4350731 (S.D.N.Y. July 29,
The statute refers to the Attorney General, but in 2002 Congress
transferred the Attorney General’s authority to make public-charge
determinations in the relevant circumstances to the Secretary of
Homeland Security. See 8 U.S.C. 1103; 6 U.S.C. 557; see also
6 U.S.C. 211(c)(8).
1

4
2020) (preliminarily enjoining enforcement of State Department rule).
2. The “public charge” ground of inadmissibility
dates back to the first federal immigration statutes in
the late nineteenth century. See, e.g., Immigrant Fund
Act, Act of Aug. 3, 1882, ch. 376, §§ 1-2, 22 Stat. 214.
Through the nearly 140 years that the public-charge inadmissibility ground has been in effect, however, Congress has consistently chosen not to define the term
“public charge” by statute. Indeed, in an extensive report that served as a foundation for the enactment of
the INA in 1952, the Senate Judiciary Committee recognized that “[d]ecisions of the courts have given varied
definitions of the phrase ‘likely to become a public
charge,’ ” and that “ ‘different consuls, even in close
proximity with one another, have enforced [publiccharge] standards highly inconsistent with one another.’ ” S. Rep. No. 1515, 81st Cong., 2d Sess. 347, 349
(1950). Rather than recommend adoption of a specific
standard, the Committee indicated that because “the elements constituting likelihood of becoming a public
charge are varied, there should be no attempt to define
the term in the law.” Id. at 349; see INA § 212(a)(15),
66 Stat. 183 (using term without definition).
In 1999, the Immigration and Naturalization Service
(INS), recognizing that the term was “ambiguous” and
had “never been defined in statute or regulation,” proposed a rule to “for the first time define ‘public charge.’ ”
64 Fed. Reg. 28,676, 28,676-28,677 (May 26, 1999); 64
Fed. Reg. 28,689, 28,689 (May 26, 1999) (1999 Guidance). The proposed rule would have defined “public
charge” to mean an alien “who is likely to become primarily dependent on the Government for subsistence
as demonstrated by either: (i) [t]he receipt of public

5
cash assistance for income maintenance purposes, or
(ii) [i]nstitutionalization for long-term care at Government expense.” 64 Fed. Reg. at 28,681. When it announced the proposed rule, INS also issued “field guidance” adopting the proposed rule’s definition of “public
charge.” 64 Fed. Reg. at 28,689. The proposed rule was
never finalized, however, leaving only the 1999 Guidance in place. 84 Fed. Reg. at 41,348 n.295.
3. In October 2018, DHS announced a new approach
to public-charge determinations. It did so by providing
notice of a proposed rule and soliciting comments. 83
Fed. Reg. 51,114 (Oct. 10, 2018). After responding to
comments timely submitted, DHS promulgated a final
rule in August 2019. 84 Fed. Reg. at 41,501 (Rule).
The Rule defines “public charge” to mean “an alien
who receives one or more public benefits [as defined in
the Rule] * * * for more than 12 months in the aggregate within any 36-month period.” 84 Fed. Reg. at
41,501. The designated public benefits include cash assistance for income maintenance and certain non-cash
benefits, including most Medicaid benefits, Supplemental Nutrition Assistance Program benefits, and federal housing assistance. Ibid. As the agency explained,
the Rule’s definition of “public charge” differs from the
1999 Guidance in that (1) it incorporates certain noncash benefits and (2) it replaces the “primarily dependent” standard with the 12-month/36-month measure of
dependence. Id. at 41,294-41,295.
The Rule also sets forth a framework immigration
officials will use to evaluate whether, considering the
“totality of an alien’s individual circumstances,” the alien is “likely at any time in the future to become a public
charge.” 84 Fed. Reg. at 41,369; see id. at 41,501-41,504.
Among other things, the framework identifies a number

6
of factors an adjudicator must consider in making a
public-charge determination, such as the alien’s age, financial resources, employment history, education, and
health. Ibid. The Rule was set to take effect on October
15, 2019, and was originally set to apply prospectively
to applications and petitions postmarked (or, if applicable, submitted electronically) on or after that date. Id.
at 41,292.
B. Procedural History

1. In separate lawsuits filed (and since consolidated)
in the United States District Court for the Southern
District of New York, two sets of plaintiffs (all respondents here) challenged the Rule—the States of New
York, Connecticut, and Vermont, along with the City of
New York, in one case, and four nonprofit organizations
in the other. Respondents contend that the statutory
term “public charge” unambiguously includes only persons who are primarily dependent on the government
for subsistence, and thus that the Rule’s definition of
“public charge” is not a permissible construction of the
INA. See App., infra, 104a, 140a. Respondents further
allege that the Rule is arbitrary and capricious, see
5 U.S.C. 706(2)(A), and violates Section 504 of the Rehabilitation Act of 1973 (Rehabilitation Act), 29 U.S.C.
794. See App., infra, 107a, 112a, 143a, 147a. The organizational plaintiffs additionally assert that the Rule violates the equal-protection component of the Fifth
Amendment. See id. at 148a.
On October 11, 2019, in two materially similar opinions, the district court granted respondents’ requests
for nationwide preliminary injunctions barring DHS
from implementing the Rule and for stays of the Rule’s
effective date under 5 U.S.C. 705. App., infra, 91a-120a,
125a-157a; see id. at 121a-124a, 158a-161a (orders

7
granting preliminary injunctions and stays). The court
concluded that respondents had standing to challenge
the Rule and fell within the zone of interests protected
by the public-charge inadmissibility provision. Id. at
97a-100a, 102a-103a, 132a-136a, 138a-139a. On the merits, the court concluded that respondents were likely to
prevail on their claim that the Rule’s definition of “public charge” is not a reasonable interpretation of the
term. Based on its review of “the plain language of the
INA, the history and common-law meaning of ‘public
charge,’ agency interpretation, and Congress’s repeated reenactment of the INA’s public charge provision without material change,” the court found that
“ ‘public charge’ has never been understood to mean receipt of 12 months of benefits within a 36-month period.” Id. at 105a-106a, 141a (emphasis omitted).
The district court also concluded that respondents
were likely to succeed in demonstrating that the Rule
was arbitrary and capricious because DHS had “fail[ed]
to provide any reasonable explanation for changing the
definition of ‘public charge’ or the framework for evaluating whether a noncitizen is likely to become a public
charge.” App., infra, 108a, 144a. The court further concluded that DHS had failed to “demonstrate rational relationships between many of the additional factors enumerated in the Rule and a finding of benefits use.” Id.
at 110a, 146a. For the same reasons, the court concluded that the organizational plaintiffs had raised serious questions regarding whether the Rule violated
equal-protection principles. Id. at 148a-150a. The court
further concluded that respondents had raised a “colorable argument” that the Rule violates the Rehabilita-

8
tion Act because the Rule “considers disability as a negative factor in the public charge assessment.” Id. at
112a-113a, 148a.
Regarding the other preliminary-injunction factors,
the district court concluded that respondents’ anticipated injuries—i.e., harms to the States’ and City’s economic interests and to the organizational plaintiffs’ ability to carry out their missions—were irreparable. App.,
infra, 113a-114a, 150a-151a. The court also found that
the balance of equities and public interest weighed in
favor of preliminary injunctive relief. Id. at 114a-116a,
151a-153a.
Finally, the court concluded that the preliminary injunctions should operate nationwide in order to promote “uniformity” in “national immigration policies.”
App., infra, 117a, 154a.
2. On January 27, 2020, after the district court and
court of appeals denied the government’s motions for
stays pending appeal, this Court stayed the district
court’s nationwide injunctions in their entirety, “pending disposition of the Government’s appeal in the
United States Court of Appeals for the Second Circuit
and disposition of the Government’s petition for a writ
of certiorari, if such writ is timely sought.” 140 S. Ct.
599, 599. After this Court stayed a parallel injunction
issued within the Seventh Circuit, see Cook County, 140
S. Ct. 681, DHS implemented the Rule nationwide on
February 24, 2020.
3. The court of appeals affirmed the district court’s
entry of the preliminary injunctions, although it narrowed them so that they would apply only to aliens in
the States of New York, Connecticut, and Vermont.
App., infra, 1a-90a.

9
The court of appeals held that respondents had Article III standing. App., infra, 21a-27a. The court further held that respondents’ interests in “the economic
benefits that result from healthy, productive, and engaged immigrant communities” and “non-citizen wellbeing and status” came within the zone of interests
“protected by the public charge ground.” Id. at 29a; see
id. at 27a-30a.
On the merits, the court of appeals held that the Rule
is likely contrary to the INA. App., infra, 32a-66a. The
court did not dispute that the term “public charge” is
ambiguous on its face. Id. at 32a-33a. But applying the
“ratification canon,” it concluded that “the clear intent
of Congress” could be discerned by examining judicial
and administrative interpretations of the term in the
nineteenth and twentieth centuries, which it concluded
Congress had ratified either through the original adoption of the INA in 1952 or through enactment of the current public-charge inadmissibility provision as part of
the Illegal Immigration Reform and Immigrant Responsibility Act of 1996, Pub. L. No. 104-208, Div. C, Tit.
V, § 531, 110 Stat. 3009-674. App., infra, 33a; see id. at
33a-54a. Specifically, the court stated that in light of
those administrative and judicial decisions, the term
“public charge” acquired a settled meaning referring to
“a person who is unable to support herself, either
through work, savings, or family ties.” Id. at 47a. The
court “recognize[d] that [its] conclusion that Congress
ratified the settled meaning of ‘public charge’ in 1996
conflict[ed] with decisions from the only two circuits to
have addressed this argument to date,” but found those
decisions unpersuasive. Id. at 51a-52a (citing City &
County of San Francisco, 944 F.3d at 798; Cook County,
962 F.3d at 226). And because the Rule’s definition of

10
“public charge” differed from what the court of appeals
took to be the “settled meaning” of the term, the court
held that respondents “have demonstrated a likelihood
of success on the merits.” Id. at 66a-67a.
The court of appeals also concluded that the Rule is
likely arbitrary and capricious. App., infra, 67a-87a.
The court noted that DHS had justified the Rule on the
ground that it would better serve Congress’s purpose of
“ensuring that aliens . . . be self-sufficient and not reliant on public resources,” id. at 69a (quoting 84 Fed.
Reg. at 41,319), but the court found that explanation
was inadequate “for the same reasons” that the court
had rejected DHS’s interpretation of the INA, ibid.
Specifically, the court concluded that because “Congress’s vision of self-sufficiency does not anticipate abstention from all benefits use,” the Rule could not be
explained as a superior means of advancing congressional policies. Ibid. The court also criticized DHS’s
justifications for considering non-cash benefits, noting
that the “goals and eligibility criteria” for those programs indicate that they are not intended only to benefit individuals in poverty who are unable to support
themselves, but also to supplement the income of low
and middle income individuals. Id. at 73a; see id. at 72a78a. The court did not reach respondents’ Rehabilitation Act or equal-protection arguments. Id. at 32a n.20.
With respect to the other preliminary-injunction factors, the court of appeals concluded that respondents
face irreparable injuries due to benefits disenrollment
caused by the Rule, and that the balance of the equities
favored preliminary injunctive relief. App., infra, 78a81a. As for the injunctions’ scope, the court noted that
“where, as here, numerous challenges to the same

11
agency action are being litigated simultaneously in district and circuit courts across the country,” a district
court should not lightly enjoin that agency action nationwide. Id. at 83a. The court therefore narrowed the
preliminary injunctions to apply only to aliens within
the Second Circuit. Id. at 83a-84a. 2
REASONS FOR GRANTING THE PETITION

Congress has declared it the official “immigration
policy of the United States that * * * aliens within the
Nation’s borders not depend on public resources to
meet their needs,” and that “the availability of public
benefits not constitute an incentive for immigration to
the United States.” 8 U.S.C. 1601(2). This case concerns the Executive Branch’s efforts to further that policy through its longstanding authority to deny admission or lawful permanent resident status to aliens whom
it determines are likely to become public charges. As
multiple courts of appeals have recognized, the Rule
On July 29, 2020, while the government’s appeals of the original
preliminary injunctions remained pending in the court of appeals,
the district court entered another preliminary injunction barring
DHS from enforcing the Rule during the pendency of the COVID19-related public health emergency. See 19-cv-7777 D. Ct. Doc. 195.
The district court concluded that, in light of the COVID-19 pandemic, the stay that this Court had entered with respect to the initial
preliminary injunctions was no longer warranted. See id. at 21
(“[T]he irreparable harm and public interests that warrant an injunction have come into sharper focus in the intervening months
since the Supreme Court issued its stay.”). The government has
appealed the July 29 preliminary injunction to the court of appeals,
and that court has stayed the injunction on the ground that the district court likely lacked jurisdiction to enter a new preliminary injunction while the appeals of the original preliminary injunctions remained pending. See No. 20-2537, 2020 WL 5495530 (2d Cir. Sept.
11, 2020). The July 29 preliminary injunction is not at issue here.
2

12
represents a “plainly permissible” exercise of the Executive Branch’s broad authority in this area. CASA de
Maryland, Inc. v. Trump, 971 F.3d 220, 244 (4th Cir.
2020); see City & County of San Francisco v. United
States Citizenship & Immigration Services, 944 F.3d
773, 799 (9th Cir. 2019) (granting a stay pending appeal
after concluding that the Rule “easily” qualifies as “a
permissible construction of the INA”). The Second Circuit erred in concluding otherwise, and its decision
would irreparably harm the interests of the United
States if allowed to take effect—as this Court’s previous
entry of a stay pending appeal recognized. Accordingly,
the Court should grant the petition for a writ of certiorari and reverse the decision below. 3
I. THE COURT OF APPEALS ERRED IN HOLDING THAT
RESPONDENTS ARE LIKELY TO SUCCEED IN THEIR
CHALLENGE TO THE RULE

Entry of a preliminary injunction was doubly inappropriate here. Respondents are not proper plaintiffs
to challenge DHS’s construction of the INA’s publiccharge inadmissibility provision, and their claims are
unlikely to succeed on the merits regardless.
A. As a threshold matter, respondents cannot invoke
the cause of action provided by the Administrative Procedure Act, 5 U.S.C. 702, because their asserted injuries
are not even “arguably within the zone of interests to be
The government is also filing a petition for a writ of certiorari
from the Seventh Circuit’s decision in Cook County v. Wolf, supra,
which likewise erred in affirming a preliminary injunction against
the Rule. See Pet., Wolf v. Cook County, No. 20-___. As the government explains in that petition, it would be appropriate for the
Court to hold that petition pending its consideration of the petition
here and any further proceedings in this case; there is no need for
the Court to grant plenary review in both cases.
3

13
protected or regulated” by the INA’s public-charge inadmissibility provision. Match-E-Be-Nash-She-Wish
Band of Pottawatomi Indians v. Patchak, 567 U.S. 209,
224 (2012) (quoting Association of Data Processing Service Organizations, Inc. v. Camp, 397 U.S. 150, 153
(1970)). The zone-of-interests requirement is not satisfied where the interests a plaintiff seeks to vindicate are
only “marginally related to” or “inconsistent” with the
purposes of the statutory provision at issue. Patchak,
567 U.S. at 225 (quoting Clarke v. Securities Industry
Ass’n, 479 U.S. 388, 399 (1987)). When a plaintiff is not
subject to an agency rule and asserts interests inconsistent with or unrelated to the ones that Congress
sought to further, “it cannot reasonably be assumed
that Congress intended to permit the suit.” Clarke, 479
U.S. at 399.
Such is the case here. The operative effect—and evident purpose—of the public-charge inadmissibility
provision is to prevent the admission or adjustment of
status of aliens who are likely to rely on taxpayerfunded public benefits. See 8 U.S.C. 1182(a)(4)(A); cf.
8 U.S.C. 1601(4) (discussing the government’s interest
in “assuring that individual aliens not burden the public
benefits system”). Respondents are not themselves
subject to that provision, and the interests they seek to
further through their suit are inconsistent with its purpose: rather than seeking to limit benefits usage by aliens, respondents’ object in bringing suit is to facilitate
benefits usage by aliens. Given that inconsistency, it
cannot reasonably be assumed that Congress would
have intended to authorize such suits by state and local
governments and non-governmental advocacy organizations. Indeed, even if DHS expanded the “public
charge” definition beyond whatever limits are imposed

14
by that ambiguous phrase, any such limits plainly are
intended to protect the aliens themselves—and are not
even “arguably” intended to protect state and local governments or nongovernmental advocacy organizations
from any indirect economic effects caused by aliens’
avoidance of benefits that would trigger the Rule. Cf.
Thompson v. North American Stainless, LP, 562 U.S.
170, 177 (2011) (rejecting an understanding of the zone
of interests protected by Title VII of the Civil Rights
Act of 1964 that would allow “a shareholder * * * to sue
a company for firing a valuable employee for racially
discriminatory reasons, so long as he could show that
the value of his stock decreased as a consequence”).
B. In any event, the Rule is lawful. Respondents’
contrary claims all lack merit.
1. Although Congress has never defined the term
“public charge,” when it “enacted the INA in 1952 * * *
[t]he ordinary meaning of ‘public charge’ * * * was ‘one
who produces a money charge upon, or an expense to,
the public for support and care.’ ” CASA de Maryland,
971 F.3d at 242 (quoting Black’s Law Dictionary 295
(4th ed. 1951)); see Black’s Law Dictionary 311 (3d ed.
1933) (explaining that “[p]ublic [c]harge,” “[a]s used in”
the Immigration Act of 1917, ch. 29, 39 Stat. 874, means
“one who produces a money charge on, or an expense to,
the public for support and care”) (emphasis omitted);
Arthur E. Cook & John J. Hagerty, Immigration Laws
of the United States § 285 (1929) (noting that “[p]ublic
[c]harge” meant a person who required “any maintenance, or financial assistance, rendered from public
funds, or funds secured by taxation”). That ordinary
meaning easily encompasses the Rule’s definition of the
term to cover an individual who relies for a prolonged

15
or intense period on a narrow set of means-tested public
benefits to meet his or her basic needs.
Related statutory provisions confirm that the Rule
represents a lawful interpretation of the INA. See
CASA de Maryland, 971 F.3d at 243-244. Those provisions show that receipt of public benefits, including noncash benefits, can establish that an alien qualifies as
likely to become a public charge, even if the alien is not
primarily dependent on public support for sustenance.
One such set of provisions requires that many aliens
seeking admission or adjustment of status must submit
“affidavit[s] of support” executed by sponsors, such as
a family member. See 8 U.S.C. 1182(a)(4)(C) and (D).
Congress specified that the sponsor must agree “to
maintain the sponsored alien at an annual income that
is not less than 125 percent of the Federal poverty line,”
8 U.S.C. 1183a(a)(1)(A), and Congress granted federal
and state governments the right to seek reimbursement
from the sponsor for “any means-tested public benefit”
the government provides to the alien during the period
the support obligation remains in effect, 8 U.S.C.
1183a(b)(1)(A), including non-cash benefits. Aliens who
fail to obtain the required affidavit are treated by operation of law as inadmissible on the public-charge
ground, regardless of individual circumstances. 8 U.S.C.
1182(a)(4). Those provisions show Congress’s recognition that the mere possibility that an alien might obtain
unreimbursed, means-tested public benefits in the future could be sufficient to render that alien likely to become a public charge, regardless of whether the alien
was likely to be primarily dependent on those benefits.
See CASA de Maryland, 971 F.3d at 243 (“This sponsorand-affidavit scheme * * * underscores that the public
charge provision is naturally read as extending beyond

16
only those who may become ‘primarily dependent’ on
public support.”); Cook County v. Wolf, 962 F.3d 208,
246 (7th Cir. 2020) (Barrett, J., dissenting) (“[T]he affidavit provision reflects Congress’s view that the term
‘public charge’ encompasses supplemental as well as
primary dependence on public assistance.”).
Surrounding statutory provisions also show why
Congress would have intended the Executive Branch to
take such public benefits into account in making publiccharge determinations. In legislation passed contemporaneously with the 1996 enactment of the current publiccharge provision, Congress stressed the government’s
“compelling” interest in ensuring “that aliens be selfreliant in accordance with national immigration policy.”
8 U.S.C. 1601(5). Congress observed that “[s]elfsufficiency has been a basic principle of United States
immigration law since this country’s earliest immigration statutes,” 8 U.S.C. 1601(1), and provided that it
“continues to be the immigration policy of the United
States that * * * (A) aliens within the Nation’s borders
not depend on public resources to meet their needs,
* * * and (B) the availability of public benefits not constitute an incentive for immigration to the United
States,” 8 U.S.C. 1601(2). Congress equated a lack of
“self-sufficiency” with the receipt of “public benefits”
by aliens, 8 U.S.C. 1601(3), which it defined broadly to
include any “welfare, health, disability, public or assisted housing * * * or any other similar benefit,”
8 U.S.C. 1611(c)(1)(B). And Congress emphasized the
government’s strong interest in “assuring that individual aliens not burden the public benefits system.”
8 U.S.C. 1601(4).
Given the broad, plain meaning of the statutory
phrase “public charge” as one who imposes a charge

17
upon the public, and Congress’s statutory policy of ensuring that aliens do “not burden the public benefits
system” or find the nation’s generous benefits programs to be “an incentive for immigration to the United
States,” 8 U.S.C. 1601(2)(B) and (4), the Rule “easily”
qualifies as a “permissible construction of the INA.”
City & County of San Francisco, 944 F.3d at 799; see
CASA de Maryland, 971 F.3d at 251 (holding that the
Rule is “unquestionably lawful”). And that is especially
true in light of the heightened deference traditionally
afforded to Executive Branch determinations in the immigration context, “where Congress has expressly and
specifically delegated power to the executive in an area
that overlaps with the executive’s traditional constitutional function.” CASA de Maryland, 971 F.3d at 251
n.6; see id. at 251 (“When Congress chooses to delegate
power to the executive in the domain of immigration,
the second branch operates at the apex of its constitutional authority.”) (citing United States v. CurtissWright Export Corp., 299 U.S. 304, 319-320 (1936)).
2. Accordingly, the court of appeals erred in holding
that the Rule is likely contrary to law. Indeed, the court
did not dispute that the statutory term “public charge”
is broad enough “on its face” to support the Rule’s interpretation. App., infra, 33a. Nevertheless, it concluded that “public charge” has acquired an unambiguously narrower meaning—namely, a person wholly “unable to support herself, either through work, savings, or
family ties,” id. at 47a—through “settled judicial and
administrative interpretations” that it presumed Congress had intended to ratify by continuing to use the
phrase. Id. at 33a. As the court of appeals recognized,
other appellate courts have rejected that narrowing
construction. See id. at 51a-52a (citing City & County

18
of San Francisco, 944 F.3d at 798; and Cook County,
962 F.3d at 226); see also CASA de Maryland, 971 F.3d
at 245-250. And for good reason.
This is not a case where respondents’ proffered construction was reflected in a “judicial consensus so broad
and unquestioned that [the Court] must presume Congress knew of and endorsed it” when it re-enacted the
“public charge” term in its current form in 1996. Jama
v. Immigration & Customs Enforcement, 543 U.S. 335,
349 (2005); see Federal Deposit Insurance Corp. v.
Philadelphia Gear Corp., 476 U.S. 426, 438 (1986) (recognizing that it is appropriate to “give a great deal of
deference” to a “longstanding and consistent” agency
interpretation of a statutory phrase). The court of appeals ignored, for example, the broader definitions of
“public charge” from legal dictionaries and an immigration treatise referenced above. See pp. 14-15, supra. It
likewise ignored that in connection with its issuance of
the 1999 Guidance—on which the court of appeals relied
heavily in other respects—INS had stated that the term
was “ambiguous,” had “never been defined in statute or
regulation,” and required further administrative specification in light of “confusion over the meaning of ‘public
charge,’ ” 64 Fed. Reg. at 28,676, 28,677; id. at 28,689.
And most fundamentally, it failed to acknowledge the
broad range of meanings given to “public charge” in judicial and administrative decisions over the course of
the nineteenth and twentieth centuries.
As the Fourth Circuit explained after an extensive
review of those decisions, “executive and judicial practice from 1882 to the present rebuts any idea that ‘public charge’ has been uniformly understood * * * as pertaining only to those who are ‘primarily dependent’ on

19
public aid.” CASA de Maryland, 971 F.3d at 246. Indeed, “[w]hen courts did endeavor to define the term
‘public charge,’ they often adopted its ordinary meaning.” Id. at 248. Thus—as the Ninth Circuit put it—the
“history of the use of ‘public charge’ in federal immigration law demonstrates that ‘public charge’ does not have
a fixed, unambiguous meaning. Rather, the phrase is
subject to multiple interpretations, it in fact has been
interpreted differently, and the Executive Branch has
been afforded the discretion to interpret it.” City &
County of San Francisco, 944 F.3d at 796-797; see Cook
County, 962 F.3d at 226 (“[T]he meaning of ‘public
charge’ has evolved over time,” but “[w]hat has been
consistent is the delegation from Congress to the Executive Branch of discretion, within bounds, to make
public-charge determinations.”).
The court of appeals’ view that “public charge” is unambiguously limited to respondents’ narrower meaning
is also impossible to reconcile with the affidavit-ofsupport provision discussed above. As discussed, see
pp. 15-16, supra, that provision reflects Congress’s
recognition that an alien who uses unreimbursed,
means-tested public benefits may qualify as a public
charge even if he is not primarily dependent on those
benefits.
The court of appeals discounted the relevance of that
provision because “not all immigrants have to provide
affidavits of support,” App., infra, 64a, but that response is wrong twice over. First, the affidavit-ofsupport provision is significant not because of its direct
application, but rather because it shows Congress’s understanding that the term “public charge” is not limited
to those who are primarily dependent on government
benefits. The fact that the affidavit provision itself does

20
not apply to all aliens is thus immaterial. Second,
“[t]here is an obvious explanation for why Congress required supporting affidavits from family-based immigrants and not from” most other immigrants, and it has
nothing to do with a narrower understanding of “public
charge.” Cook County, 962 F.3d at 245 (Barrett, J., dissenting). Rather, the family-based immigration context
“is the only context in which it makes sense to demand
this assurance” as a means of preventing unreimbursed
usage of means-tested public benefits, because other aliens either are very unlikely to rely on means-tested
benefits or lack any connections in the United States
who might be willing to provide an affidavit. Ibid.; see
id. at 245-246. The court of appeals was thus wrong to
ignore the “compelling evidence” the affidavit-of-support
provision offers about the “scope of the public charge
inquiry.” Id. at 246.
3. The court of appeals’ view that the Rule is likely
arbitrary and capricious is similarly flawed. Indeed, the
court recognized that its conclusion on that question
was closely tied to its narrow understanding of the statute. See App., infra, 69a. Applying a proper understanding, the arbitrary-and-capricious claim fails.
DHS explained that it adopted the Rule based on its
judgment, as the agency charged with making admissibility decisions, that the new interpretation would better serve Congress’s desire to ensure that aliens are
“self-sufficien[t],” do “not burden the public benefits
system,” and do not view “the availability of public benefits” as “an incentive for immigration to the United
States,” 8 U.S.C. 1601(1), (2)(B), and (4). See 84 Fed.
Reg. at 41,319. In DHS’s view, the prior approach “assumed an overly permissible definition of dependence
on public benefits.” Ibid. The court of appeals rejected

21
that justification, however, because it concluded that
Congress had fully served its desire to promote selfsufficiency by imposing statutory limits on aliens’ eligibility for benefits, instead of denying them access to
such benefits altogether. See App., infra, 69a-70a.
Where Congress made aliens eligible for benefits, the
court stated, it could not have wanted potential usage of
those same benefits to be weighed against an alien’s admissibility. Ibid.; see id. at 61a (rejecting any interpretation of “public charge” that might “penalize[] noncitizens for the possibility that they will access the very
benefits [Congress] preserved for them”).
That analysis is flawed in multiple respects. Most
fundamentally, the court of appeals’ “logic would read
the public charge provision out of the statute”—if benefits for which aliens’ eligibility has been preserved
must be excluded from the public-charge analysis, then
all benefits would be excluded. Cook County, 962 F.3d
at 246 (Barrett, J., dissenting). Indeed, if the court’s
understanding were correct, “DHS could not exclude an
applicant even if it predicted that the applicant would
eventually become permanently reliant on government
benefits, because the future use of those benefits would,
after all, be authorized.” Id. at 247.
Instead, Congress’s decision to make aliens eligible
for benefits in certain circumstances after they have
been lawfully admitted simply shows that while Congress desired to prevent immigration by aliens whom
immigration authorities can predict at the outset “are
likely to need public benefits,” it “also provided a backstop for those who face setbacks that were unforeseeable on the front end.” CASA de Maryland, 971 F.3d at
253; cf. 8 U.S.C. 1227(a)(5) (making an alien removable
if, within five years of entry, the alien “has become a

22
public charge from causes not affirmatively shown to
have arisen” since entry). DHS’s attempt to be more
proactive about identifying likely public charges on the
front end is consistent with Congress’s decision to provide a backstop for when those predictive efforts fail.
The arbitrary-and-capricious test does not allow a
court “to substitute its judgment for that of the
agency.” FCC v. Fox Television Stations, Inc., 556 U.S.
502, 513 (2009) (citation omitted). Instead, the test is
satisfied so long as the agency “remained ‘within the
bounds of reasoned decisionmaking,’ ” regardless of
whether the reviewing court believes the agency’s “decision was ‘the best one possible’ or even whether it was
‘better than the alternatives.’ ” Department of Commerce v. New York, 139 S. Ct. 2551, 2570, 2571 (2019)
(citations omitted). DHS’s explanation here is clearly
sufficient under that deferential standard. See City &
County of San Francisco, 944 F.3d at 805 (“Because
DHS has adequately explained the reasons for the Final
Rule, it has demonstrated a strong likelihood of success
on the merits.”). 4
Having rejected what it viewed as DHS’s primary justification
for its changed interpretation, see App., infra, 67a-70a, the court of
appeals proceeded to consider what it viewed as an “additional,”
“subsidiary” explanation for DHS’s adoption of the Rule—namely
that the 1999 Guidance had made an unwarranted distinction between cash and non-cash benefits, id. at 72a. But as Judge Barrett
has observed, when assessing an alien’s reliance on public benefits,
it makes little difference “whether the government chose to give
someone $500 for groceries or $500 worth of food.” Cook County,
962 F.3d at 249 (dissenting opinion). And in any event, for the reasons discussed earlier, see pp. 14-20, supra, use of in-kind benefits
can render an alien a “public charge” even if the alien relies on them
for supplemental assistance rather than as her primary means of
support.
4

23
4. The district court stated that preliminary injunctive relief was also warranted because respondents had
offered “at least a colorable argument that the Rule as
applied may violate the Rehabilitation Act,” App., infra,
112a-113a, 148a, and because the organizational respondents had “sufficiently demonstrated a likelihood
of success on the merits of their equal protection claim,”
id. at 149a. Those assertions, which the court of appeals
did not endorse, see id. at 32a n.20, lack merit.
a. The Rehabilitation Act provides that “[n]o otherwise qualified individual * * * shall, solely by reason of
her or his disability,” be denied the benefits of certain
federal programs. 29 U.S.C. 794(a). “[B]y its terms,”
the statute “does not compel [regulated entities] to disregard the disabilities of * * * individuals * * * . Instead, it requires only that ‘an otherwise qualified * * *
individual’ not be excluded * * * ‘solely by reason of
[his or her disability].’ ” Southeastern Community College v. Davis, 442 U.S. 397, 405 (1979). The Rule complies with that requirement: it is not “solely” an alien’s
disability that results in her inadmissibility under the
Rule, but rather the likelihood—because of the totality
of her circumstances, including but not limited to her
disability—that she will use the specified amount and
type of public benefits after her admission.
Moreover, the INA itself explicitly directs that immigration officials “shall” consider an alien’s “health”
when assessing whether she is likely to become a public
charge. 8 U.S.C. 1182(a)(4)(B)(i)(II). That statutory
command, made in the specific context of the publiccharge inadmissibility provision, provides the governing rule in this context. Radzanower v. Touche Ross &
Co., 426 U.S. 148, 153 (1976) (“[A] specific statute will

24
not be controlled or nullified by a general one.”) (citation omitted).
b. The organizational respondents’ equal-protection
challenge is likewise meritless. The district court concluded that the Rule would likely fail rational-basis review because there was “no reasonable basis for [the
government’s] sharp departure from the current public
charge determination framework.” App., infra, 150a.
As discussed earlier, pp. 14-22, supra, that is incorrect.
While the district court evidently disagreed with the
policy choice DHS made, DHS offered rational grounds
for that choice. And the organizational plaintiffs’ argument that the Rule should be subjected to strict scrutiny because it was advanced by administration officials
whom they believe harbor racial animus, see 19-cv-7993
D. Ct. Doc. 1, at 79-94 (Aug. 27, 2019), is similarly unpersuasive, because then-Acting Secretary of Homeland Security Kevin McAleenan explained at length the
congressionally sanctioned self-sufficiency principles
that led him to adopt the Rule. See, e.g., 84 Fed. Reg.
at 41,319-41,320; see also Department of Homeland
Security v. Regents of the University of California, 140
S. Ct. 1891, 1916 (2020) (plurality opinion) (rejecting a
similar equal-protection challenge based on statements
“remote in time and made in unrelated contexts”).
II. THE DECISION BELOW WARRANTS THIS COURT’S
REVIEW

The court of appeals’ determination that respondents are likely to succeed in their challenge to the Rule
warrants this Court’s review.
A. The courts of appeals are divided over the lawfulness of the Rule. The Fourth Circuit reversed a preliminary injunction against enforcement of the Rule based
on its conclusion that “[t]he DHS Rule * * * comports

25
with the best reading of the INA.” CASA de Maryland,
971 F.3d at 250. Indeed, it concluded that “[t]o invalidate the Rule would * * * entail the disregard of the
plain text of a duly enacted statute,” and would “visit
palpable harm upon the Constitution’s structure and
the circumscribed function of the federal courts that
document prescribes.” Id. at 229. Similarly, in entering
a stay pending appeal of preliminary injunctions against
the Rule, the Ninth Circuit issued a lengthy published
opinion concluding that “[t]he Final Rule’s definition of
‘public charge’ is consistent with the relevant statutes,
and DHS’s action was not arbitrary or capricious.” City
& County of San Francisco, 944 F.3d at 790. 5
Two other courts of appeals have held that the Rule
is likely unlawful, but have done so for different reasons. In the decision below, as discussed, the Second
Circuit relied primarily on its erroneous view that “public charge” has acquired a narrow, settled meaning that
excludes aliens who use means-tested public benefits as
supplemental rather than primary support. See App.,
infra, 46a. A divided panel of the Seventh Circuit,
meanwhile, rejected that conclusion—but found that
the rule is likely unlawful for other reasons. See Cook
County, 962 F.3d at 226-233. The panel majority erroneously faulted the Rule for treating an alien’s disability as a negative factor (which it believed to be a violation of the Rehabilitation Act), id. at 227-228; for “penalizing people for accepting benefits Congress made
A merits panel of the Ninth Circuit heard argument on the
appeal in City & County of San Francisco on September 15, 2020.
See Docket, City & County of San Francisco, supra (No. 19-17213).
And the plaintiffs in CASA de Maryland have filed a petition for
rehearing en banc, which remains pending as of this filing. See Pet.
for Reh’g, CASA de Maryland, supra (No. 19-2222).
5

26
available to them,” id. at 228; and for lacking what it
viewed as a sufficiently reasoned explanation for the
changed interpretation, id. at 229-233. But see id. at
234-254 (Barrett, J., dissenting); pp. 20-24, supra. That
disagreement, regarding not only the Rule’s ultimate
legality but also the particular grounds on which it
might be found unlawful (which would affect DHS’s
flexibility to adopt alternatives in the future), warrants
this Court’s review.
B. Even apart from the aforementioned conflict, the
decision below warrants this Court’s review because it
concerns an issue of significant importance and, if allowed to stand, would result in irreparable harm to the
United States and the public.
Decisions about whether to admit aliens into the
country, or to allow aliens already admitted into the
country to change their status to that of a lawful permanent resident, implicate a “fundamental sovereign attribute exercised by the Government’s political departments.” Fiallo v. Bell, 430 U.S. 787, 792 (1977) (citation
omitted). With respect to the public-charge ground of
inadmissibility in particular, Congress has explicitly entrusted the Executive Branch with the authority to
deny admission or adjustment of status to aliens who,
“in the opinion of the [Secretary of Homeland Security],” are “likely at any time to become a public
charge.” 8 U.S.C. 1182(a)(4)(A).
Absent this Court’s review, however, the decision below would require the adjustment to lawful permanent
resident status of aliens whom DHS has determined are
likely to become public charges. And as the court of appeals acknowledged—and as this Court implicitly recognized in granting a stay pending appeal—those effects are irreparable: once the decisions have been

27
made, no practical means exist by which to reverse
them. See App., infra, 80a (“Because there is no apparent means by which DHS could revisit adjustment determinations made while the Rule is enjoined, this harm
is irreparable.”). Given the substantial grounds for concluding that the court of appeals’ decision was wrong,
that irreparable harm concerning a fundamental attribute of sovereignty should not be permitted to occur
without this Court’s review.
CONCLUSION

The petition for a writ of certiorari should be
granted.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
JEFFREY BOSSERT CLARK
Acting Assistant Attorney
General
HASHIM M. MOOPPAN
Counselor to the Solicitor
General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
BENJAMIN W. SNYDER
Assistant to the Solicitor
General
DANIEL TENNY
GERARD SINZDAK
JOSHUA DOS SANTOS
JACK STARCHER
Attorneys

OCTOBER 2020

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

Docket Nos. 19-3591, 19-3595
STATE OF NEW YORK, CITY OF NEW YORK, STATE OF
CONNECTICUT, STATE OF VERMONT,
PLAINTIFFS-APPELLEES
v.
UNITED STATES DEPARTMENT OF HOMELAND
SECURITY, SECRETARY CHAD F. WOLF, IN HIS
OFFICIAL CAPACITY AS ACTING SECRETARY OF THE
UNITED STATES DEPARTMENT OF HOMELAND
SECURITY, UNITED STATES CITIZENSHIP AND
IMMIGRATION SERVICES, DIRECTOR KENNETH T.
CUCCINELLI II, IN HIS OFFICIAL CAPACITY AS ACTING
DIRECTOR OF UNITED STATES CITIZENSHIP AND
IMMIGRATION SERVICES, UNITED STATES OF
AMERICA, DEFENDANTS-APPELLANTS*
Argued: Mar. 2, 2020
Decided: Aug. 4, 2020
MAKE THE ROAD NEW YORK, AFRICAN SERVICES
COMMITTEEE, ASIAN AMERICAN FEDERATION,
CATHOLIC CHARITIES COMMUNITIES SERVICES,
(ARCHDIOCESE OF NEW YORK), CATHOLIC LEGAL
IMMIGRATION NETWORK, INC., PLAINTIFFS-APPELLEES
v.

The Clerk of the Court is respectfully directed to amend the caption as set forth above.
*

(1a)

2a
KENNETH T. CUCCINELLI, IN HIS OFFICIAL CAPACITY
AS ACTING DIRECTOR OF UNITED STATES CITIZENSHIP
AND IMMIGRATION SERVICES, UNITED STATES
CITIZENSHIP AND IMMIGRATION SERVICES,
CHAD F. WOLF, IN HIS OFFICIAL CAPACITY AS ACTING
SECRETARY OF HOMELAND SECURITY, UNITED STATES
DEPARTMENT OF HOMELAND SECURITY,
DEFENDANTS-APPELLANTS
Before:

LEVAL, HALL, and LYNCH, Circuit Judges.

The Department of Homeland Security appeals from
two orders of the United States District Court for the
Southern District of New York (Daniels, J.) granting
motions for preliminary injunctions in these cases. Two
sets of Plaintiffs-Appellees—one a group of state and
local governments and the other a group of non-profit
organizations—filed separate suits under the Administrative Procedure Act, both challenging the validity of a
Department of Homeland Security rule interpreting
8 U.S.C. § 1182(a)(4). This statutory provision renders
inadmissible to the United States any non-citizen deemed
likely to become a public charge. The district court
concluded that Plaintiffs-Appellees demonstrated a likelihood of success on the merits of their claims that the
rule is contrary to the Immigration and Nationality Act
and that it is arbitrary and capricious. After finding
that the other preliminary injunction factors also weighed
in favor of granting relief, the district court entered orders in both cases to enjoin implementation of the rule
nationwide. We agree with the district court that a preliminary injunction is warranted, but modify the scope of
the injunctions to cover only the states of New York,
Connecticut, and Vermont. The orders of the district
court are thus AFFIRMED AS MODIFIED.

3a
GERARD E. LYNCH, Circuit Judge:
In August 2019, the Department of Homeland Security (“DHS”) issued a final rule setting out a new agency
interpretation of a longstanding provision of our immigration law that renders inadmissible to the United States
any noncitizen who is likely to become a “public charge.”
See Inadmissibility on Public Charge Grounds, 84 Fed.
Reg. 41,292 (Aug. 14, 2019) (“the Rule” or “the Final
Rule”). The Rule expands the meaning of “public
charge,” with the likely result that significantly more
people will be found inadmissible on that basis. Lawsuits challenging the lawfulness of the Rule were quickly
filed around the country, including two cases in the
Southern District of New York, which we now consider
in tandem on appeal.
These two cases—one brought by New York State,
New York City, Connecticut, and Vermont, and the
other brought by five non-profit organizations that provide legal and social services to non-citizens—raise largely
identical challenges to the Rule, centering on the Rule’s
validity under the Administrative Procedure Act. After
hearing combined oral argument on the Plaintiffs’ motions for preliminary injunctions filed in both cases, the
district court (George B. Daniels, J.) concluded that the
Plaintiffs had demonstrated a likelihood of success on
the merits of their claims and that the other preliminary
injunction factors also favored interim relief. The district court enjoined DHS from implementing the Rule
throughout the United States in the pair of orders from
which DHS now appeals.
We agree that a preliminary injunction is warranted
in these cases, but modify the scope of the injunctions to
cover only the states of New York, Connecticut, and

4a
Vermont. The orders of the district court are thus AFFIRMED AS MODIFIED.
TABLE OF CONTENTS

BACKGROUND ............................................................. 7
I.
1999 Public Charge Guidance ........................ 10
II. 2019 Public Charge Rule ................................ 15
A. The Proposed Rule .................................. 15
B. Revised Definition and Relevant
Public Benefits ......................................... 16
C. Adjudicative Framework ......................... 19
III. Procedural Posture ......................................... 23
DISCUSSION .............................................................. 26
I.
Threshold Arguments..................................... 27
A. Standing ................................................... 27
B. Zone of Interests ..................................... 35
II. Likelihood of Success on the Merits .............. 38
A. Legal Framework .................................... 39
B. The Rule is Contrary to the INA ............ 41
1. Origins of the Public Charge
Ground ................................................ 42
2. The Immigration Act of 1917 ............ 47
3. The Immigration and Nationality
Act of 1952 .......................................... 51
4. The Current Public Charge
Ground ................................................ 54
5. The Settled Meaning on “Public
Charge” ............................................... 56
6. The Rule’s Inconsistency with
the Settled Meaning ........................... 67

5a
C. The Rule is Arbitrary and
Capricious ................................................ 84
1. Explanation for Changed
Definition ............................................ 85
2. Explanation for Expanded List
of Benefits .......................................... 89
III. Irreparable Harm to the Plaintiffs ................ 97
IV. Balance of Equities and the Public
Interest............................................................ 99
V. Scope of Injunction ....................................... 101
CONCLUSION .......................................................... 105
Appendix A ................................................................. 106
BACKGROUND

The Immigration and Nationality Act (“INA”) contains ten grounds of inadmissibility, each listing various
bases on which a non-citizen can be denied admission to
the United States. See 8 U.S.C. § 1182(a)(1)-(10). These
appeals concern the public charge ground, a constant
feature of our immigration law since 1882, which renders inadmissable any non-citizen who “is likely at any
time to become a public charge.” Id. § 1182(a)(4)(A).
The statute itself does not define “public charge,”
and its precise meaning is the hotly contested question
in this litigation. In general terms, however, “public
charge” has historically been understood to refer to a
person who is not self-sufficient and depends on the government for support. See, e.g., 84 Fed. Reg. at 41,295.
The grounds of inadmissibility are assessed not only
when a person is physically entering the country, but
at multiple points in the immigration process. Consequently, the public charge ground of inadmissibility is

6a
applied by three agencies that oversee different aspects
of our immigration system. The Department of State
considers whether non-citizens are inadmissible as likely public charges when adjudicating visa applications
overseas. U.S. Customs and Border Protection (“CBP”),
a unit of DHS, assesses the public charge ground when
it inspects non-citizens arriving at airports or other
ports of entry. And U.S. Citizenship and Immigration
Services (“USCIS”), another component of DHS, applies the ground when adjudicating applications for adjustment of status, the process by which a non-citizen
who is already present in the United States in a temporary immigration status can become a lawful permanent
resident (“LPR”), authorized to live and work in the
United States indefinitely. 1 See id. at 41,294 n.3.
The Department of Justice also has a role to play
when it comes to public charge adjudications, albeit on a
different statutory basis. In addition to the public
charge ground of inadmissibility, the INA also contains
a public charge ground of removal. 2
8 U.S.C. §
1227(a)(5). That provision authorizes the government
to remove non-citizens who have already been admitted
to the country but who became public charges within
five years of their date of entry. Id. The public
charge ground of removal is primarily applied by the
Executive Office for Immigration Review, a component

LPRs are frequently referred to in popular discussion as
“green card holders.”
2
“Removal” is the current legal term for the process popularly
known as “deportation.” See Karageorgious v. Ashcrof t, 374 F.3d
152, 154 (2d Cir. 2004).
1

7a
agency of the Department of Justice that houses the immigration courts.
While multiple agencies are tasked with interpreting
and applying the public charge grounds of inadmissibility and removal, the Rule at issue in these cases is an
interpretation by DHS of the ground of inadmissibility.
Accordingly, the Rule governs only public charge determinations carried out by CBP and USCIS, as component
agencies of DHS. 3 84 Fed. Reg. at 41,294 n.3. As a
practical matter, moreover, the Rule is likely to be applied primarily by USCIS as it adjudicates applications
for adjustment of status, as the lengthy application process provides more opportunity for a full consideration
of the Rule’s provisions than a CBP screening at a port
of entry. See id. at 41,478.
I.

1999 Public Charge Guidance

For twenty years preceding the publication of the
Rule at issue in these cases, the governing agency inter-

In October 2019, the State Department issued an interim final
rule aligning its interpretation of “public charge” with the Rule.
See Visas: Ineligibility Based on Public Charge Grounds, 84 Fed.
Reg. 54,996 (Oct. 11, 2019). Litigation challenging the State Department interim final rule is underway in the Southern District of New
York. See Make the Road New York v. Pompeo, No. 1:19-cv-11633
(S.D.N.Y.). The Department of Justice has drafted a proposed rule
that likewise is intended to adopt a conforming interpretation of the
public charge ground of removal, which has been sent to the Office
of Management and Budget for review, but no actual text of such a
rule has yet been published. See Inadmissibility and Deportability
on Public Charge Grounds, RIN 1125-AA84, Office of Mgmt. & Budget, Spring 2020 Unified Agenda of Regulatory and Deregulatory
Actions.
3

8a
pretation of the public charge ground was guidance published in 1999 (“the 1999 Guidance”) by the Immigration
and Nationality Service (“INS”), the predecessor agency
of DHS. 4 See Field Guidance on Deportability and Inadmissibility on Public Charge Grounds, 64 Fed. Reg.
28,689 (May 26, 1999). The 1999 Guidance was issued
in response to two pieces of legislation passed by Congress in 1996 that had significant impact on the public
charge ground.
The first was the Personal Responsibility and Work
Opportunity Reconciliation Act (“PRWORA”), a sweeping set of reforms to various public benefits programs.
See Pub. L. No. 104-193, 110 Stat. 2105 (1996). Among
other changes, PRWORA greatly restricted non-citizen
access to public benefits in response to concerns that
non-citizens were “applying for and receiving public
benefits . . . at increasing rates.” 8 U.S.C. § 1601(3).
The resulting benefits eligibility scheme for non-citizens
is complex, to say the least. It suffices for present purposes to say that non-citizens who are present in the
United States illegally or who are admitted in a lawful
non-immigrant (i.e., temporary) status are ineligible for
almost all federal benefits, see 8 U.S.C. §§ 1611(a),
1641(b), while those who are in LPR status, which is
permanent, are ineligible for means-tested federal benefits for their first five years as an LPR, see 8 U.S.C.
§§ 1613(a), 1641(b). At the conclusion of this five-year

INS was dissolved, and many of its responsibilities were transferred to DHS, by the Homeland Security Act of 2002. See Pub. L.
No. 107-296, §§ 402(3), 471, 116 Stat. 2135, 2205, 2178.
4

9a
waiting period, LPRs become eligible to receive benefits
for which they otherwise qualify. 5
A little over a month after enacting PRWORA, Congress passed the Illegal Immigration Reform and Immigrant Responsibility Act (“IIRIRA”). See Pub. L. No.
104-208, div. C, 110 Stat. 3009-546 (1996). In IIRIRA,
Congress revisited the public charge ground to add five
factors that adjudicators must consider when determining whether a non-citizen is likely to become a public
charge: the noncitizen’s “[(1)] age; [(2)] health; [(3)] family status; [(4)] assets, resources, and financial status; and
[(5)] education and skills.” 8 U.S.C. § 1182(a)(4)(B)(i).
IIRIRA also required non-citizens seeking to immigrate
to the United States based on their family ties 6 to obtain affidavits of support, in which a sponsor agrees to
maintain the non-citizen at an income of no less than
125% of the federal poverty guidelines (“FPG”), and instructed adjudicators to consider those affidavits as a
discretionary sixth factor in their analysis. 8 U.S.C.
§§ 1182(a)(4)(c), 1183a(a)(1).

The majority of the public benefits to which the Rule applies are
means-tested benefits, that is, there are income and asset limits for
eligibility. However, the housing programs administered by the
Department of Housing and Urban Development are not considered
means-tested benefits and there is thus no five-year waiting period
before LPRs can access these services. See Eligibility Restrictions
on Noncitizens: Inapplicability of Welfare Reform Act Restrictions on Federal Means-Tested Public Benefits, 65 Fed. Reg. 49,994
(Aug. 16, 2000).
6
Persons seeking to immigrate to the United States are eligible
for admission as immigrants on various bases, including having certain familial relationships to United States citizens or LPRs.
5

10a
After the passage of PRWORA and IIRIRA, INS observed widespread “confusion about the relationship between the receipt of federal, state, [and] local public benefits and the meaning of ‘public charge’ under the immigration laws.” 64 Fed. Reg. at 28,689. Concerned that
this confusion was “deterr[ing] eligible aliens and their
families, including U.S. citizen children, from seeking
important health and nutrition benefits that they [we]re
legally entitled to receive,” INS issued the 1999 Guidance, thus for the first time publishing its interpretation
of “public charge” in the Federal Register. 7 Id. at
28,692.
The 1999 Guidance defined “public charge” to mean
a person who is “primarily dependent on the government for subsistence, as demonstrated by either (i) the
receipt of public cash assistance for income maintenance
or (ii) institutionalization for long-term care at government expense.” Id. at 28,689 (internal quotation marks
omitted). The Guidance identified four public benefits
that could be taken as evidence of primary dependence:
Supplemental Security Income (“SSI”), which “guarantees a minimum level of income” for older adults and
people who are blind or disabled; Temporary Assistance
The 1999 Guidance was not a final rule, but was published in the
Federal Register as an interim measure to establish the agency’s
“public charge” definition while INS went through the rulemaking
process. 64 Fed. Reg. at 28,689. The Guidance was a reproduction
of INS’s field guidance, making public the internal directive of the
agency to its officials tasked with applying the “public charge” standard. INS did publish a proposed rule alongside the 1999 Guidance,
but it was never finalized. See Inadmissibility and Deportability on
Public Charge Grounds, 64 Fed. Reg. 28,676 (May 26, 1999). The
1999 Guidance remained the operative agency interpretation until
2019.
7

11a
for Needy Families (“TANF”), which provides cash assistance to families living in poverty; 8 state and local
cash assistance programs, often called “General Assistance” programs; and any program (including Medicaid)
supporting people institutionalized for long-term care.
Id. at 28,692, 28,687; see 45 C.F.R. § 260.20.
INS explained that the nature of these benefits suggested that recipients may be dependent on the government for subsistence, explicitly distinguishing non-cash
benefits that are “by their nature supplemental and do
not, alone or in combination, provide sufficient resources to support an individual or family.” 64 Fed.
Reg. at 28,692. 9 The Guidance instructed that the ultimate determination as to whether a non-citizen was primarily dependent on the government was to be made by
considering the totality of the circumstances: neither
current nor past “receipt of cash income-maintenance
benefits . . . automatically ma[de] an alien inadmissible as likely to become a public charge.” Id. at 28,690.
II. 2019 Public Charge Rule
A.

The Proposed Rule

Nearly two decades after INS issued its 1999 interpretation of “public charge,” DHS published a notice of
proposed rulemaking (“the Proposed Rule”) announcing
TANF also funds various forms of non-cash assistance, e.g., subsidized child care. These additional forms of support were excluded from consideration under the Guidance. See 64 Fed. Reg. at
28,692 n.17.
9
The 1999 Guidance explicitly stated that adjudicators “should not
place any weight on the receipt of non-cash public benefits (other
than institutionalization) or the receipt of cash benefits for purposes
other than for income maintenance.” 64 Fed. Reg. at 28,689.
8

12a
its intention to change the agency’s interpretation of the
public charge ground. See Inadmissibility on Public
Charge Grounds, 83 Fed. Reg. 51,114 (Oct. 10, 2018).
Among other provisions, the Proposed Rule suggested
redefining “public charge” to mean “an alien who receives one or more public benefit” at certain defined usage thresholds, and listed a broader set of benefits as
relevant to the public charge definition. Id. at 51,28990. 10
The Proposed Rule divided its list of relevant benefits into two groups—monetizable and non-monetizable
—and set usage thresholds for each. The monetizable
benefits (e.g., SSI) were to be considered in the public
charge analysis if the cumulative value of the benefits
received in one year exceeded 15% of FPG for a household of one. Id. The non-monetizable benefits (e.g.,
Medicaid) were counted if the non-citizen received the
benefit “for more than 12 months in the aggregate
within a 36 month period.” Id. at 51,290. The Proposed Rule garnered 266,077 comments during the notice and comment period, “the vast majority of which opposed the rule.” 11 84 Fed. Reg. at 41,297.

Technically, the Proposed Rule defined public charge to mean
any non-citizen who received any “public benefit,” but then further
defined “public benefit” to mean one of the listed benefits if usage
exceeded the prescribed threshold level, as described in the next
paragraph.
11
We note that these appeals have also generated significant public interest and acknowledge with appreciation the contributions of
the amici curiae appearing before us. The twenty amicus briefs we
received (nineteen of which support the Plaintiffs, and one of which
supports the government) represent the views of a diverse collection
of more than four hundred organizations, businesses, and scholars
10

13a
B.

Revised Definition and Relevant Public Benefits

In August 2019, DHS published its Final Rule, which
made a number of changes from the Proposed Rule.
Most relevant for our purposes, the Rule enacts a different definition of “public charge,” interpreting the term
as a person “who receives one or more public benefits,
as defined in [a subsequent] section, for more than 12
months in the aggregate within any 36-month period
(such that, for instance, receipt of two benefits in one
month counts as two months).” Id. at 41,501. While
the Final Rule incorporates the same expanded list of
relevant public benefits as the Proposed Rule, it did
away with the categorization of “monetizable” versus
“non-monetizable” benefits, eliminated the 15% of FPG
threshold requirement for monetizable benefits, and elevated the 12-month threshold requirement for nonmonetizable benefits into the definition of public charge
itself, thus making it the usage threshold for all of the
listed benefits. Id. at 41,501-02.
With respect to the relevant benefits, the Final Rule
retains those benefits INS made relevant to the public
charge determination in 1999—SSI, TANF, and state or
local cash assistance programs—and adds a number of
other benefits: Medicaid; 12 the Supplemental Nutrition

and provided helpful nuance on many aspects of the complex questions before us.
12
The 1999 Guidance identified Medicaid as a relevant public benefit only when it was used to fund long-term institutionalization, but
the Rule broadens the consideration to include Medicaid used to fund
most forms of routine healthcare. The Rule does not count Medicaid benefits only when they are used for emergency medical conditions, for services provided under the Individuals with Disabilities

14a
Assistance Program (“SNAP”), commonly referred to as
food stamps; the Section 8 Housing Choice Voucher Program; Section 8 Project-Based Rental Assistance; and
public housing. Id. at 41,501. Thus, under the Final
Rule, use of any quantity of one of these benefits in a
given month counts as one month towards the 12months-within-36 months limit beyond which one is considered a public charge. And because the definition aggregates benefits usage, use of two benefits in a single
month counts as two months (and three benefits in a single month counts as three months, etc.), with the result
that a person could reach the 12-month threshold in six
months or fewer. The 12-month threshold is thus deceptive: an industrious, self-sufficient person who, by
reason of a temporary injury or illness, used three benefits per month for four months would thereby be conclusively established as a public charge.
The Rule’s public charge definition would be complex
to apply even to assess past or current benefits usage.
But lest we forget the context in which the Rule operates, we highlight that the vast majority of non-citizens
will not have been eligible to receive any of the relevant
public benefits (and therefore presumably will not have
received such benefits) at the time the Rule is applied
and their likelihood of becoming a public charge is assessed. 13 Recall that the Rule applies primarily to non-

Education Act, for school-based services, and by children or pregnant and newly postpartum women. 84 Fed. Reg. at 41,501.
13
We note that PRWORA allows states flexibility to determine
non-citizen eligibility for state-funded benefits programs and some
states have chosen to fund benefits for those who do not yet have
LPR status. See 83 Fed. Reg. at 51,131; see also 8 U.S.C. § 1621(d).

15a
citizens seeking to adjust status to become LPRs but
that, in general, non-citizens are not eligible to receive
the relevant public benefits until five years after they
obtain LPR status. Accordingly, very few non-citizens
will have a history of public benefits usage at the time
the forward-looking public charge ground is applied.
Under the revised public charge definition, the Rule
thus requires adjudicators to predict whether, five years
or more into the future, the non-citizen is likely to use
one of the enumerated benefits for more than twelve
months, or to use two of the enumerated benefits for
more than six months, and so on, within a thirty-sixmonth period. Id. at 41,502.
C.

Adjudicative Framework

To support adjudicators in making what might seem
an impracticable prediction about future benefits usage,
the Rule lays out an adjudicative framework. This
framework fleshes out the five factors adjudicators are
statutorily required to consider—age, health, family
status, finances, and education—and explains how each
should be analyzed to decide whether a non-citizen is a
likely future user of public benefits. The Rule further
instructs adjudicators how to assess the sixth, discretionary factor—the affidavit of support—and adds a seventh factor for consideration, the immigration status
sought. As laid out below, the framework identifies the
particular characteristics adjudicators should look for

However, as counsel for the government acknowledged at oral argument, it would be the rare exception if a non-citizen received benefits
prior to the public charge determination. Oral Argument at 32:0033:30.

16a
with each factor and, for some, lists the forms of evidence the non-citizen must submit.
Age. Adjudicators are to assess whether a noncitizen’s age affects his ability to work. The Rule suggests that preference be given to non-citizens between
eighteen and sixty-one years of age. Being under
eighteen or over sixty-one is treated as making it more
likely that the applicant will become a public charge.
84 Fed. Reg. at 41,502.
Health. Adjudicators are to be on the lookout for
non-citizens with medical conditions that are “likely to
require extensive medical treatment or institutionalization or that will interfere with the alien’s ability to provide and care for himself or herself, to attend school, or
to work.” Id.
Family Status. Adjudicators are to assess whether
a non-citizen’s household size makes him more likely to
utilize the listed benefits. Large families are thus
more suspect. Id.
Assets, Resources, and Financial Status. Adjudicators are to consider whether the non-citizen’s household has a gross income above 125% of FPG or has significant assets, whether the household assets and resources would cover any reasonably foreseeable medical
costs, any outstanding financial liabilities, and whether
the non-citizen has ever in the past applied for or received any of the enumerated public benefits. Id. at
41,502-03. Non-citizens are to evidence this factor by
submitting, inter alia, their tax returns, bank statements, credit history and score, and proof of private
health insurance. Id. at 41,503.

17a
Education and Skills. Adjudicators are to consider
whether the non-citizen has adequate education and skills
to obtain lawful employment with an income sufficient
to avoid becoming a public charge. Id. Non-citizens
are directed to evidence this factor by submitting, inter
alia, their employment history, tax returns, proof of degrees or licenses, and proof of proficiency in English or
any other languages. Id. at 41,503-04.
Affidavit of Support. For those non-citizens who
must obtain an affidavit of support, the Rule directs adjudicators to consider “the likelihood that the sponsor
would actually provide the statutorily-required amount
of financial support,” which is to be evidenced by proof
of the sponsor’s income and assets, the relationship between the non-citizen and sponsor, and the number of
other non-citizens for whom the sponsor has executed
affidavits of support. Id. at 41,504.
Desired Immigration Status. The Rule newly requires adjudicators to consider the immigration status
sought by the non-citizen, “as it relates to the alien’s
ability to financially support[ ] himself or herself during
the duration of the alien’s stay.” Id. After the publication of the Rule, USCIS updated its policy manual to
clarify that it would generally treat seeking LPR status
as a negative factor, given that LPRs are eligible for
public benefits after the five-year waiting period has
elapsed. See USCIS, POLICY MANUAL vol. 8, pt. G, ch.
12 (2020). We note that the vast majority of noncitizens who are subject to the Rule are being assessed
precisely because they are seeking LPR status; this provision therefore would appear to automatically assign a
negative factor to any applicant for lawful immigration
to the United States.

18a
After addressing these factors, the Rule concludes by
identifying a number of heavily weighted negative and
positive circumstances that adjudicators should consider in deciding a case. While cautioning that no single factor is dispositive, the Rule directs adjudicators to
give particular emphasis to four heavily weighted negative factors: (1) lacking a current or recent employment history, (2) receiving a relevant public benefit for
more than twelve months in the preceding three years,
(3) lacking health insurance while having a diagnosed
medical condition likely to require extensive treatment
or institutionalization, and (4) having been found inadmissible or removable on public charge grounds in the
past. 84 Fed. Reg. at 41,504. In contrast, the Rule
also identifies the following heavily weighted positive
factors: (1) having a household income that exceeds
250% of FPG, (2) being employed with an income exceeding 250% of FPG, and (3) having private health insurance that was not purchased using Affordable Care
Act premium tax credits. Id.
III. Procedural Posture

Shortly after DHS issued the Final Rule in August
2019, the two cases at issue in these appeals were filed
in the Southern District of New York. New York, Vermont, Connecticut, and New York City (collectively “the
States”) filed suit first, followed a few days later by
Make the Road New York, African Services Committee,
Asian American Federation, Catholic Charities Community Services (Archdiocese of New York), and Catholic
Legal Immigration Network, Inc. (collectively, “the Organizations”). The two groups of plaintiffs (collectively, “the Plaintiffs”) raise largely similar challenges

19a
to the Rule, arguing that it is invalid under the Administrative Procedure Act (“APA”) as well as the Fifth
Amendment’s due process clause. The Organizations
also challenge the Rule under the Fifth Amendment’s
guarantee of equal protection. Both the States and the
Organizations moved for a preliminary injunction, and
the district court heard combined oral argument.
On October 11, 2019, four days before the Rule was
scheduled to take effect, the district court granted both
motions for preliminary injunctions in largely identical
decisions and orders. After concluding that both the
States and the Organizations had standing to challenge
the Rule, the district court found that they had demonstrated a likelihood of success on the merits of their
claims that the Rule was contrary to law as well as arbitrary and capricious, and that the other preliminary injunction factors supported injunctive relief. The district court thus enjoined DHS from enforcing the Rule
nationwide. 14
DHS timely appealed the district court’s grant of the
preliminary injunctions and moved for a stay pending
appeal. A motions panel of this Court denied DHS’s
motion to stay. DHS then filed an application for a
stay with the Supreme Court, requesting that the preliminary injunctions be stayed through the resolution of
the merits of this appeal and the disposition of any petition for a writ of certiorari. The Supreme Court granted
the application in January 2020. DHS v. New York, 140
S. Ct. 599 (2020). With the district court’s preliminary

The district court also ordered that the effective date of the Rule
be stayed pursuant to 5 U.S.C. § 705.
14

20a
injunctions thus stayed, the Rule went into effect nationwide on February 24, 2020. 15
DISCUSSION

We review a district court’s decision to grant a preliminary injunction for abuse of discretion, examining
the legal conclusions underpinning the decision de novo
and the factual conclusions for clear error. Cty. of Nassau v. Leavitt, 524 F.3d 408, 414 (2d Cir. 2008). The
scope of the injunctive relief ordered by the district
court is evaluated for abuse of discretion. Id.

Five similar cases challenging the Rule were brought in the District of Maryland, the Northern District of Illinois, the Northern
District of California, and the Eastern District of Washington. See
CASA de Maryland, Inc. v. Trump, No. 19-cv-2715 (D. Md.); Cook
Cty. v. Wolf, No. 19-cv-6334 (N.D. Ill.); City and Cty. of San Francisco v. USCIS, No. 19-cv-4717 (N.D. Cal.); California v. DHS, No.
19-cv-4975 (N.D. Cal.); Washington v. DHS, No. 19-cv-5210 (E.D.
Wash.). All five district courts granted plaintiffs’ motions for preliminary injunctions. DHS appealed in all cases and, as here, requested that the Fourth, Seventh, and Ninth Circuits stay the district courts’ preliminary injunctions pending appeal. The Fourth
and a divided panel of the Ninth Circuit granted DHS’s motions to
stay, the Ninth Circuit doing so in a lengthy published opinion. See
City & Cty. of San Francisco v. USCIS, 944 F.3d 773 (9th Cir. 2019).
The Seventh Circuit denied DHS’s motion to stay, but DHS successfully sought a stay from the Supreme Court for the preliminary injunction at issue in that case, which was limited in scope to the state
of Illinois. See Wolf v. Cook Cty., 140 S. Ct. 681 (2020). The Seventh Circuit has since decided the merits of the case before it, holding that plaintiffs were likely to succeed on the merits of their challenge to the Rule and affirming the preliminary injunction entered
by the Northern District of Illinois. See Cook Cty. v. Wolf, 962 F.3d
208 (7th Cir. 2020).
15

21a
These appeals fall under the preliminary injunction
framework laid out in Winter v. Natural Resources Defense Council, Inc., 555 U.S. 7 (2008). Winter instructs
that “[a] plaintiff seeking a preliminary injunction must
establish that he is likely to succeed on the merits, that
he is likely to suffer irreparable harm in the absence of
preliminary relief, that the balance of equities tips in his
favor, and that an injunction is in the public interest.”
Id. at 20. Where, as here, the government is a party to
the suit, the final two factors merge. Cf. Nken v.
Holder, 556 U.S. 418, 435 (2009); see California v. Azar,
911 F.3d 558, 575 (9th Cir. 2018). Before we turn to the
merits of these appeals, however, we address two threshold arguments raised by DHS.
I.

Threshold Arguments

DHS first argues that neither the States nor the Organizations meet the “irreducible constitutional minimum of standing” and thus cannot be permitted to challenge the Rule. Lujan v. Defs. of Wildlife, 504 U.S.
555, 560 (1992). DHS further argues that the Plaintiffs
may not bring suit because they do not fall within the
zone of interests protected by the public charge statute.
See Lexmark Int’l Inc. v. Static Control Components,
Inc., 572 U.S. 118, 129 (2014). We disagree with DHS
on both counts.
A.

Standing

At the preliminary injunction stage, “a plaintiff’s burden to demonstrate standing will normally be no less
than that required on a motion for summary judgment.
Accordingly, to establish standing for a preliminary injunction, a plaintiff cannot rest on . . . mere allega-

22a
tions . . . but must set forth by affidavit or other evidence specific facts” that establish the “three familiar
elements of standing: injury in fact, causation, and redressability.” Cacchillo v. Insmed, Inc., 638 F.3d 401,
404 (2d Cir. 2011) (internal quotation marks and citation
omitted). Here, DHS argues that the States and Organizations have failed to establish injury in fact, which
requires the Plaintiffs to show they have suffered “an
invasion of a legally protected interest which is (a) concrete and particularized, and (b) actual or imminent, not
conjectural or hypothetical.” Lujan, 504 U.S. at 560 (internal quotation marks and citations omitted).
The States allege that they are injured because the
Rule will cause many of their residents to forgo use of
public benefits programs, thereby decreasing federal
transfer payments to the states, reducing Medicaid revenue, increasing overall healthcare costs, and causing
general economic harm. DHS argues that these projected harms do not suffice to show injury in fact because the facts asserted by the States at most establish
a possible, rather than imminent, future injury, and because any economic losses will be offset by the money
saved by not providing public benefits to those who disenroll. See Clapper v. Amnesty Int’l USA, 568 U.S.
398, 409 (2013).
We are satisfied that the States have sufficiently established actual imminent harms. DHS itself anticipates
that a significant number of non-citizens will disenroll
from public benefits as a result of the Rule’s enactment,
including many who are not in fact subject to the Rule
but who would be fearful of its consequences nonetheless. See 84 Fed. Reg. at 41,300-01, 41,463. When an
agency action has a “predictable effect . . . on the

23a
decisions of third parties,” the consequences of those
third party decisions may suffice to establish standing,
even when the decisions are illogical or unnecessary.
See Dep’t of Commerce v. New York, 139 S. Ct. 2551,
2566 (2019). Contrary to its disparagement before us
of the likelihood of harm to the States from disenrollment, DHS acknowledged in its own explication of the
costs and benefits considered in adopting the Rule that
expected disenrollment will result in decreased federal
funding to states, 84 Fed. Reg. at 41,485, decreased revenue for healthcare providers, id. at 41,486, and an increase in uncompensated care, id. at 41,384.
DHS’s own predictions thus align with declarations
submitted by the States documenting the Rule’s chilling
effect on non-citizen use of public benefits—which began even prior to the Rule taking effect—and its anticipated economic impacts. 16 Where the agency itself
For example, the Commissioner of Health of the State of New
York stated that “even before the Final Rule has gone into effect,
consumers have been calling . . . [and] inquiring about canceling
their Medicaid or other health insurance coverage because of the Final Rule.” New York (“N.Y.”) J. App. 512. The Commissioner further notes that “[i]ndividuals without coverage will still need and receive care” but without insurance “those costs will be borne by the
healthcare delivery system.” Id. The President and CEO of New
York City Health and Hospitals Corporation provided specific examples of patients refusing care or requesting disenrollment because of
the Rule, and estimated that in the best-case scenario, the Rule could
result in a loss of $50 million in the first year for the municipal hospital system. See N.Y. J. App. 266-69; see also N.Y. J. App. 183
(Commissioner of the New York City Department of Social Services
providing statistics evidencing a “striking and dramatic drop in noncitizen SNAP cases” since the public charge rule began to get media
coverage); N.Y. J. App. 227, 233-34 (Commissioner-Designate of
Connecticut Department of Social Services estimating economic
16

24a
forecasts the injuries claimed by the States, we agree
with the Ninth Circuit that it is “disingenuous” for DHS
to claim that the injury is not sufficiently imminent.
San Francisco, 944 F.3d at 787 (finding state and local
governments had standing to challenge the Rule).
We are also unpersuaded by DHS’s argument that
the States cannot establish injury in fact because any
losses in funding will be offset by the savings accrued as
fewer people seek public assistance. “[T]he fact that
an injury may be outweighed by other benefits . . .
does not negate standing.” 17 Denney v. Deutsche Bank
AG, 443 F.3d 253, 265 (2d Cir. 2006). In any event, this
simplistic argument fails to account for the fact that the
States allege injuries that extend well beyond reduced
Medicaid revenue and federal funding to the States, including an overall increase in healthcare costs that will
be borne by public hospitals and general economic
harms. See, e.g., N.Y. J. App. 185 (explaining that “the
SNAP program has a direct economic multiplier effect:
for every one dollar in SNAP benefits received, there is
an approximate $1.79 in increased economic activity”);
harms and increased healthcare costs); N.Y. J. App. 385-86 (Acting
Secretary of the Agency of Human Services in Vermont predicting
increased use of state-funded services).
17
For largely the same reason, we are not persuaded by DHS’s
argument that the States’ losses will be offset by their continued receipt of Emergency Medicaid funds, a benefit not impacted by the
Rule. We further note that Emergency Medicaid is limited to care
provided after a “sudden onset of a medical condition manifesting
itself by acute symptoms of sufficient severity” if immediate medical
care is necessary to prevent serious health consequences. 42 C.F.R.
§ 440.255(b)(1), (c). That narrow definition is far from a blanket assurance that all or even most services rendered in an emergencyroom setting will be covered.

25a
N.Y. J. App. 512-13. Again, DHS itself identified these
same broader harms as likely outcomes of the Rule.
See, e.g., REGULATORY IMPACT ANALYSIS, INADMISSIBILITY ON PUBLIC CHARGE GROUNDS, RIN 1615-AA22,
at 105-06 (2019) (calculating that reduced use of SNAP
caused by the Rule will result in an estimated annual decrease of approximately $550 million in economic activity). We are satisfied that the States’ alleged economic
harms are sufficiently concrete and imminent to constitute injury in fact.
The Organizations allege injury on the grounds that
the Rule has necessitated significant and costly changes
in their programmatic work and caused increased demand on their social service programs. DHS contends
that the Organizations have only shown harm to their
“abstract social interests” and that increased costs of
representing clients after the Rule is not sufficient to
confer standing. Appellants’ Br. at 23 (quoting Havens
Realty Corp. v. Coleman, 455 U.S. 363, 379 (1982)).
An organization need only show a “perceptible impairment” of its activities in order to establish injury in
fact. Ragin v. Harry Macklowe Real Estate Co., 6 F.3d
898, 905 (2d Cir. 1993). Contrary to DHS’s assertion
that the Organizations have merely altered the subject
matter of their existing outreach work, the declarations
submitted by the Organizations make clear that the
Rule has required significant diversion of resources.
For example, over the course of three months Make the
Road New York conducted almost forty workshops for
community members devoted exclusively to the Rule,
necessitating the hiring of two part-time staff members.
See Make the Road (“M.T.R.”) J. App. 319-20, 323. The
complexities of the Rule required Catholic Charities to

26a
change its educational outreach from group sessions to
time-intensive individual meetings and to institute a series of evening phone banks. See M.T.R. J. App. 344,
349-51. The African Services Committee is funding a
campaign of radio-based public service announcements
to disseminate information about the Rule and has documented an increased demand on its social service programs, as clients turn away from public benefits programs. 18 See M.T.R. J. App. 466-67, 470.
“[A] nonprofit organization establishes an injury-infact if, as here, it establishes that it spent money to combat activity that harms its . . . core activities.”
Centro de la Comunidad Hispana de Locust Valley v.
Town of Oyster Bay, 868 F.3d 104, 111 (2d Cir. 2017) (internal quotation marks omitted). The Organizations
are dedicated to providing an array of legal and social
services to non-citizens and they have expended significant resources to mitigate the Rule’s impact on those
they serve. In so doing, they have diverted resources
that would otherwise have been available for other programming, a “perceptible opportunity cost” that suffices
to confer standing. Nnebe v. Daus, 644 F.3d 147, 157
(2d Cir. 2011).
The Rule will also impede the Organizations’ abilities
to carry out their responsibilities in a variety of ways.
Similarly, the Asian American Federation has devoted resources
to a press conference and media-based outreach campaign and plans
to reallocate staff to implement new programmatic priorities in light
of the Rule. See M.T.R. J. App. 487, 490-91. And the Catholic Legal Immigration Network has seen a three-fold increase in the volume of inquiries related to the public charge ground and anticipates
redirecting staff currently assigned to other projects to respond to
the Rule. See M.T.R. J. App. 502-04.
18

27a
Oyster Bay, 868 F.3d at 110 (finding standing where an
organization “face[d] increased difficulty in meeting with
and organizing [day] laborers”). For example, the Asian
American Federation, which “support[s] culturally appropriate health and human services for Asian American immigrants[,]” is preparing to establish a network
of social service providers that will not ask for immigration status information in order to provide alternatives
for non-citizens who will not access public benefits
because of the Rule. M.T.R. J. App. 485-86, 490. And
while Catholic Charities was previously able to assign
adjustment of status cases to paralegals working under
the supervision of accredited representatives or attorneys, it anticipates that most of the adjustment cases for
its predominantly low-income clients will now need to be
handled by an attorney and require in-person representation at adjustment interviews. M.T.R. J. App. 34648.
These injuries constitute “far more than simply a setback to the [Organizations’] abstract social interests.”
Havens Realty, 455 U.S. at 379. Even before its entry
into force, the Rule has caused a “perceptible impairment” of the Organizations’ activities and further harms
are imminent. Oyster Bay, 868 F.3d at 110 (internal
quotation marks omitted). As with the States, we conclude that the injuries alleged by the Organizations suffice to confer Article III standing.
B.

Zone of Interests

DHS also argues that neither group of Plaintiffs falls
within the zone of interests of the public charge statute.
The zone-of-interests test restricts the ability to bring
suit to those plaintiffs whose interests are “arguably
within the zone of interests to be protected or regulated

28a
by the statute that [they] say[] was violated.” MatchE-Be-Nash-She-Wish Band of Pottawatomi Indians v.
Patchak, 567 U.S. 209, 224 (2012) (internal quotation
marks omitted). Because Congress intended to make
agency action presumptively reviewable under the APA,
that test is not especially demanding in the context of
APA claims and may be satisfied even if there is no “indication of congressional purpose to benefit the wouldbe plaintiff.” Clarke v. Sec. Indus. Ass’n, 479 U.S. 388,
399-400 (1987). A plaintiff is precluded from bringing
suit only where its “interests are so marginally related
to or inconsistent with the purposes implicit in the statute that it cannot reasonably be assumed that Congress
intended to permit the suit.” Id. at 399. Here, DHS
argues that the Plaintiffs’ interests fall outside the zone
of interests of the statute because the Plaintiffs seek to
facilitate greater use of public benefits by non-citizens,
which it views as inconsistent with the purpose of the
public charge ground.
This argument mischaracterizes both the purpose of
the public charge statute and the Plaintiffs’ interests.
DHS assumes the merits of its own argument when it
identifies the purpose of the public charge ground as ensuring that non-citizens do not use public benefits. As
we conclude infra in Section II.B.6, Congress enacted
the public charge ground to refuse admission to noncitizens who will likely be unable to support themselves
in the United States, which is not tantamount to ensuring that non-citizens do not access any public benefits.
Moreover, when we consider the role of the public
charge ground within the broader context of the INA, a
fuller picture of the interests implicated in the statute
emerges. See Air Courier Conference of Am. v. Am.

29a
Postal Workers Union, 498 U.S. 517, 529 (1991) (explaining the Supreme Court’s reasoning in Clarke that,
in the context of the National Bank Act “the zone-ofinterests test was to be applied not merely in the light
of § 36, which was the basis of the plaintiffs’ claim on the
merits, but also in the light of § 81, to which § 36 was an
exception”). The public charge statute delineates a
category of persons who are to be denied adjustment of
status (or another form of admission) to which they
would otherwise have a claim. See, e.g., 8 U.S.C. § 1255
(detailing requirements for adjustment of status). The
grounds of inadmissibility are the fulcrum on which Congress balances its interest in allowing admission where
it advances goals of family unity and economic competitiveness against its interest in preventing certain categories of persons from entering the country. See 84
Fed. Reg. at 41,306. DHS suggests that only those parties advocating increasingly harsher interpretations of
the grounds of inadmissibility could fall within the zone
of interests protected by the statute. That is too narrow a read of both the zone-of-interests test itself and
the interests protected by the public charge ground.
Understood in context, its purpose is to exclude where
appropriate and to not exclude where exclusion would
be inappropriate. See Patchak, 567 U.S. at 225-26.
As with the interests protected by the statute, DHS
mischaracterizes the Plaintiffs’ interests when it claims
they seek only increased non-citizen enrollment in public benefits. The States actually seek to protect the
economic benefits that result from healthy, productive,
and engaged immigrant communities. And the Organizations’ interests stem from their assorted missions to
increase non-citizen well-being and status, which they

30a
express in their work to provide legal and social services
to non-citizens. An overbroad interpretation of the public charge ground, tipping the balance too far in the direction of exclusion at the expense of admission in the
interest of family unity and economic vitality, imperils
both these interests. See Clarke, 479 U.S. at 399 n.14
(finding zone of interests could apply to “those whose
interests are directly affected by a broad or narrow interpretation of the [statute]” (internal quotation marks
omitted)).
The Plaintiffs are among “those who in practice can
be expected to police the interests that the statute protects[,]” namely, the admission of non-citizens who will
be self-sufficient and the exclusion of those who will not.
Fed. Defs. of N.Y., Inc. v. Fed. Bureau of Prisons, 954
F.3d 118, 131 (2d Cir. 2020) (internal quotation marks
omitted); see Bank of Am. Corp. v. City of Miami, 137
S. Ct. 1296, 1304 (2017). We conclude that the States
and the Organizations have Article III standing to challenge the Rule and that they fall within the zone of interests of the public charge statute. We thus turn to
the merits of these appeals.
II. Likelihood of Success on the Merits

We begin by considering whether the Plaintiffs are
likely to succeed on the merits of their claims, the first
preliminary injunction factor. See Winter, 555 U.S. at
20. The Plaintiffs challenge the Rule under the APA,
which declares unlawful any agency action that is “arbitrary, capricious, an abuse of discretion, or otherwise
not in accordance with law[.]” 5 U.S.C. § 706(2)(A).
Though the Plaintiffs contend that the Rule violates the
APA for several reasons, we focus on the arguments that

31a
the Rule is unlawful because it is contrary to the INA
and because it is arbitrary and capricious.
A.

Legal Framework

“We evaluate challenges to an agency’s interpretation of a statute that it administers within the two-step
Chevron deference framework.” Catskill Mountains
Chapter of Trout Unlimited, Inc. v. EPA, 846 F.3d 492,
507 (2d Cir. 2017). At the first step of Chevron, we consider “whether Congress has directly spoken to the precise question at issue. If the intent of Congress is
clear, that is the end of the matter; for the court, as well
as the agency, must give effect to the unambiguously expressed intent of Congress.” Chevron, U.S.A., Inc. v.
Nat. Res. Def. Council, Inc., 467 U.S. 837, 842-43 (1984).
Accordingly, we start our analysis below by considering
whether Congress has spoken to its intended meaning
of the statutory term “public charge” and conclude that
it has done so. Because the intent of Congress is clear,
“Chevron leaves the stage” and we proceed to the central question of whether DHS’s interpretation of “public
charge” is consistent with this intent. Epic Sys. Corp.
v. Lewis, 138 S. Ct. 1612, 1630 (2018) (internal quotation
marks omitted). We conclude that the Rule is contrary
to the INA and that the Plaintiffs have thus demonstrated a likelihood of success on the merits of this claim.
See 5 U.S.C. § 706(2)(A).
We then move to the Plaintiffs’ second argument,
that the Rule is unlawful for the further reason that it is
procedurally arbitrary and capricious. See id. We
consider this argument under the familiar rubric laid out
in Motor Vehicle Manufacturers Ass’n of the United
States, Inc. v. State Farm Mutual Automobile Insurance Co., 463 U.S. 29 (1983), which asks whether the

32a
agency has “articulate[d] a satisfactory explanation for
its action.” 19 Id. at 43. We conclude that DHS failed
to provide a reasoned explanation for its changed definition and the expanded list of relevant public benefits
and that the Plaintiffs are thus also likely to succeed on
the merits of their claim that the Rule is arbitrary and
capricious under 5 U.S.C. § 706(2)(A). 20
Accordingly, because the Plaintiffs have shown a
likelihood of success on these two arguments, they have
established the first preliminary injunction factor in
their favor.
B.

The Rule is Contrary to the INA.

“In a statutory construction case, the beginning point
must be the language of the statute[.]” Estate of Cowart v. Nicklos Drilling Co., 505 U.S. 469, 475 (1992). “If
the statutory text is ambiguous, we also examine canons
of statutory construction” to identify congressional intent. Catskill Mountains, 846 F.3d at 512; see Chev-

As we noted in Catskill Mountains, there has been “[m]uch confusion” about the relationship between Chevron and the State Farm
frameworks. 846 F.3d at 522. We distinguished the two, however,
on the grounds that “State Farm is used to evaluate whether a rule
is procedurally defective as a result of flaws in the agency’s decisionmaking process” while Chevron “is generally used to evaluate
whether the conclusion reached as a result of that process . . . is
reasonable.” Id. at 521. On appeal, the Plaintiffs primarily raise
procedural challenges to the Rule. We thus consider these arguments under the State Farm framework. See also Nat. Res. Def.
Council, Inc. v. U.S. EPA, 961 F.3d 160, 170-71 (2d Cir. 2020).
20
Because we find the Plaintiffs are likely to succeed on the merits
of their two primary arguments, we need not address their additional
argument that the Rule is contrary to the Rehabilitation Act or the
Organizations’ argument that the Rule violates equal protection.
19

33a
ron, 467 U.S. at 843 n.9. Here, the Plaintiffs do not argue that “public charge” is unambiguous on its face, relying instead on the ratification canon to ascertain the
clear intent of Congress.
The ratification canon provides that “Congress is
presumed to be aware of an administrative or judicial
interpretation of a statute and to adopt that interpretation when it re-enacts a statute without change.” Lorillard v. Pons, 434 U.S. 575, 580 (1978). The Plaintiffs
argue that Congress ratified the settled judicial and administrative interpretations of “public charge” as it repeatedly reenacted the public charge ground over the
course of more than a century—most recently in 1996—
such that the current public charge statute unambiguously forecloses the Rule’s new interpretation of the
term. In response, DHS argues that its interpretation
is not precluded by the historical interpretations of “public
charge” and that other provisions of the INA show that
the Rule is consistent with Congress’s intended meaning
of “public charge.” Proper application of the ratification canon requires a thorough understanding of the
evolution of the public charge statute, from its inception
in 1882 to its enactment in its current form in 1996, as
well as the accompanying body of administrative and judicial decisions interpreting the term. Accordingly, we
begin with a historical review.
1. Origins of the Public Charge Ground

The public charge ground has its roots in concerns
that arose in the late nineteenth century that foreign nations were addressing poverty within their own borders
by funding passage to the United States for their poorer
citizens. See 13 CONG. REC. 5,109 (1882). As one of the

34a
primary immigrant-receiving states, New York in particular was concerned that, upon arrival, these noncitizens “bec[a]me at once a public charge . . . get[ting]
into our poor-houses and alms-houses.” Id. In response to the costs of supporting new arrivals and other
expenditures associated with its role overseeing the immigration process, New York attempted to impose various taxes and bonds on arriving immigrants, as well as
the shipping companies providing their transport. See
id. at 5,107. The Supreme Court, however, repeatedly
struck down these state statutes as unconstitutional, on
the grounds that the Constitution vested the power to
“regulate commerce with foreign nations,” U.S. CONST.
art. I, § 8, cl. 3, in Congress. See, e.g., Henderson v.
Mayor of New York, 92 U.S. 259, 270 (1875).
New York thus turned to Congress for assistance,
lobbying for the enactment of two provisions that ultimately became law with the Immigration Act of 1882:
the public charge ground of exclusion and the immigrant
fund. The inaugural public charge statute directs immigration inspectors to board arriving ships and refuse
permission to land to any passenger who is “unable to
take care of himself or herself without becoming a public
charge[.]” Immigration Act of 1882, Pub. L. No. 47376, § 2, 22 Stat. 214, 214. While denying entry to those
who could not care for themselves, the Act simultaneously established an “immigrant fund,” which was to be
used, inter alia, “for the care of immigrants arriving in
the United States, [and] for the relief of such as are in
distress.” Id. § 1. By these provisions, the Act established a scheme that distinguished between those arriving immigrants who were “unable to take care of [themselves]” and those who were merely “in distress.” Id.

35a
§§ 1, 2. The former were to be excluded; the latter provided with financial support. Representatives from
New York spoke in favor of this two-part design, applauding the effort to exclude those who would depend
on public assistance while offering words of praise for
the immigrants who may arrive in need of some aid but
ultimately go on to “learn our language, adapt themselves readily to our institutions, and become a valuable
component part of the body-politic.” 13 CONG. REC.
5,108 (statement of Rep. Van Voorhis).
Early interpretations of the term “public charge”
from this era come principally from state courts and
treat the term as somewhat interchangeable with “pauper,” distinguishable from those who were simply poor
by the permanence of the condition. For example, the
Massachusetts Supreme Court explained that a bond
could be required for arriving immigrants who had
“been paupers in a foreign land; that is, for those who
have been a public charge in another country; and not
merely destitute persons, who, on their arrival here,
have no visible means of support[.]” City of Boston v.
Capen, 61 Mass. 116, 121 (Mass. 1851). The court affirmed that the bond was necessary only from “those
who, by reason of some permanent disability, are unable
to maintain themselves” and who “might become a heavy
and long continued charge to the city, town, or state, in
this country[.]” Id. at 122; see also State v. The S.S.
Constitution, 42 Cal. 578, 582 (Cal. 1872); City of Alton
v. Cty. of Madison, 21 Ill. 115, 116 (Ill. 1859).
Congress amended the immigration laws in 1891,
making slight revisions to the public charge ground of
exclusion while adding for the first time a public charge
ground of deportation. See Immigration Act of 1891,

36a
Pub. L. No. 51-551, §§ 1, 11, 26 Stat. 1084, 1084, 1086.
Under the terms of the 1891 Act, “[a]ll idiots, insane persons, [and] paupers or persons likely to become a public
charge” were to be excluded from admission, id. § 1,
while a non-citizen who became “a public charge within
one year after his arrival in the United States” could be
deported, id. § 11.
In 1907, Congress again made modest revisions to
the public charge ground, amending the law to exclude
“paupers; persons likely to become a public charge;
[and] professional beggars[.]” Immigration Act of 1907,
Pub. L. No. 59-96, § 2, 34 Stat. 898, 899. A few years after the 1907 Act, the Supreme Court weighed in on the
meaning of “public charge” in its first and (as of yet)
only interpretation of the term. In Gegiow v. Uhl, 239
U.S. 3 (1915), the Court considered the case of two Russian immigrants who had been found likely to become
public charges because they arrived with little money;
were bound for Portland, Oregon, where work was
scarce; and had no one legally obligated to support
them. Id. at 8. In its analysis, the Court emphasized
that “public charge” was listed alongside “paupers” and
“professional beggars” in the statute, reasoning that the
term should “be read as generically similar to the others
mentioned before and after.” Id. at 10. Accordingly,
the Court concluded that a “public charge,” like the
other categories of persons mentioned, must be defined
by some kind of “permanent personal objections.” Id.
Because the Russian immigrants had been deemed
likely public charges based on the Portland labor market, rather than on any intrinsic and problematic characteristics of their own, the Court reversed the determination.

37a
Citing Gegiow, we declared ourselves “convinced” in
a subsequent decision that “Congress meant [public
charge] to exclude persons who were likely to become
occupants of almshouses for want of means with which
to support themselves in the future.” Howe v. United
States ex rel. Savitsky, 247 F. 292, 294 (2d Cir. 1917).
The Ninth Circuit adopted our interpretation in Ng
Fung Ho v. White, 266 F. 765, 769 (9th Cir. 1920), rev’d
in part on other grounds, 259 U.S. 276, 285 (1922).
Other circuits adopted a somewhat broader interpretation of the term as encompassing “not only those persons who through misfortune cannot be self-supporting,
but also those who will not undertake honest pursuits,
and who are likely to become periodically the inmates of
prisons[,]” Lam Fung Yen v. Frick, 233 F. 393, 396 (6th
Cir. 1916) (internal quotation marks omitted); see
United States ex rel. Medich v. Burmaster, 24 F.2d 57,
59 (8th Cir. 1928). But those interpretations as well emphasized the habitual and persistent nature of the dependency that would render one a public charge.
2. The Immigration Act of 1917

In the wake of Gegiow, Congress sought to “overcome” the line of cases that “limit[] the meaning of [public charge] because of its position between other descriptions conceived to be of the same general and generical
nature.” S. COMM. ON IMMIGRATION, 64TH CONG., REP.
ON H.R. 10384, at 5 (1916). Thus, in the Immigration
Act of 1917, Congress relocated the public charge
ground within the list of excludable persons so that it no
longer appeared between paupers and professional beggars, but rather between contract laborers and people
who had been deported previously. See Pub. L. No. 64301, § 3, 39 Stat. 874, 876.

38a
Notwithstanding Congress’s efforts, “[s]everal courts
promptly questioned the efficacy of the [1917] amendment and affirmed the interpretation that a ‘person who
is likely to become a public charge’ is one who for some
cause is about to be supported at public expense[.]”
Matter of Harutunian, 14 I. & N. Dec. 583, 587 (B.I.A.
1974). The Ninth Circuit was the first to hold that “this
change of location of the words does not change the
meaning that should be given them, and that it is still to
be held that a person ‘likely to become a public charge’
is one who, by reason of poverty, insanity, or disease or
disability, will probably become a charge on the public.”
Ex parte Hosaye Sakaguchi, 277 F. 913, 916 (9th Cir.
1922). A few years later, the Fifth Circuit affirmed
that the public charge ground still “intended to refer to
. . . a condition of dependence on the public for support.” Coykendall v. Skrmetta, 22 F.2d 120, 121 (5th
Cir. 1927). And in United States ex rel. Iorio v. Day,
34 F.2d 920 (2d Cir. 1929), we agreed that the change
did not require overruling the interpretation we had
previously adopted in Howe, noting that “[t]he language
itself, ‘public charge,’ suggests . . . dependency.”
Id. at 922.
As the courts of appeals applied the public charge
ground in this era, the inquiry usually turned on whether
the non-citizen could earn a living, frequently out of a
concern that a health condition might prevent the person from working. 21 Conversely, courts routinely found
See, e.g., Tod v. Waldman, 266 U.S. 113, 120 (1924) (remanding
based on “the absence from the record of any finding by the department on appeal as to the issue [of ] whether the lameness of Zenia,
one of the children, affected her ability to earn a living or made her
likely to become a public charge”); United States ex rel. Minuto v.
21

39a
a non-citizen’s ability and willingness to work sufficient
to defeat a public charge finding. 22 Administrative interpretations issued in the early days of the Board of
Reimer, 83 F.2d 166, 168 (2d Cir. 1936) (affirming public charge determination where non-citizen “was a woman seventy years old with
an increasing chance of becoming dependent, disabled, and sick
[and] [n]o one was under any obligation to support her”); Tullman
v. Tod, 294 F. 87, 88 (2d Cir. 1923) (affirming public charge determination where the non-citizen “was found to be affected with deaf
mutism, which, as was certified, might affect his ability to earn a living”); Wallis v. United States ex rel. Mannara, 273 F. 509, 511 (2d
Cir. 1921) (“A person likely to become a public charge is one whom
it may be necessary to support at public expense by reason of poverty, insanity and poverty, disease and poverty, idiocy and poverty.
We think that the finding by the administrative authorities, showing
a physical defect of a nature that may affect the ability of the relator
and appellee to earn a living, is sufficient ground for exclusion [as a
likely public charge]” (internal citation omitted)); see also “Italia”
Societa Anonima Di Navigazione v. Durning, 115 F.2d 711, 713 (2d
Cir. 1940).
22
See, e.g., Ex parte Sturgess, 13 F.2d 624, 625 (6th Cir. 1926) (reversing public charge determination where non-citizen was “39
years of age, in good health, a skilled carpenter, and had in his possession about $75 in money”); Nocchi v. Johnson, 6 F.2d 1, 1 (1st Cir.
1925) (reversing public charge determination where there was “no
clear showing that the boy is so feeble-minded that he is not able to
earn his own living” and his parents were wealthy); United States ex
rel. Mantler v. Comm’r of Immigration, 3 F.2d 234, 236 (2d Cir.
1924) (reversing public charge determination where non-citizen “is
23 years of age, has been in the country now for 4 years, is in good
physical condition, and by industry and frugality has saved a substantial portion of her earnings”); Sakaguchi, 277 F. at 916 (reversing public charge determination where there was no evidence “of
mental or physical disability or any fact tending to show that the
burden of supporting the appellant is likely to be cast upon the public” and the non-citizen was “an able-bodied woman of the age of 25
years, with a fair education . . . [and] a disposition to work and
support herself ”); see also Thack v. Zurbrick, 51 F.2d 634, 635 (6th

40a
Immigration Appeals (“BIA”) also focused on noncitizens’ abilities to work and sustain themselves. 23
In the context of the public charge ground of deportation, this era also saw growing consensus among the
courts that non-citizens who had been institutionalized
were deportable as public charges. 24 The BIA weighed
in on the matter in one of its first published decisions to
address either of the public charge grounds. In Matter
of B-, 3 I. & N. Dec. 323 (B.I.A. 1948), the BIA considered the case of a non-citizen who was institutionalized
in a psychiatric hospital run by the state of Illinois.
The BIA held that a non-citizen who had become a public
charge could not be deported on that basis unless the
state had a law imposing a charge for the services rendered, a demand for repayment had been made, and the
non-citizen had failed to reimburse the state. Id. at
326. These procedural safeguards persist to this day
in the public charge ground of deportation, which considers benefits received, but are not applied in the
Cir. 1931); United States ex rel. De Sousa v. Day, 22 F.2d 472, 47374 (2d Cir. 1927); Lisotta v. United States, 3 F.2d 108, 111 (5th Cir.
1924).
23
See, e.g., Matter of C-, 3 I. & N. Dec. 96, 97 (B.I.A. 1947) (“In this
case there is no likelihood that the beneficiary will become a public
charge. . . . [H]e is in good health and is able and willing to go to
work.”); Matter of V-, 2 I. & N. Dec. 78, 81 (B.I.A. 1944) (reversing
public charge determination where the respondent was employed
and “has always been self-supporting” other than during a period of
hospitalization).
24
See, e.g., Canciamilla v. Haff, 64 F.2d 875, 876 (9th Cir. 1933);
Fernandez v. Nagle, 58 F.2d 950, 950 (9th Cir. 1932); United States
ex rel. Casimano v. Comm’r of Immigration, 15 F.2d 555, 556 (2d
Cir. 1926); United States ex rel. La Reddola v. Tod, 299 F. 592, 593
(2d Cir. 1924).

41a
predictive public charge ground of inadmissibility.
Harutunian, 14 I. & N. Dec. at 589.

See

3. The Immigration and Nationality Act of 1952

Shortly after the Matter of B- decision, the Senate
initiated “a full and complete investigation of [the] entire immigration system[,]” the results of which were released in a Senate Judiciary Committee Report published in 1950. SENATE JUDICIARY COMM., THE IMMIGRATION AND NATURALIZATION SYSTEMS OF THE
UNITED STATES, S. REP. NO. 81-1515, at 1 (1950). The
investigation and report resulted in a proposed omnibus
bill to overhaul the “patchwork” of the then-existing immigration and naturalization systems. Id. at 4. Thus
was enacted the Immigration and Nationality Act of
1952, the foundation of our current immigration system.
The Judiciary Committee report devotes several pages
to a review of the public charge ground. The report
notes that “courts have given varied definitions of the
phrase ‘likely to become a public charge,’ ” but summarizes the caselaw as focusing on four characteristics that
indicate non-citizens are likely to become public charges:
(1) impending or current imprisonment in a federal
prison; (2) limited finances; (3) a weakened physical condition “as it relate[s] to his ability and capacity for employment[;]” and (4) traveling to the United States on a
ticket paid for by someone else. Id. at 347-48. The Judiciary Committee recommended that the public charge
ground be re-enacted in the forthcoming INA and further recommended that the term not be defined in the
statute since “the elements constituting likelihood of becoming a public charge are varied.” Id. at 349.

42a
Congress took both recommendations, listing “[a]liens
who, in the opinion of the consular officer at the time of
application for a visa, or in the opinion of the Attorney
General at the time of application for admission, are
likely at any time to become public charges” as one of
the INA’s grounds of inadmissibility. See Pub. L. No.
82-414, § 212(a)(15), 66 Stat. 163, 183 (1952). The INA
also retained the corresponding ground of deportation
for any non-citizen who “in the opinion of the Attorney
General, has within five years after entry become a public charge from causes not affirmatively shown to have
arisen after entry.” Id. § 241(a)(8).
Administrative interpretations of “public charge” after the enactment of the INA largely align with the pre1952 interpretations. In 1964, the Attorney General
noted that the term had been the subject of “extensive
judicial interpretation” and that the “general tenor” of
the caselaw understood “public charge” to require “[s]ome
specific circumstance, such as mental or physical disability, advanced age, or other fact reasonably tending to
show that the burden of supporting the alien is likely to
be cast on the public[.]” Matter of Martinez-Lopez, 10
I. & N. Dec. 409, 421 (A.G. 1964).
The BIA subsequently affirmed that “while economic
factors should be taken into account, the alien’s physical
and mental condition, as it affects ability to earn a living,
is of major significance.” Harutunian, 14 I. & N. Dec.
at 588. The BIA concluded that “[e]verything in the
statutes, the legislative comments and the decisions
points to one conclusion[:]” that Congress intended to
exclude as a likely public charge a non-citizen who
was not self-supporting. Id. at 589; see also Matter of
Vindman, 16 I. & N. Dec. 131, 132 (B.I.A. 1977).

43a
As the BIA applied this interpretation in subsequent
decisions, it focused on the non-citizen’s capacity for
work, reversing decisions that put too much weight on
temporary setbacks and affirming those where a noncitizen had no prospects for employment by virtue of age
or disability. 25 And in Matter of Perez, 15 I. & N. Dec.
136, 137 (B.I.A. 1974), the BIA explicitly held that “[t]he
fact that an alien has been on welfare does not, by itself,
establish that he or she is likely to become a public
charge.”
4. The Current Public Charge Ground

It was against this backdrop of judicial and administrative interpretations that Congress enacted PRWORA
and IIRIRA in 1996, creating the public charge ground
as it exists today. While leaving the principal statutory
language intact—rendering inadmissible any noncitizen who is “likely at any time to become a public
charge”—IIRIRA amended the ground to require consideration of the non-citizen’s age, health, family status,
financial status, and education. See IIRIRA § 531(a).
IIRIRA also required certain non-citizens to obtain affidavits of support, id. § 551(a), building on PRWORA’s
See, e.g., Matter of A-, 19 I. & N. Dec. 867, 870 (B.I.A. 1988)
(“There may be circumstances beyond the control of the alien which
temporarily prevent an alien from joining the work force. . . .
[T]he director placed undue weight on [the family’s financial circumstances], thereby overshadowing the more important factors; namely, that the applicant has now joined the work force, that she is
young, and that she has no physical or mental defects which might
affect her earning capacity.”); Vindman, 16 I. & N. Dec. at 132
(affirming public charge finding where respondents were older
adults and had no employment prospects); cf. Matter of Kowalski,
10 I. & N. Dec. 159, 160 (B.I.A. 1963).
25

44a
requirement that such affidavits of support be legally
enforceable against the sponsor, see PRWORA § 423.
Congress considered, and nearly enacted, a more
sweeping set of changes to the public charge ground with
IIRIRA. The conference report of the bill included a
statutory definition of public charge, which would have
defined the term to cover “any alien who receives
[means-tested public benefits] for an aggregate period
of at least 12 months[.]” CONFERENCE REPORT, H.R.
REP. 104-828, at 138 (1996). While the House passed
the conference report containing this language, it was
ultimately dropped under threat of presidential veto.
See 142 CONG. REC. S11,882 (daily ed. Sept. 30, 1996)
(statement of Sen. Kyl); cf. Statement on Senate Action
on the “Immigration Control and Financial Responsibility Act of 1996,” 32 WEEKLY COMP. PRES. DOC. 783 (May
2, 1996) (President Clinton critiquing prior version of
the bill for “go[ing] too far in denying legal immigrants
access to vital safety net programs which could jeopardize public health and safety”).
We end our historical review back where we started
this opinion, with INS’s release of the 1999 Guidance to
counteract public confusion after IIRIRA and PRWORA.
We have already explored in some detail INS’s 1999 interpretation, which defines “public charge” as one who
is “primarily dependent on the Government for subsistence, as demonstrated by either the receipt of public
cash assistance for income maintenance or institutionalization for long-term care at Government expense.” 64
Fed. Reg. at 28,677. We simply note here that INS
concluded that its interpretation was warranted by “the
plain meaning of the word ‘charge,’ the historical con-

45a
text of public dependency when the public charge immigration provisions were first enacted more than a century ago, . . . the expertise of the benefit-granting
agencies that deal with subsistence issues[, and the] factual situations presented in the public charge case law.”
Id.

46a
5. The Settled Meaning of “Public Charge”

With this understanding of the history of the public
charge ground, we turn to the applicability of the ratification canon. We first examine whether Congress
changed the statutory language as it amended the
ground over the years, so as to render the canon inapposite. See Holder v. Martinez Gutierrez, 566 U.S. 583,
593 (2012). We then determine whether the caselaw interpretations of the term produced a sufficiently consistent and settled meaning of the term, such that we
may presume Congress ratified that understanding
when it created the current public charge statute in
1996. See Commodity Futures Trading Comm’n v.
Schor, 478 U.S. 833, 846 (1986).
We quickly dispose of the first question. There can
be no dispute that, since its origins in the Immigration Act
of 1882, Congress reenacted the public charge ground
without pertinent change in 1891, 1907, 1917, 1952, and
1996. We note that Congress made minor alterations
to the ground over the course of its history. For example, the 1882 public charge ground excluded anyone who
was “unable to take care of himself or herself without
becoming a public charge” at their time of arrival in the
United States while subsequent acts established the
forward-looking likelihood standard. Compare Immigration Act of 1882 § 2 with Immigration Act of 1891
§ 1. And with IIRIRA, Congress added the list of mandatory factors to consider when applying the ground.
See IIRIRA § 531(a). But Congress has unwaveringly
described the fundamental characteristic at issue as being a “public charge” since 1882. We easily conclude
that Congress “adopt[ed] the language used in [its] earlier act[s]” in its most recent reenactment of the public

47a
charge ground in 1996.
144, 153 (1924).

See Hecht v. Malley, 265 U.S.

With respect to the second question, our review of the
historical administrative and judicial interpretations of
the ground over the years leaves us convinced that there
was a settled meaning of “public charge” well before
Congress enacted IIRIRA. The absolute bulk of the
caselaw, from the Supreme Court, the circuit courts, and
the BIA interprets “public charge” to mean a person
who is unable to support herself, either through work,
savings, or family ties. See, e.g., Day, 34 F.2d at 922;
Harutunian, 14 I. & N. Dec. at 588-89. Indeed, we
think this interpretation was established early enough
that it was ratified by Congress in the INA of 1952.
But the subsequent and consistent administrative interpretations of the term from the 1960s and 1970s remove
any doubt that it was adopted by Congress in IIRIRA.
See United Airlines, Inc. v. Brien, 588 F.3d 158, 173 (2d
Cir. 2009) (noting that “Congress’s repeated amendment of the relevant provisions of the statute without
expressing any disapproval” of the BIA’s interpretation
is “persuasive evidence that the [Agency’s] interpretation is the one intended by Congress” (internal quotation marks omitted)).
We find particularly significant the Attorney General’s decision from 1962, which summarizes the “extensive judicial interpretation” of the term as requiring a
particular circumstance, like disability or age, that
shows that “the burden of supporting the alien is likely
to be cast on the public[.]” Martinez-Lopez, 10 I. & N.
Dec. at 421. Accordingly, the Attorney General held
that “[a] healthy person in the prime of life cannot ordinarily be considered likely to become a public charge[.]”

48a
Id. The BIA came to a similar conclusion after its own
review of the public charge caselaw and legislative history, holding that “any alien who is incapable of earning
a livelihood, who does not have sufficient funds in the
United States for his support, and [who] has no person
in the United States willing and able to assure that he
will not need public support is excludable as likely to become a public charge[.]” Harutunian, 14 I. & N. Dec.
at 589-90. Subsequent administrative decisions affirmed that the public charge determination must be
made based on the totality of the circumstances and rejected the notion that receipt of public benefits categorically renders one a public charge. See Perez, 15 I. &
N. Dec. at 137; Vindman, 16 I. & N. Dec. at 132; A-,
19 I. & N. Dec. at 870.
The scope and consistency of these administrative decisions warrants the application of the ratification canon.
These published decisions are nationally binding, issued
under the agency’s mandate to “provide clear and uniform guidance to [other components of the government]
and the general public on the proper interpretation and
administration of the [INA].” 8 C.F.R. § 1003.1(d)(1).
The broad principles articulated in the decisions are
grounded in comprehensive reviews of public charge
history and offer a consistent understanding of the term
as they carry that history forward. While we may not
derive a settled rule from isolated or contradictory decisions, see Jama v. Immigration and Customs Enf ’t, 543
U.S. 335, 350-52 (2005), that is not the case here. For
more than twenty years prior to IIRIRA, the agency interpreted “public charge” to mean a person not capable
of supporting himself. In the face of this consistent

49a
agency interpretation—which itself aligns with the earlier judicial interpretations—we conclude that when
Congress reenacted the public charge ground in 1996 it
ratified this settled construction of the term. See FDA
v. Brown & Williamson Tobacco Corp., 529 U.S. 157
(2000) (concluding that Congress ratified agency interpretation that had been its “unwavering position since
its inception” and that was consistent “with the position
that its predecessor agency had first taken”).
Our conclusion finds further support in the legislative history of IIRIRA. “Although we are generally reluctant to employ legislative history at step one of Chevron” it may be helpful “when the interpretive clues speak
almost unanimously, making Congress’s intent clear beyond reasonable doubt.” Catskill Mountains, 846 F.3d
at 515 (internal quotation marks and alterations omitted). We thus look to the legislative history only to
confirm what we have already concluded.
As noted above, Congress very nearly included a
statutory definition of “public charge” in IIRIRA that
would have redefined the term to mean receipt of any
form of means-tested public benefits for more than
twelve months. See CONFERENCE REPORT, H.R. REP.
NO. 104-828, at 138. That proposed definition was intended to overcome the BIA’s Matter of B- decision,
which interpreted the public charge ground of deportation, but it was deleted from the final enactment under
threat of presidential veto. 26 See 142 CONG. REC.
The definition was proposed as part of the public charge ground
of deportation. CONFERENCE REPORT, H.R. REP. NO. 104-828, at
138. We nevertheless think it reasonable to look to this language
as we interpret the public charge ground of inadmissibility on the
principle that a term appearing in multiple places within a statute is
26

50a
S4,408-09 (daily ed. April 30, 1996) (statement of Sen.
Simpson); 142 CONG. REC. S11,882 (statement of Sen.
Kyl). In effect, an effort was made to change the prior
administrative and judicial consensus as to the meaning
of public charge, but that effort failed.
While we agree with DHS that failed legislative proposals are, as a general matter, unreliable sources of
legislative history because bills may fail for any number
of reasons, here we know exactly why the definition was
removed from IIRIRA and find it directly relevant to
our analysis. See Solid Waste Agency of N. Cook Cty.
v. U.S. Army Corps of Eng’rs, 531 U.S. 159, 169-70
(2001). We read this legislative history as further evidence that Congress was aware of prevailing administrative interpretations of “public charge” when it enacted IIRIRA. See Lindahl v. Office of Pers. Mgmt.,
470 U.S. 768, 782-83 (1985) (applying ratification canon
where legislative history demonstrated Congress was
aware of interpretation). Congress’s abandonment of
its efforts to change the meaning of the term further
suggests that it ratified the existing interpretation of
“public charge” in 1996. See Bob Jones Univ. v. United
States, 461 U.S. 574, 600-01 (1983).
DHS urges us to conclude that Congress did not ratify any interpretation of “public charge” because the
term has never had a fixed definition. To support its
“generally read the same way each time it appears.” Ratzlaf v.
United States, 510 U.S. 135, 143 (1994). And while the definition
was proposed to overcome Matter of B-’s procedural safeguards for
public charge deportation, the definition is confined to identifying
the relevant benefits and time period of use that made one a “public
charge” and could have easily been transposed to the inadmissibility
context. Cf. Harutunian, 14 I. & N. Dec. at 589.

51a
contention, DHS points to the 1950 Senate Judiciary
Committee report, which observed that “the elements
constituting likelihood of becoming a public charge are
varied[.]” S. REP. NO. 81-1515, at 349. Consequently,
the report recommends that the term not be defined in
the statute and that the determination of whether a
given non-citizen is likely to become a public charge
should “rest[] within the discretion of the [agency].”
Id.; see id. at 347 (noting the term has been given “varied definitions” by the courts).
Rather than suggesting that the core meaning of
“public charge” is unclear, the language on which DHS
relies refers to the fact there are a variety of personal
circumstances that may be relied on to show the likelihood that a would-be immigrant would fall within that
category. As described above, the report distills from
the caselaw four circumstances that indicate a noncitizen is likely to become a public charge. Id. at 348.
It thereby recognizes that there are many paths to dependency, and that administrative flexibility in determining whether a non-citizen is likely to be dependent is
desirable. But the fact that many and varied circumstances may show that one is likely to become a public
charge does not mean that the underlying term is undefined or lacks a core meaning. And while DHS makes
much of the fact that it retains discretion to decide
whether the ground applies in a given case, the allowance of discretion in individual cases does not mean that
the term itself is standardless or without a core, established meaning.
We recognize that our conclusion that Congress ratified the settled meaning of “public charge” in 1996 conflicts with decisions from the only two circuits to have

52a
addressed this argument to date. See City and Cty. of
San Francisco v. USCIS, 944 F.3d 773, 798 (9th Cir.
2019); Cook Cty. v. Wolf, 962 F.3d 208, 226 (7th Cir.
2020). In the context of granting DHS’s motion to stay
the injunctions against the enforcement of the Rule entered by district courts in California and Washington,
the Ninth Circuit decided that “public charge” had been
subjected to “varying historical interpretations” by
1996, such that the ratification canon did not apply.
San Francisco, 944 F.3d at 797. The Ninth Circuit reasoned that there was no consistent interpretation because
[i]nitially, the likelihood of being housed in a government or charitable institution was most important.
Then, the focus shifted in 1948 to whether public benefits received by an immigrant could be monetized,
and the immigrant refused to pay for them. In 1974,
it shifted again to whether the immigrant was employable and self-sufficient. That was subsequently
narrowed in 1987 to whether the immigrant had received public cash assistance, which excluded in-kind
benefits. 27
Id. at 796. We think the Ninth Circuit goes astray in
pinning the definition of “public charge” on the form of
public care provided to the dependent non-citizen.
That the face of our welfare system has changed over
time does not mean that the fundamental inquiry of the
public charge ground—whether the non-citizen is likely
We explain below our further disagreement with these characterizations of the 1948 Matter of B- decision and the 1987 public
charge provision established in the Immigration Reform and Control Act of 1986, which only applied to those non-citizens participating in an ad hoc legalization program.
27

53a
to depend on that system—has also changed. The settled meaning of “public charge,” as the plain meaning of
the term already suggests, is dependency: being a persistent “charge” on the public purse. And as we explain further below, the mere receipt of benefits from
the government does not constitute such dependency.
We are similarly unpersuaded by the Seventh Circuit’s “admittedly incomplete” historical review and its
conclusion that plaintiffs in that case had failed to establish that Congress ratified the settled meaning of the
term. See Cook Cty., 962 F.3d at 226. The Seventh
Circuit focuses almost exclusively on the state of the law
prior to 1927 and enactments post-dating Congress’s
1996 amendment to the public charge ground, the point
at which any existing interpretation would have been
ratified. Id. at 222-26. Critically, this limited analysis omits the administrative interpretations of the 1960s
and 1970s that established uniform and nationally binding interpretations of the public charge ground, a key
component of our determination that Congress ratified
the prevailing interpretation of the term in 1996. See
id. at 225.
In light of the judicial, administrative, and legislative
treatments of the public charge ground from 1882 to
1996, we hold that Congress ratified the settled meaning
of “public charge” when it enacted IIRIRA. Congress
intended the public charge ground of inadmissibility to
apply to those non-citizens who were likely to be unable
to support themselves in the future and to rely on the
government for subsistence. “[D]eference is not due
unless a court, employing traditional tools of statutory
construction, is left with an unresolved ambiguity.”
Epic Sys., 138 S. Ct. at 1630 (internal quotation marks

54a
omitted). Here, because the ratification canon reveals
the intent of Congress “on the precise question at issue,
that intention is the law and must be given effect.”
Chevron, 467 U.S. at 843 n.9. We thus owe no deference to the Rule and consider only whether it comports
with congressional intent.
6. The Rule’s Inconsistency with the Settled
Meaning

“No matter how it is framed, the question a court
faces when confronted with an agency’s interpretation
of a statute it administers is always, simply, whether the
agency has stayed within the bounds of its statutory authority.” City of Arlington v. FCC, 569 U.S. 290, 297
(2013) (emphasis omitted). Having marked out the interpretive boundaries of “public charge,” we now consider whether the Rule’s interpretation falls within the
ambit of congressional intent. DHS repeatedly claims
that the Rule aligns with the intent of Congress because
it excludes those non-citizens who lack “self-sufficiency
and . . . need to rely on the government for support.”
84 Fed. Reg. at 41,317; see, e.g., id. at 41,295, 41,306,
41,318, 41,320, 41,348. As we have just concluded, Congress did indeed ratify a consistent and long-standing
judicial and administrative understanding of “public
charge” as focused on non-citizens’ abilities to support
themselves. But DHS’s generalized assurance that it
shares Congress’s interest in self-sufficiency is belied by
the Rule’s actual definition of “public charge,” which reveals that DHS and Congress have dramatically different notions of the term.
The prevailing administrative and judicial interpretation of “public charge” ratified by Congress understood the term to mean a non-citizen who cannot support

55a
himself, in the sense that he “is incapable of earning a
livelihood, . . . does not have sufficient funds in the
United States for his support, and has no person in the
United States willing and able to assure that he will not
need public support[.]” Harutunian, 14 I. & N. Dec.
at 589. Moreover, under that interpretation the “determination of whether an alien is likely to become a
public charge . . . is a prediction based upon the totality of the alien’s circumstances. . . . The fact that
an alien has been on welfare does not, by itself, establish
that he or she is likely to become a public charge.” Perez, 15 I. & N. Dec. at 137. In contrast, the Rule categorically renders non-citizens public charges—i.e., not
self-sufficient—if they are likely to access any quantity
of the enumerated benefits for a limited number of
months. See 84 Fed. Reg. at 41,349. We think it plain
on the face of these different interpretations that the
Rule falls outside the statutory bounds marked out by
Congress. Our conclusion is bolstered by the fact that
many of the benefits newly considered by the Rule have
relatively generous eligibility criteria and are designed
to provide supplemental assistance to those living well
above the poverty level, as we discuss in greater detail
below. 28 See infra Section II.C.2.

DHS assumes that receipt of SNAP, Medicaid, or housing assistance shows that a non-citizen is per se unable to meet basic needs.
See, e.g., 84 Fed. Reg. at 41,349. Because DHS primarily invokes
this assumption as a justification for its changed interpretation, we
address (and reject) it in our analysis of the Plaintiffs’ arbitrary and
capricious challenge. We note it here because the fact that the Rule
incorporates public benefits with broader programmatic aims than
basic subsistence evidences the Rule’s inconsistency with congressional intent.
28

56a
To be sure, we do not find the intent of Congress evidenced by the ratification canon to be so precise as to
support only one interpretation. On the contrary, the
principles at issue are broad enough that they may support a variety of agency interpretations. But while an
agency may “give authoritative meaning to the statute
within the bounds of th[e] uncertainty” implicit in congressional intent, “the presence of some uncertainty”
does not prevent us from “discern[ing] the outer limits
of [a statutory] term[.]” Cuomo v. Clearing House
Ass’n, LLC, 557 U.S. 519, 525 (2009). When the meaning of a statutory term is unclear, federal agencies specialized in the area receive deference from courts in assigning meaning to the uncertain language. But the
deference is not unlimited. If Congress passed a statute leaving it unclear whether a term of the statute
means A, B, or C, an appropriate federal agency will receive deference in concluding that the proper meaning
is any one of A, B, or C. But it does not follow that,
because the statutory term could mean either A, B, or
C, the agency will receive deference in interpreting it to
mean X or Y or Z, because such an interpretation would
be inconsistent with the meaning of the statute.
Whatever gray area may exist at the margins, we
need only decide today whether Congress “has unambiguously foreclosed the [specific] statutory interpretation” at issue. Catawba Cty. v. EPA, 571 F.3d 20, 35
(D.C. Cir. 2009). And we conclude that Congress’s intended meaning of “public charge” unambiguously forecloses the Rule’s expansive interpretation. We are not
persuaded by DHS’s efforts to argue otherwise.
DHS first attempts to argue that its definition of
“public charge” is consistent with the historical caselaw

57a
interpretations of the term. DHS points to two district
court cases from the 1920s to claim that Congress ratified a definition of “public charge” that encompasses
minimal and temporary public benefits usage. The
first, Guimond v. Howes, 9 F.2d 412 (D. Me. 1925), held
that members of an immigrant family were likely to become public charges when the husband was a bootlegger
who had been incarcerated for two periods of sixty and
ninety days, respectively. Id. at 413. Because the
family had been “supported” by the town while he was
imprisoned, and because the husband’s occupation made
it likely he would return to jail in the future, the district
court found the family likely public charges. Id. at 41314. The second case, Ex parte Turner, 10 F.2d 816, 817
(S.D. Cal. 1926), also found that members of a family
were likely public charges because the husband was
“predisposed to physical infirmity” and would “likely be
incapacitated from performing any work or earning support for himself and [his] family” when his ailments
flared up in the future. Because his wife and children
had received charitable aid during his previous twomonth hospitalization, the court anticipated they would
do so again when he became sick in the future and found
the family to be likely public charges. Id.
In both cases, the district court did look at previous,
short-term receipt of public benefits in making the public charge determination. But neither case suggests
that this receipt alone rendered the immigrant a public
charge. Rather, the district courts found it significant
that the families were likely to repeatedly become dependent on the public in the future, as the breadwinners
of the families were unlikely to stop bootlegging or to
overcome physical infirmity. Guimond, 9 F.2d at 414;

58a
Turner, 10 F.2d at 817. These cases thus do not suggest that courts have historically considered the temporary receipt of benefits as sufficient to enter a public
charge finding. To the contrary, both Guimond and
Turner rest on the finding that the benefits usage was
not merely temporary but was likely to regularly reoccur. 29
The only other case on which DHS relies is Matter of
B-, 3 I. & N. Dec. at 323. DHS argues that Matter of
B- shows that a non-citizen is deportable as a public
charge if she fails to reimburse the government for the
benefits used, even if the non-citizen was not primarily
dependent on the benefits. DHS reads far too much
into the case. In Matter of B-, the non-citizen was institutionalized, the paradigmatic example of a public
charge. Id. at 324. The only issue in the case was
whether she could escape deportation by reimbursing
the state for the services received. Id. at 326. The
BIA held that a non-citizen is not deportable as a public
charge unless the state has asked for reimbursement
and the non-citizen or her relatives have failed to pay.
Id. at 325. Rather than broadening the definition of
the public charge ground of inadmissibility—or saying
anything that casts doubt on other cases suggesting
that a “public charge” must be persistently and primarily dependent on the government—Matter of B- held
that even an immigrant who had been institutionalized
at public expense because she was unable to care for
In any event, even if these cases could be read to support DHS’s
proposition, they would not outweigh the prior or subsequent caselaw
—particularly the agency decisions from the 1960s and 1970s setting
out nationally binding public charge standards—endorsing a different interpretation of “public charge.”
29

59a
herself and was likely to require permanent hospitalization, still was not categorically a public charge if the
state had not sought payment and been unable to collect.
Matter of B- thus offers a procedural escape hatch to
those who need government services but have money to
pay. While the decision alters the mechanics of deportation as a public charge, it hardly presents a new interpretation of the term “public charge” itself. 30 It seems
particularly odd to cite this somewhat unusual case, with
its generous treatment of a non-citizen who might well
seem to fall within the established meaning of “public
charge,” in support of a sweeping expansion of that category.
DHS next argues that a series of policy statements
enacted as part of PRWORA show that the Rule’s interpretation is consistent with congressional intent regarding the meaning of “public charge.” See 8 U.S.C. § 1601
(describing the “national policy with respect to welfare
and immigration”). In the policy statements, which lay
out the rationale for enacting restrictions on non-citizen
eligibility for public benefits, Congress emphasized that
“[s]elf-sufficiency has been a basic principle of United

Moreover, in Matter of Harutunian, the BIA held that the Matter of B- test is limited to the public charge ground of deportation
and should not be read into the public charge ground of inadmissibility. 14 I. & N. Dec. at 589-90. This distinction between the public charge grounds of inadmissibility and deportation was affirmed
by INS in its 1999 Guidance, where it explained that while “the definition of public charge is the same for both admission/adjustment
and deportation, the standards applied to public charge adjudications in each context are significantly different.” 64 Fed. Reg. at
28,689.
30

60a
States immigration law since this country’s earliest immigration statutes” and affirmed that
[i]t continues to be the immigration policy of the
United States that (A) aliens within the Nation’s borders not depend on public resources to meet their
needs, but rather rely on their own capabilities and
the resources of their families, their sponsors, and
private organizations, and (B) the availability of public benefits not constitute an incentive for immigration to the United States.
Id. § 1601(1), (2). The policy statements further explain that PRWORA creates “new rules for eligibility
and sponsorship agreements in order to assure that aliens be self-reliant in accordance with national immigration policy.” Id. § 1601(5). The policy statements
conclude by noting that any state adopting the federal
benefits eligibility scheme laid out in PRWORA “shall
be considered to have chosen the least restrictive means
available for achieving the compelling governmental interest of assuring that aliens be self-reliant in accordance with national immigration policy.” Id. § 1601(7).
DHS reads these policy statements to mean that
“Congress expressly equated a lack of ‘self-sufficiency’
with the receipt of ‘public benefits’ ” and that Congress
intended “public charge” to mean “individuals who rely
on taxpayer-funded benefits to meet their basic needs.”
Appellants’ Br. at 30-31. We are thoroughly unpersuaded by this argument. PRWORA implemented
Congress’s goal of self-sufficiency by restricting
non-citizen eligibility for benefits, including the establishment of the five-year waiting period for LPRs.
PRWORA did not eliminate non-citizen eligibility for
benefits nor does it suggest that such drastic action is

61a
necessary. Still less does it indicate any congressional
intention that non-citizens who receive the benefits for
which Congress did not render them ineligible risk being considered “public charges.” On the contrary, the
policy statements specifically proclaim that the new eligibility restrictions sufficiently “achiev[ed] the compelling governmental interest of assuring that aliens be
self-reliant in accordance with national immigration policy.” Id. § 1601(7) (emphasis added). Clearly, Congress
decided that the benefits it preserved for non-citizens
after PRWORA did not interfere with its interest in assuring non-citizen self-sufficiency. Rather than supporting DHS’s expanded interpretation, both the policy
statements, taken as a whole, and the actual implementation of those policy goals in the substantive provisions
of PRWORA, are in considerable tension with the Rule’s
new interpretation of “public charge,” which penalizes
non-citizens for the possibility that they will access the
very benefits PRWORA preserved for them. 31
DHS attempts to salvage this argument by pointing
out that the 1999 Guidance made various cash benefits
relevant to the public charge analysis, notwithstanding
that PRWORA also preserved non-citizen eligibility for
those benefits. DHS argues that this shows that Congress did not intend to preclude the agency from considering the receipt of PRWORA-approved benefits in the
We note that in its decision on DHS’s motion to stay the preliminary injunctions, the Ninth Circuit accepted DHS’s argument on this
point. San Francisco, 944 F.3d at 799. The Ninth Circuit based its
analysis on the first two policy statements but did not consider the
impact of the subsequent statements in which Congress explained
that the PRWORA eligibility scheme satisfied its notions of self-sufficiency. Id.
31

62a
public charge determination. DHS is correct that the
1999 Guidance makes “receipt of public cash assistance
for income maintenance” one of two ways “primary dependence” on the government could be shown. 64 Fed.
Reg. at 28,689. But the Guidance was also clear that
receipt of such benefits alone was insufficient to establish dependency, and that any such receipt needed to be
weighed in the context of the non-citizen’s overall circumstances. The Guidance explicitly noted that “an alien receiving a small amount of cash for income maintenance purposes could be determined not likely to become a public charge due to other positive factors under
the totality of the circumstances test.” 64 Fed. Reg. at
28,690. While the 1999 Guidance permissibly looked at
receipt of cash benefits as one factor indicating dependence on the government, the Rule elevates receipt of any
quantity of a broad list of benefits to be the very definition of “public charge.” See 84 Fed. Reg. at 41,295.
The question under consideration is whether the
Rule’s understanding of the term “public charge” goes
beyond the bounds of the settled meaning of the term.
The Plaintiffs do not argue, and we do not hold, that the
receipt of various kinds of public benefits is irrelevant to
the determination of whether a non-citizen is likely to
become a public charge. But defining public charge to
mean the receipt, even for a limited period, of any of a
wide range of public benefits—particularly, as we discuss below, ones that are designed to supplement an individual’s or family’s efforts to support themselves, rather than to deal with their likely permanent inability to
do so—is inconsistent with the traditional understanding of what it means to be a “public charge,” which was
well-established by 1996.

63a
Finally, DHS points to three other statutory provisions to support its argument that the Rule is consistent
with the intent of Congress. First, DHS points to 8
U.S.C. § 1182(s), which exempts from the public charge
analysis “any benefits” received by a non-citizen who
qualified for such benefits as a survivor of domestic violence. See 8 U.S.C. § 1641(c). DHS argues that because § 1182(s) excuses any benefits received, Congress
understood that past receipt of even non-cash benefits
would otherwise generally be relevant to a public charge
determination. But 8 U.S.C. § 1182(s) was added in
2000, shortly after INS issued its 1999 Guidance in
which it clarified that benefits like TANF and SSI would
be relevant for the public charge determination. See
Victims of Trafficking and Violence Protection Act of
2000, Pub. L. No. 106-386, § 1505(f ), 114 Stat. 1464, 1526.
Without § 1182(s), survivors of domestic violence could
thus have had their receipt of cash benefits used against
them. By far the most natural reading of § 1182(s) is
that Congress was preventing domestic violence victims
from being penalized under the then-existing framework. In any event, the statute concerns what is relevant to the determination, and gives no indication that
Congress somehow understood that the receipt of the
benefits covered by the 1999 Guidance, let alone a broader
set of benefits, could categorically render noncitizens who
were not domestic violence survivors “public charges.”
Once again, what is impermissible in DHS’s interpretation is not that it renders receipt of supplemental noncash benefits relevant to a non-citizen’s classification as
a public charge, but rather that it makes the receipt of
such benefits determinative.

64a
Second, DHS argues that the provisions requiring affidavits of support for family-based immigrants and allowing the government to seek reimbursement from the
sponsor for any means-tested public benefit used by the
non-citizen support its interpretation. DHS contends
that these provisions show that Congress considered
any non-citizen who might receive an unreimbursed
public benefit in the future a likely public charge. See
8 U.S.C. §§ 1182(a)(4)(c)(ii), 1183a(b)(1)(A). We are
not convinced that the affidavit reimbursement mechanism shows congressional intent to broaden the meaning
of “public charge.” For one thing, not all immigrants
have to provide affidavits of support; the requirement is
limited to family-based immigrants and we see no reason it should be taken to alter the underlying terms that
apply to all non-citizens. 32 We also note that the statute includes a corollary, allowing the non-citizen herself
to take the sponsor to court if the sponsor fails to support
the non-citizen as promised. See id. § 1183a(a)(1)(B).
The reimbursement provision thus serves primarily as a
mechanism to get sponsors to take their commitments
seriously by making them legally enforceable, a longstanding point of concern. See S. REP. NO. 81-1515, at
347 (Senate Judiciary Committee Report from 1950 critiquing the affidavit of support as an unenforceable document that “at most, appears to be merely a moral obligation upon the affiant”).
Third and last, DHS looks to the 1986 Immigration
Reform and Control Act (“IRCA”) to support its claim
The affidavit of support requirement is also applied to a small
subset of employment-based immigrants, where the non-citizen’s
prospective employer is a relative or an entity owned in large part
by a relative. 8 U.S.C. § 1182(a)(4)(D).
32

65a
that the Rule is consistent with congressional intent.
IRCA established an ad hoc legalization program for undocumented immigrants. See 8 U.S.C. § 1255a. To
qualify for legalization, applicants needed to prove that
most of the grounds of inadmissibility did not apply to
them, including the public charge ground. See id.
§ 1255a(a)(4), (d)(2). However, IRCA established a “special rule” with respect to the public charge inquiry,
under which a non-citizen would not be deemed a likely
public charge “if the alien demonstrates a history of employment in the United States evidencing self-support
without receipt of public cash assistance.”
Id.
§ 1255a(d)(2)(B)(iii). DHS argues that because the
IRCA special rule specifically incorporates only cash assistance, the generic ground in § 1182(a)(4) must necessarily have a broader reach.
The implementing regulations of IRCA, however,
suggest that, rather than refining the benefits relevant
to the public charge inquiry, the special rule allowed a
non-citizen who may otherwise be deemed a likely public
charge because of his limited financial resources an additional manner of showing self-sufficiency. The relevant regulations provide that a non-citizen “who has a
consistent employment history which shows the ability
to support himself or herself even though his or her income may be below the poverty level, may be admissible.” 8 C.F.R. § 245a.2(k)(4). Accordingly, even if an
applicant was “determined likely to become a public
charge[,]” adjudicators were to find a noncitizen inadmissible on this ground only if he was “unable to overcome this determination after application of the special
rule” and consideration of his employment history. Id.
§ 245a.2(d)(4). The BIA applied the IRCA special rule

66a
in Matter of A-, reversing a public charge finding that
put too much weight on the applicant’s “financial circumstances” in the face of “the more important factors;
namely, that the applicant has now joined the work
force, . . . is young, and . . . has no physical or
mental defects which might affect her earning capacity.”
19 I. & N. Dec. at 870. In other words, the BIA read
the IRCA special rule as fully consistent with the longstanding view that the ultimate issue in defining a “public charge” is the non-citizen’s anticipated ability, over a
protracted period, to be able to work to support himself
or herself. IRCA and its implementing regulations
thus show that Congress continued to emphasize capacity for work as a core element of the public charge
ground.
All three of these statutory arguments share a common flaw. DHS attempts to justify a sweeping redefinition of “public charge” by pointing to tangential details
within the extensive patchwork that makes up American
immigration law—none of which express any intention
by Congress to revise or depart from the settled meaning of the term “public charge.” DHS’s argument that
these statutory provisions are “consistent” with its interpretation is of no relevance. The question is whether,
by passing these statutes, Congress undertook to change
the long-established meaning of public charge. While
the statutes to which DHS points may be “consistent”
with the meaning DHS has assigned to public charge,
they are no less consistent with the long established
meaning of public charge that DHS seeks to overturn.
These enactments do nothing to demonstrate that Congress changed the meaning of public charge. The ar-

67a
guments thus “run[ ] afoul of the usual rule that Congress does not alter the fundamental details of a regulatory scheme in vague terms or ancillary provisions—it
does not, one might say, hide elephants in mouseholes.”
Epic Sys., 138 S. Ct. at 1626-27 (internal quotation
marks omitted).
We conclude that the Plaintiffs have demonstrated a
likelihood of success on the merits of their argument
that the Rule is contrary to the INA. In reenacting the
public charge ground in 1996, Congress endorsed the
settled administrative and judicial interpretation of that
ground as requiring a holistic examination of a noncitizen’s self-sufficiency focused on ability to work and
eschewing any idea that simply receiving welfare benefits made one a public charge. The Rule makes receipt
of a broad range of public benefits on even a short-term
basis the very definition of “public charge.” That exceedingly broad definition is not in accordance with the
law. See 5 U.S.C. § 706(2)(A).
C.

The Rule is Arbitrary and Capricious.

We next consider whether the Plaintiffs are likely to
succeed on the merits of their argument that the Rule is
arbitrary and capricious. See id. “The scope of review under the ‘arbitrary and capricious’ standard is
narrow and a court is not to substitute its judgment for
that of the agency.” State Farm, 463 U.S. at 43. But
“[t]his is not to suggest that judicial review of agency
action is merely perfunctory. To the contrary, within
the prescribed narrow sphere, judicial inquiry must be
searching and careful.” Islander E. Pipeline Co., LLC
v. McCarthy, 525 F.3d 141, 151 (2d Cir. 2008) (internal
quotation marks omitted).

68a
“When an administrative agency sets policy, it must
provide a reasoned explanation for its action. This is
not a high bar, but it is an unwavering one.” Judulang
v. Holder, 565 U.S. 42, 45 (2011). The Plaintiffs argue
that the Rule is arbitrary and capricious because DHS
has not provided a reasoned explanation for its changed
definition of “public charge” or the Rule’s expanded
list of relevant benefits. DHS contends that it has adequately explained its action, stating that it adopted its
new public charge definition to “improve upon” the 1999
Guidance by “aligning public charge policy with the selfsufficiency principles set forth in [PRWORA].” 83
Fed. Reg. at 51,123; see also 84 Fed. Reg. at 41,319-20.
DHS further explains that it expanded the list of relevant benefits because the 1999 Guidance relied on an
“artificial distinction between cash and non-cash benefits” that is not warranted under DHS’s new definition.
83 Fed. Reg. at 51,123; see 64 Fed. Reg. at 28,689. For
the reasons laid out below, we agree with the district
court that the Plaintiffs are likely to succeed on the merits of their claim that the Rule is arbitrary and capricious because neither rationale is a “satisfactory explanation” for DHS’s actions. 33 State Farm, 463 U.S. at
43.
1. Explanation for Changed Definition

DHS justifies its revised definition of “public charge”
—one who uses a relevant public benefit for more than

Because we find the Plaintiffs likely to succeed on this basis, we
do not address the Plaintiffs’ additional contentions that we could
find the Rule arbitrary and capricious based on its aggregation principle, selection of factors indicative of future benefits use, or costbenefit analysis.
33

69a
twelve months in the aggregate—as a “superior interpretation of the statute to the 1999 Interim Field Guidance” because it “furthers congressional intent behind
both the public charge inadmissibility statute and
PRWORA in ensuring that aliens
. . .
be selfsufficient and not reliant on public resources.” 84 Fed.
Reg. at 41,319. “In fact, DHS believes it would be contrary to congressional intent to promulgate regulations
that . . . ignore the[] receipt” of the benefits listed
in the Rule “as this would be contrary to Congress’s intent in ensuring that aliens within the United States are
self-sufficient.” Id. at 41,318 (citing the PRWORA policy statements at 8 U.S.C. § 1601(2)(A)); see, e.g., id. at
41,295, 41,305, 41,308. In short, DHS justifies its
changed interpretation as necessary to implement Congress’s view that “the receipt of any public benefits, including noncash benefits, [is] indicative of a lack of selfsufficiency.” Appellants’ Br. at 43.
This explanation fails for the same reasons as DHS’s
related argument that the PRWORA policy statements
show that the Rule is consistent with Congress’s intended meaning of “public charge.” See supra Section
II.B.6. As we discussed above, the PRWORA policy
statements do show a congressional interest in ensuring
non-citizen self-sufficiency. See 8 U.S.C. § 1601(1), (2).
But the statements also show that, contrary to DHS’s
belief, Congress’s vision of self-sufficiency does not anticipate abstention from all benefits use. See Cook
Cty., 962 F.3d at 232 (rejecting DHS’s “absolutist sense
of self-sufficiency that no person in a modern society
could satisfy”). Rather, Congress realized its notion of
self-sufficiency with a new benefits eligibility scheme
that greatly reduced—but did not eliminate—non-

70a
citizen eligibility for public benefits. See 8 U.S.C.
§ 1601(7) (describing the PRWORA eligibility scheme as
“achieving the compelling governmental interest of assuring that aliens be self-reliant in accordance with national immigration policy”). “The Supreme Court and
[other] court[s] have consistently reminded agencies
that they are bound, not only by the ultimate purposes
Congress has selected, but by the means it has deemed
appropriate, and prescribed, for the pursuit of those
purposes.” Gresham v. Azar, 950 F.3d 93, 101 (D.C.
Cir. 2020) (internal quotation marks omitted).
Had Congress thought that any benefits use was incompatible with self-sufficiency, it could have said so, either by making non-citizens ineligible for all such benefits or by making those who did receive them inadmissible. But it did not. We are thus left with an agency
justification that is unmoored from the nuanced views of
Congress. See Yale-New Haven Hosp. v. Leavitt, 470
F.3d 71, 85-86 (2d Cir. 2006) (finding agency failed to
provide reasoned explanation as to “how adoption of a
per se coverage standard comports with congressional
purposes in enacting the Medicare Act,” which prioritized individualized care determinations). As the Supreme Court has explained,
no legislation pursues its purposes at all costs. Deciding what competing values will or will not be sacrificed to the achievement of a particular objective is
the very essence of legislative choice—and it frustrates rather than effectuates legislative intent simplistically to assume that whatever furthers the statute’s primary objective must be the law.
Rodriguez v. United States, 480 U.S. 522, 525-26 (1987)
(emphasis omitted).

71a
DHS’s misconception of the PRWORA policy statements and Congress’s intended notion of self-sufficiency
is its principal justification for its revised definition; it
identifies no other “deficienc[y]” in the 1999 Guidance,
apart from its limited list of relevant benefits, discussed
below. See 84 Fed. Reg. at 41,319; see also id. at 41,349
(describing the Guidance’s interpretation as “suboptimal when considered in relation to the goals of the INA
and PRWORA”).
To be sure, we do not suggest that DHS must, as a
general matter, show that the Guidance was deficient or
that the Rule is necessarily a better interpretation than
the prior policy reflected in the Guidance to avoid being
found arbitrary and capricious. See FCC v. Fox Television Stations, Inc., 556 U.S. 502, 515 (2009) (clarifying
that agencies are not required to show “that the reasons
for the new policy are better than the reasons for the old
one”). Nor do we suggest that, when an agency offers
a statutory interpretation as part of its reason for adopting a policy, and a reviewing court later rejects the
agency’s statutory interpretation, that the policy is per
se arbitrary and capricious. But where, as here, DHS
anchors its decision to change its interpretation in the
perceived shortcomings of the prior interpretation,
and then fails to identify any actual defect, it has not
provided a “reasoned explanation” for its actions—
particularly when it bases its changed position on its
reading of a statute, and it is the new Rule, rather than
the old Guidance, that strays from congressional intent.
Encino Motorcars, LLC v. Navarro, 136 S. Ct. 2117,
2125 (2016).

72a
2. Explanation for Expanded List of Benefits

This brings us to DHS’s rationale for expanding the
list of benefits relevant to the public charge determination. DHS explains that it included a broader group of
benefits in the Rule because the distinction made in the
1999 Guidance between cash and non-cash benefits was
no longer appropriate in light of the more restrictive notions of self-sufficiency DHS enacted with the changed
definition. See 84 Fed. Reg. at 41,356; see also id. at
41,349, 41,351, 41,375; 83 Fed. Reg. at 51,123. Though
this explanation is in some ways subsidiary to DHS’s explanation for the changed definition, DHS argues this as
an additional justification and we thus address its additional shortcomings. See Appellants’ Br. at 43.
In the 1999 Guidance, INS explained that “[a]fter extensive consultation with benefit-granting agencies” it
“determined that the best evidence of whether an alien
is primarily dependent on the government for subsistence is . . . the receipt of public cash assistance for
income maintenance.” 64 Fed. Reg. at 28,692; see 83
Fed. Reg. 51,133. The Guidance consequently excluded non-cash benefits (e.g., SNAP, housing assistance, and Medicaid) from consideration because those
benefits were “increasingly being made available to families with incomes far above the poverty level, reflecting
broad public policy decisions about improving general
public health and nutrition.” 64 Fed. Reg. at 28,692.
In other words, “participation in [those] programs [was]
not evidence of poverty or dependence” because they
are “by their nature supplemental and do not, alone or
in combination, provide sufficient resources to support
an individual or family.” Id.; see id. at 28,678.

73a
In justifying its decision to include these non-cash
benefits in the Rule, DHS explains that they are relevant to its revamped public charge definition because
they “bear directly on self-sufficiency.” 84 Fed. Reg.
at 41,366. DHS reasons that because “[f ]ood, shelter,
and necessary medical treatment are basic necessities
of life[, a] person who needs the public’s assistance to
provide for these basic necessities is not self-sufficient.”
83 Fed. Reg. at 51,159. Thus, the Rule includes these
benefits as relevant to the public charge determination
to ensure that all benefits bearing on self-sufficiency are
considered. Id.; see 84 Fed. Reg. at 41,356.
The fundamental flaw of this justification is that
while DHS repeatedly contends that the non-citizens using these programs would be unable to provide for their
basic necessities without governmental support, it does
not provide any factual basis for this belief. See, e.g.,
83 Fed. Reg. at 51,159; 84 Fed. Reg. at 41,354, 41,366,
41,375, 41,381, 41,389. While the 1999 Guidance was
developed in consultation with the benefits-granting
agencies, DHS does not claim that their expertise again
informed its decision that people who use non-cash benefits would be otherwise unable to meet their basic
needs. 34 Of course, DHS is free to change its interpretation and we do not suggest it is under any obligation
to consult with its sister agencies in so doing. But what
DHS may not do is rest its changed interpretation on
unsupported speculation, particularly when its categorical assumptions run counter to the realities of the noncash benefits at issue. The goals and eligibility criteria
In response to a comment directly asking whether any such consultation took place, DHS invoked the deliberative process privilege.
84 Fed. Reg. at 41,460.
34

74a
of these benefits programs belie DHS’s assumption and
show that these programs are designed to provide supplemental support, rather than subsistence, to a broad
swath of the population—as INS recognized in 1999.
Take, for example, SNAP—the Supplemental Nutrition Assistance Program—which was born of a desire to
“raise levels of nutrition among low-income households.” Food Stamp Act of 1964, Pub. L. No. 88-525,
§ 2, 78 Stat. 703, 703. SNAP benefits are intended for
all those whose “financial resources . . . are determined to be a substantial limiting factor in permitting
them to obtain a more nutritious diet.” Food and Agriculture Act of 1977, Pub. L. No. 95-113, § 1301, 91 Stat.
913, 962 (emphasis added); see 7 C.F.R. § 273.9(a). Because SNAP is not intended only for those who might
otherwise face starvation, the program is open to households with incomes exceeding the federal poverty guideline, 7 C.F.R. § 273.9(a)(1), and its supplemental nature
is underscored by the fact that the average SNAP recipient receives only $127 a month in benefits, see House of
Representatives Amicus Br. at 19 (citing 2018 statistics). Large numbers of SNAP recipients, far from being incapable of productive employment, work for some
of America’s largest corporations. 35

See Public Justice Center Amicus Br. at 12 (citing Senate report
concluding that SNAP beneficiaries are “ ‘far more’ likely to be employed than to rely on cash assistance” (quoting S. Rep. No. 11-220,
at 8 (2007)); see also Dennis Green, Data From States Shows Thousands of Amazon Employees Are on Food Stamps, BUSINESS INSIDER (Aug. 25, 2018) (discussing SNAP usage by Amazon, Walmart,
and McDonald’s employees).
35

75a
The housing benefits included in the Rule have a similar aim, intended to ensure “a decent home and a suitable living environment for all persons, but principally
those of low and moderate income.” Housing and
Community Development Act of 1974, Pub. L. No. 93383, § 101(c)(3), 88 Stat. 633, 634 (emphasis added). Indeed, while the majority of those using housing programs are low-income families, benefits remain available to those earning up to 80% of the area median income
—$85,350 for a family of four in New York City in 2019.
M.T.R. J. App. 164; see 42 U.S.C. § 1437a(b)(2)(A). It
makes little sense to treat the mere receipt of housing
benefits as proof of inability to survive by one’s own efforts when the program is intended for, among others,
people who can and do earn moderate incomes. In contrast, TANF—one of the three benefits listed in the 1999
Guidance—is generally only available to families with
incomes well below the federal poverty guideline. 36
While the Rule declares non-citizens dependent for
using Medicaid instead of private health insurance, it
cannot be ignored that in this country, access to private
healthcare depends for many people on whether an employer offers coverage. See National Housing Law
Project Amicus Br. at 22 (noting that roughly 40% of

The TANF earnings thresholds for new applicants vary by state
and range from approximately 16% of FPG in Alabama to 91% of
FPG in Nevada. See CONG. RESEARCH SERV., TANF: ELIGIBILITY AND BENEFIT AMOUNTS IN STATE TANF CASH ASSISTANCE
PROGRAMS at 3 (2014). In the majority of states, however, TANF
was only available to those earning less than 50% of FPG, which
means an annual income of less than $13,100 for a family of four in
2020. Id.; see Annual Update of the HHS Poverty Guidelines, 85
Fed. Reg. 3,060, 30,060 (Jan. 17, 2020).
36

76a
employed Medicaid beneficiaries work for small businesses, many of which are not legally required to provide health insurance). Considering that access to insurance is often determined by factors beyond an individual’s control, we are dubious of DHS’s unsupported
claim that using public health insurance shows a lack of
self-sufficiency. 37 To the contrary, studies show that
more than 60% of Medicaid beneficiaries who are not
children, older adults, or people with disabilities are employed. See Public Justice Center Amicus Br. at 20
(citing RACHEL GARFIELD ET AL., KAISER FAMILY
FOUND., UNDERSTANDING THE INTERSECTION OF MEDICAID AND WORK : WHAT DOES THE DATA SAY?
2
(2019)). To be sure, it is easier for individuals to purchase private coverage in the wake of the Affordable
Care Act (“ACA”), but the Rule implies that even using
ACA tax credits to purchase health insurance evidences
an inability to meet one’s needs without government
support. 84 Fed. Reg. at 41,299.

DHS also suggests that Medicaid is included because “the total
Federal expenditure for the Medicaid program overall is by far
larger than any other program for low-income people,” 84 Fed. Reg.
at 41,379, which DHS takes as evidence that it is “a more significant
form of public support” for individuals than other benefits, Appellants’ Br. at 43; see 83 Fed. Reg. at 51,160. We are not persuaded
that the difference in dollars expended is an appropriate indicator of
a non-citizen’s level of self-sufficiency; rather, it seems plain to us
that the difference is due to the high cost of providing healthcare in
the United States. Cf. Public Citizen, Inc. v. Mineta, 340 F.3d 39,
58 (2d Cir. 2003) (“The notion that ‘cheapest is best’ is contrary to
State Farm.”). The size of the government expenditure on Medicaid may be relevant to a policy debate about the costs and benefits
of the program, but it has little bearing on whether Medicaid recipients should be considered “public charges.”
37

77a
Of course, SNAP and housing benefits may very well
be all that stands between some non-citizens and hunger
or homelessness. Some families may actually fail to meet
these basic needs without government support. But
these programs sweep more broadly than just families
on the margin, encompassing those who would no doubt
keep their families fed and housed without government
support but are able to do so in a healthier and safer way
because they receive supplemental assistance. See
Cook Cty., 962 F.3d at 232 (noting that the benefits covered by the Rule “are largely supplemental” and that
“[m]any recipients could get by without them” (emphasis omitted)). Accepting help that is offered to elevate
one to a higher standard of living, help that was created
by Congress for that precise purpose, does not mean a
person is not self-sufficient—particularly when such
programs are available not just to persons living in abject poverty but to a broad swath of low- and moderateincome Americans, including those who are productively
employed. DHS goes too far in assuming that all those
who participate in non-cash benefits programs would be
otherwise unable to meet their needs and that they can
thus be categorically considered “public charges.” Its
unsupported and conclusory claim that receipt of such
benefits indicates an inability to support oneself does
not satisfy DHS’s obligation to explain its actions. See
Gen. Chem. Corp. v. United States, 817 F.2d 844, 855
(D.C. Cir. 1987) (rejecting agency’s “conclusory” explanation and noting that “[s]uch intuitional forms of decisionmaking . . . fall somewhere on the distant side
of arbitrary” (internal quotation marks omitted)); see
also State Farm, 463 U.S. at 51.

78a
“Agencies are free to change their existing policies as
long as they provide a reasoned explanation for the
change. When an agency changes its existing position,
it need not always provide a more detailed justification
than what would suffice for a new policy created on a
blank slate. But the agency must at least . . . show
that there are good reasons for the new policy.” Encino Motorcars, 136 S. Ct. at 2125-26 (internal quotation
marks and citations omitted). DHS has failed to do so
here. Accordingly, the Plaintiffs have shown they are
likely to succeed on the merits of their claim that DHS’s
failure to provide a reasoned explanation renders the
Rule arbitrary and capricious.
III. Irreparable Harm to the Plaintiffs

The second preliminary injunction factor under Winter requires the Plaintiffs to show they are likely to suffer irreparable harm in the absence of injunctive relief.
555 U.S. at 20. “Irreparable harm is injury that is neither remote nor speculative, but actual and imminent
and that cannot be remedied by an award of monetary
damages.” New York ex rel. Schneiderman v. Actavis
PLC, 787 F.3d 638, 660 (2d Cir. 2015) (internal quotation
marks omitted). We have already discussed the Plaintiffs’ claimed injuries in evaluating their standing to
challenge the Rule and both the States and Organizations point to largely similar harms to establish this injunctive factor. See League of Women Voters of the
United States v. Newby, 838 F.3d 1, 9 (D.C. Cir. 2016)
(looking to same injuries to establish standing and irreparable harm).
The States contend that the implementation of the
Rule will result in reduced Medicaid revenue and federal
funding and a greater number of uninsured patients

79a
seeking care, putting public hospitals that are already
insufficiently funded at risk of closure. See, e.g., N.Y.
J. App. 512-13. Additionally, as the administrators of
the benefits programs at issue, the States allege that
they will be required to undertake costly revisions to
their eligibility systems to ensure that non-citizens are
not automatically made eligible for or enrolled in benefits they may no longer wish to receive after the Rule’s
implementation. See, e.g., N.Y. J. App. 236, 381-82.
The Organizations point to the economic harms of expending funds to mitigate the impact of the Rule on the
communities they serve. See, e.g., M.T.R. J. App. 46667. As noted, DHS predicted that the Rule would have
economic harms, and the Rule has already had a chilling
effect on non-citizen use of public benefits. See supra
Section I.A. These injuries claimed by the States and
the Organizations are actual and imminent. Moreover,
because money damages are prohibited in APA actions,
they are irreparable. See 5 U.S.C. § 702; Ward v.
Brown, 22 F.3d 516, 520 (2d Cir. 1994). We thus conclude that the Plaintiffs have established the second factor of the preliminary injunction standard. 38

We note that our precedents suggest that the Plaintiffs may
be able to show that a preliminary injunction is warranted on the
strength of these first two factors alone. See Trump v. Deutsche
Bank AG, 943 F.3d 627, 636, 640-41 (2d Cir. 2019), rev’d on other
grounds, – U.S. – 2020 WL 3848061 (July 9, 2020). Notwithstanding this possibility, we consider the balance of equities and the public
interest, as discussed in Winter.
38

80a
IV. Balance of Equities and the Public Interest

The final inquiry in our preliminary injunction analysis requires us to consider whether the balance of equities tips in favor of granting the injunction and
whether that injunction is in the public interest, the
third and fourth Winter factors. Winter, 555 U.S. at
20; Azar, 911 F.3d at 575 (considering the final two factors together where the government is a party). DHS
argues that it would be harmed by a preliminary injunction because an injunction would force the agency to retain its prior policy, which grants status to some noncitizens that DHS believes should be denied under a
proper interpretation of the public charge ground. Because there is no apparent means by which DHS could
revisit adjustment determinations made while the Rule
is enjoined, this harm is irreparable.
While DHS has a valid interest in applying its preferred immigration policy, we think the balance of equities clearly tips in favor of the Plaintiffs. For one,
DHS’s claimed harm is, to some extent, inevitable in the
preliminary injunction context. Any time the government is subject to a preliminary injunction, it necessarily suffers the injury of being prevented from enacting its preferred policy. Without additional considerations at play—for example, national security implications, Winter, 555 U.S. at 26, or the need to correct a
previous policy that had been deemed unlawful—we do
not think DHS’s inability to implement a standard that
is as strict as it would like outweighs the wide-ranging
economic harms that await the States and Organizations
upon the implementation of the Rule.
The public interest also favors a preliminary injunction. DHS itself acknowledges that the Rule will likely

81a
result in “[w]orse health outcomes, including increased
prevalence of obesity and malnutrition, . . . [i]ncreased
prevalence of communicable diseases, . . . [i]ncreased
rates of poverty and housing instability[,] and [r]educed
productivity and educational attainment.”
83 Fed.
Reg. at 51,270. To say the least, the public interest
does not favor the immediate implementation of the
Rule.
Thus, the Plaintiffs have met their burden of showing
that a preliminary injunction is warranted in these
cases. Accordingly, we affirm the district court orders
granting such relief in these cases.
V.

Scope of Injunction

While we hold that the district court properly granted
the Plaintiffs’ preliminary injunction motions, there remains one final issue for our consideration: whether
the district court abused its discretion by entering a nationwide injunction, rather than a geographically limited measure. DHS argues that a national injunction is
insufficiently tailored to the Plaintiffs’ particular injuries and allows the decision of a single district court to
override contrary decisions of other courts, an outcome
not warranted by the need for uniform application of immigration law. The Plaintiffs respond that the scope of
relief is determined by the extent of the violation and
that the APA authorizes the broad relief issued here.
The issuance of nationwide injunctions has been the
subject of increasing scrutiny in recent years, a topic
that has already touched these cases on their brief foray
to the Supreme Court. See New York, 140 S. Ct. at 599601 (Gorsuch, J., concurring in the grant of stay); see
also Trump v. Hawaii, 138 S. Ct. 2392, 2424-29 (2018)

82a
(Thomas, J., concurring). The difficult questions implicated in this debate are evidenced by the fact that both
DHS and the Plaintiffs marshal persuasive points to
support their arguments. As the Plaintiffs point out,
courts have long held that when an agency action is
found unlawful under the APA, “the ordinary result is
that the rules are vacated—not that their application to
the individual petitioners is proscribed.” Nat’l Mining
Ass’n v. U.S. Army Corps of Eng’rs, 145 F.3d 1399, 1409
(D.C. Cir. 1998) (internal quotation marks omitted).
This aligns with the general principle that “the scope of
injunctive relief is dictated by the extent of the violation
established, not by the geographical extent of the plaintiff class.” Califano v. Yamasaki, 442 U.S. 682, 702
(1979). Moreover, courts have recognized that nationwide injunctions may be particularly appropriate in the
immigration context, given the interest in a uniform immigration policy. See Texas v. United States, 809 F.3d
134, 187-88 (5th Cir. 2015); see also Hawaii v. Trump,
878 F.3d 662, 701 (9th Cir. 2017), rev’d on other grounds,
138 S. Ct. 2392 (2018).
On the other hand, we share DHS’s concern that a
district judge issuing a nationwide injunction may in effect override contrary decisions from co-equal and appellate courts, imposing its view of the law within the
geographic jurisdiction of courts that have reached contrary conclusions. That result may well be more unseemly than the application of inconsistent interpretations of immigration law across the circuits—a situation
that is hardly unusual, and may well persist without injustice or intolerable disruption. See, e.g., Orellana-

83a
Monson v. Holder, 685 F.3d 511, 520 (5th Cir. 2012) (discussing circuit variance in a substantive asylum standard).
We have no doubt that the law, as it stands today,
permits district courts to enter nationwide injunctions,
and agree that such injunctions may be an appropriate
remedy in certain circumstances—for example, where
only a single case challenges the action or where multiple courts have spoken unanimously on the issue. The
issuance of unqualified nationwide injunctions is a less
desirable practice where, as here, numerous challenges
to the same agency action are being litigated simultaneously in district and circuit courts across the country.
It is not clear to us that, where contrary views could be
or have been taken by courts of parallel or superior authority, entitled to determine the law within their own
geographical jurisdictions, the court that imposes the
most sweeping injunction should control the nationwide
legal landscape.
When confronted with such a volatile litigation landscape, we encourage district courts to consider crafting
preliminary injunctions that anticipate the possibility of
conflict with other courts and provide for such a contingency. Such approaches could take the form of limiting language providing that the injunction would not supersede contrary rulings of other courts, an invitation to
the parties to return and request modification as the situation changes, or the limitation of the injunction to the
situation of particular plaintiffs or to similarly situated
persons within the geographic jurisdiction of the court.
We need not decide whether the able district judge in
these cases abused his discretion in entering nationwide
injunctions. Instead, we exercise our own discretion,

84a
in light of the divergent decisions that have emerged in
our sister circuits since the district court entered its orders, to modify the injunction, limiting it to the states of
New York, Connecticut, and Vermont. Cf. Smith v.
Woosley, 399 F.3d 428, 436 (2d Cir. 2005). As modified,
the injunction covers the State plaintiffs and the vast
majority of the Organizations’ operations. We see no
need for a broader injunction at this point, particularly
in light of the somewhat unusual posture of this case,
namely that the preliminary injunction has already been
stayed by the Supreme Court, not only through our disposition of the case, but also through the disposition of
DHS’s petition for a writ of certiorari, should DHS seek
review of this decision. See New York, 140 S. Ct. at
599.
CONCLUSION

For the reasons stated above, we agree with the district court that a preliminary injunction is warranted in
these cases but modify the scope of the injunctions to
cover only the states of New York, Connecticut, and
Vermont. The orders of the district court are therefore AFFIRMED AS MODIFIED.

85a
Appendix A
Amici Curiae in New York v. DHS and Make the Road v.
Cuccinelli

Maureen P. Alger, Priyamvada Arora, Cooley LLP,
Palo Alto, CA, for Amici Curiae American Academy of
Pediatrics, American Medical Association, American
College of Physicians, American College of Obstetricians and Gynecologists, New York State American
Academy of Pediatrics, American Academy of Pediatrics
—Vermont Chapter, and Medical Society of the State of
New York, in support of Plaintiffs-Appellees.
Emily Tomoko Kuwahara, Crowell & Moring LLP, Los
Angeles, CA, Austin Sutta, Crowell & Moring LLP, San
Francisco, CA, for Amici Curiae Asian Americans Advancing Justice| AAJC, Asian American Legal Defense
and Education Fund, National Women’s Law Center,
and 40 Other Organizations, in support of PlaintiffsAppellees.
Hillary Schneller, Center for Reproductive Rights, New
York, NY, for Amicus Curiae Center for Reproductive
Rights, in support of Plaintiffs-Appellees.
Elizabeth B. Wydra, Brianne J. Gorod, Dayna J. Zolle,
Constitutional Accountability Center, Washington, DC,
for Amici Curiae Immigration History Scholars,
in support of Plaintiffs-Appellees.
Johanna Dennehy, Steptoe & Johnson LLP, Washington, DC, for Amici Curiae Immigration Law Professors,
in support of Plaintiffs-Appellees.
Richard L. Revesz, Jack Lienke, Max Sarinsky, Institute for Policy Integrity at New York University School
of Law, New York, NY, for Amicus Curiae Institute for

86a
Policy Integrity at New York University School of Law,
in support of Plaintiffs-Appellees.
Russell L. Hirschhorn, Proskauer Rose LLP, New
York, NY, for Amici Curiae Justice in Aging, American
Society on Aging, Caring Across Generations, Jewish
Family Service of Los Angeles, Jewish Federations of
North America, National Asian Pacific Center on Aging,
National Council on Aging, National Hispanic Council
on Aging, MAZON, PHI, and Center for Medicare Advocacy, in support of Plaintiffs-Appellees.
Nilda Isidro, Goodwin Procter LLP, New York, NY, for
Amici Curiae Members of Congressional Black Caucus,
Congressional Hispanic Caucus, and Congressional
Asian Pacific American Caucus, in support of PlaintiffsAppellees.
Stuart Rossman, National Consumer Law Center, Boston, MA, for Amici Curiae National Consumer Law
Center, Legal Aid Justice Center, Public Citizen, Inc.,
Consumer Action, Equal Justice Society, Impact Fund,
Secure Justice, Media Alliance, Americans for Financial
Reform Education Fund, and New Economy Project, in
support of Plaintiffs-Appellees.
Paul J. Lawrence, Alanna E. Peterson, Pacifica Law
Group LLP, Seattle, WA, for Amici Curiae Nonprofit
Anti-Domestic Violence and Sexual Assault Organizations, in support of Plaintiffs-Appellees.
Debra Gardner, Public Justice Center, Baltimore, MD,
for Amicus Curiae Public Justice Center, in support of
Plaintiffs-Appellees.
Paul W. Hughes, Michael B. Kimberly, Matthew A.
Waring, McDermott Will & Emery LLP, Washington,

87a
DC, for Amici Curiae 105 Businesses and Organizations, in support of Plaintiffs-Appellees.
Amici Curiae in New York v. DHS

Sarah M. Ray, Kyle A. Virgien, Diana A. Aguilar, Charles
F. Sprague, Latham & Watkins LLP, San Francisco,
CA, Tyce R. Walters, Latham & Watkins LLP, Washington, DC, for Amici Curiae American Civil Liberties
Union, Center for Public Representation, American Association of People with Disabilities, Association of University Centers on Disabilities, Autistic Self Advocacy
Network, Civil Rights Education and Enforcement Center, Coelho Center for Disability Law, Policy, and Innovation, Disability Rights Advocates, Disability Rights
Education and Defense Fund, Disability Rights New
York, Judge David L. Bazelon Center for Mental Health
Law, Little Lobbyists, Mental Health America, National Association of Councils on Developmental Disabilities, National Council on Independent Living, National Disability Rights Network, National Federation
of the Blind, New York Civil Liberties Union, The Arc
of the United States, and United Spinal Association, in
support of Plaintiffs-Appellees.
Lisa C. Wood, Kristyn DeFilipp, Andrew London, Emily
Nash, E. Jacqueline Chávez, Foley Hoag LLP, Boston,
MA, Justin Lowe, Wendy Parmet, Health Law Advocates, Inc., Boston, MA, for Amici Curiae Health Law
Advocates, Inc. and Other Organizations Interested in
Public Health, in support of Plaintiffs-Appellees.
R. Adam Lauridsen, Chessie Thacher, Victor H. Yu,
Nicholas R. Green, Keker, Van Nest & Peters LLP, San
Francisco, CA, for Amici Curiae National Housing Law
Project, Food Research & Action Center, Center for

88a
Law & Social Policy, National Education Association,
Service Employees International Union, California
League of United Latin American Citizens, California
Food Policy Advocates, Center for the Study of Social
Policy, Children’s HealthWatch, Comunidades Unidas/
Communities United, First Focus on Children, Los Angeles Regional Food Bank, Mississippi Center for Justice, National WIC Association, National Low Income
Housing Coalition, Prevention Institute, Sant La Haitian Neighborhood Center, South Carolina Appleseed
Legal Justice Center, Virginia Poverty Law Center, in
support of Plaintiffs-Appellees.
Matthew S. Freedus, Edward T. Waters, Phillip A. Escoriaza, Amanda N. Pervine, Feldesman Tucker Leifer
Fidell LLP, Washington, DC, for Amici Curiae Public
Health, Health Policy, Medicine, and Nursing Deans,
Chairs, and Scholars, American Public Health Association, American Academy of Nursing, and Public Health
Solutions, in support of Plaintiffs-Appellees.
Danielle L. Goldstein, Michael Dundas, Office of the Los
Angeles City Attorney, Barbara J. Parker, Erin Bernstein, Office of the Oakland City Attorney, Margaret L.
Carter, Daniel R. Suvor, O’Melveny & Myers LLP, Los
Angeles, CA, Vince Ryan, Robert Hazeltine-Shedd,
Harris County, TX, Donna R. Ziegler, Alameda County,
CA, Esteban A. Aguilar, Jr., City of Albuquerque, NM,
Anne L. Morgan, City of Austin, TX, Andre M. Davis,
City of Baltimore, MD, Mark A. Flessner, Benna Ruth
Solomon, City of Chicago, IL, Christopher J. Caso, City
of Dallas, TX, Kristin M. Bronson, City and County of
Denver, CO, Lawrence Garcia, Eli Savit, City of Detroit,
MI, Rodney Pol, Jr., City of Gary, IN, Crystal Barnes,

89a
City of Holyoke, MA, Ronald C. Lewis, Judith L. Ramsey, Collyn Peddie, City of Houston, TX, Howard Phillip
Schneiderman, King County, WA, Michael P. May, City
of Madison, WI, Brian E. Washington, Marin County,
CA, Erik Nilsson, City of Minneapolis, MN, Leslie J.
Girard, William M. Litt, Anne K. Brereton, Marina S.
Pantchenko, Monterey County, CA, Kathryn E. Doi,
Rachael E. Blucher, Natalie M. Smith, Hanson Bridgett
LLP, Sacramento, CA, Susana Alcala Wood, City of Sacramento, CA, John C. Beiers, David A. Silberman, Ilana
Parmer Mandelbaum, San Mateo County, CA, Peter S.
Holmes, City of Seattle, WA, Francis X. Wright, Jr.,
City of Somerville, MA, Michael Rankin, City of Tucson,
AZ, Michael Jenkins, City of West Hollywood, CA, for
Amici Curiae 26 Cities and Counties, in support of
Plaintiffs-Appellees.
Amici Curiae in Make the Road v. Cuccinelli

Sadik Huseny, Brittany N. Lovejoy, Joseph C. Hansen,
Tess L. Curet, Alexandra B. Plutshack, Latham & Watkins LLP, San Francisco, CA, for Amici Curiae Fiscal
Policy Institute, Presidents’ Alliance on Higher Education and Immigration, National Center for Law and
Economic Justice, American Federation of State,
County and Municipal Employees, California Immigrant Policy Center, Child Care Law Center, Colorado
Fiscal Institute, Community Action Marin, Kids Forward, Michigan Immigrant Rights Center, Oasis Legal
Services, Economic Progress Institute, United African
Organization, and Virginia Interfaith Center for Public
Policy, in support of Plaintiffs-Appellees.

90a
Lawrence J. Joseph, Law Office of Lawrence J. Joseph,
Washington, DC, for Amicus Curiae Immigration Reform
Law Institute, in support of Defendants-Appellants.

91a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

19 Civ. 7777 (GBD)
STATE OF NEW YORK, CITY OF NEW YORK, STATE OF
CONNECTICUT, AND STATE OF VERMONT, PLAINTIFFS
v.
UNITED STATES DEPARTMENT OF HOMELAND
SECURITY; SECRETARY KEVIN K. MCALEENAN, IN HIS
OFFICIAL CAPACITY AS ACTING SECRETARY OF THE
UNITED STATES DEPARTMENT OF HOMELAND
SECURITY, AGENT OF ACTING SECRETARY OF THE
UNITED STATES DEPARTMENT OF HOMELAND
SECURITY; UNITED STATES CITIZENSHIP AND
IMMIGRATION SERVICES; DIRECTOR KENNETH T.
CUCCINELLI II, IN HIS OFFICIAL CAPACITY AS ACTING
DIRECTOR OF UNITED STATES CITIZENSHIP AND
IMMIGRATION SERVICE; AND UNITED STATES OF
AMERICA, DEFENDANTS
[Filed: Oct. 11, 2019]
MEMORANDUM DECISION AND ORDER

GEORGE B. DANIELS, United States District Judge:
Plaintiffs the State of New York, the City of New
York, the State of Connecticut, and the State of Vermont
bring this action against Defendants the United States
Department of Homeland Security (“DHS”); the United
States Citizenship and Immigration Services (“USCIS”);

92a
Secretary Kevin K. McAleenan, in his official capacity
as Acting Secretary of DHS; Director Kenneth T. Cuccinelli II, in his official capacity as Acting Director of
USCIS; and the United States of America. (Compl. for
Declaratory and Injunctive Relief (“Compl.”), ECF No.
17.) Plaintiffs challenge Defendants’ promulgation, implementation, and enforcement of a rule, Inadmissibility
on Public Charge Grounds, 84 Fed. Reg. 41,292 (Aug. 14,
2019) (to be codified at 8 C.F.R. pts. 103, 212, 213, 214,
245, 248) (the “Rule”), which redefines the term “public
charge” and establishes new criteria for determining
whether a noncitizen applying for admission into the
United States or for adjustment of status is ineligible
because he or she is likely to become a “public charge.”
(See id. ¶ 2.) Plaintiffs seek, inter alia, (1) a judgment
declaring that the Rule exceeds Defendants’ statutory
authority, violates the law, and is arbitrary and capricious and an abuse of discretion; (2) a vacatur of the
Rule; and (3) an injunction enjoining DHS from implementing the Rule. (Id. at 83-84.)
Plaintiffs now move pursuant to Federal Rule of Civil
Procedure 65 for a preliminary injunction enjoining Defendants from implementing or enforcing the Rule,
which is scheduled to take effect on October 15, 2019.
(Pls’ Notice of Mot., ECF No. 33.) They also move under the Administrative Procedure Act, 5 U.S.C. § 705,
for a stay postponing the effective date of the Rule pending adjudication of this action on the merits. (Id.)
Plaintiffs’ motion for a preliminary injunction and stay
of its effective date is GRANTED. 1
This Court also grants, under separate order, the same preliminary injunction and stay in a related action, Make the Road New
York v. Cuccinelli, 19 Civ. 7993 (GBD).
1

93a
I.
A.

FACTUAL BACKGROUND

Current Framework for Public Charge Determination.

The Immigration and Nationality Act (the “INA”)
provides that the federal government may deny admission or adjustment of status to any noncitizen who it determines is “likely at any time to become a public
charge.” 8 U.S.C. § 1182(a)(4)(A). In 1996, Congress
enacted two pieces of legislation focusing on noncitizens’
eligibility for public benefits and on public charge determinations. It first passed the Personal Responsibility
and Work Opportunity Reconciliation Act, Pub. L. No.
104-193, § 403, 110 Stat. 2105, 2265-67 (1996) (the “Welfare Reform Act”), which established a detailed-and
restrictive—scheme governing noncitizens’ access to
benefits. It also passed the Illegal Immigration Reform
and Immigrant Responsibility Act of 1996, Pub. L. No.
104-208, § 531, 110 Stat. 3009, 3674-75 (1996) (“IIRIRA”),
which amended the INA by codifying five factors relevant to a public charge determination. Specifically,
IIRIRA provides that in assessing whether an applicant
is likely to fall within the definition of public charge,
DHS should, “at a minimum,” take into account the applicant’s age; health; family status; assets, resources,
and financial status; and education and skills. 8 U.S.C.
§ 1182(a)(4)(B)(i).
In 1999, DHS's predecessor, the Immigration and
Naturalization Service (“INS”), issued its Field Guidance on Deportability and Inadmissibility on Public
Charge Grounds 64 Fed. Reg. 28,689 (May 26, 1999) (the
“Field Guidance”), as well as a parallel proposed rule, 64
Fed. Reg. 28,676, which “summarize[d] longstanding
law with respect to public charge and provide[d] new

94a
guidance on public charge determinations” in light of
IIRIRA, the Welfare Reform Act, and other recent legislation. 64 Fed. Reg. at 28,689. Both the Field Guidance and proposed rule defined “public charge” as a
noncitizen who has become or is likely to become “primarily dependent on the government for subsistence, as
demonstrated by either (i) the receipt of public cash assistance for income maintenance or (ii) institutionalization for long-term care at government expense.” Id.
(internal quotation marks omitted). Consistent with
the INA, INS regulations, and several INS, Board of
Immigration Appeals, and Attorney General decisions,
they instructed INS officials to evaluate a noncitizen’s
likelihood of becoming a public charge by examining the
totality of the noncitizen’s circumstances at the time of
his or her application. Id. at 28,690. The Field Guidance noted that “[t]he existence or absence of a particular factor should never be the sole criterion for determining if an alien is likely to become a public charge.”
Id. (emphasis omitted). Although the parallel proposed rule was never finalized, the Field Guidance sets
forth the current framework for public charge determinations.
B.

The 2018 Proposed Rulemaking and Rule.

On October 10, 2018, DHS published a notice of proposed rulemaking, Inadmissibility on Public Charge
Grounds, 83 Fed. Reg. 51,114 (Oct. 10, 2018), which withdrew the 1999 proposed rule that INS had issued with
the Field Guidance. Id. at 51,114. This newly proposed
rule sought, among other things, to redefine “public
charge,” and to amend the totality-of-the-circumstances
standard that is currently used in public charge deter-

95a
minations. See id. The notice provided a 60-day period for public comments on the proposed rule. Id.
DHS collected 266,077 comments, “the vast majority of
which opposed the rule.” 84 Fed. Reg. at 41,297; see
also id. at 41,304-484 (describing and responding to public comments).
Subsequently, on August 14, 2019, DHS issued the
Rule. It was finalized, with several changes, as the
proposed rule described in the October 2018 notice. Id.
at 4,292; see also id. at 41,297-303 (summarizing changes
in Rule).
Under the Rule, “public charge” is to be defined as
any noncitizen “who receives one or more public benefits
. . . for more than 12 months in the aggregate within
any 36-month period.” Id. at 41,501. The Rule defines “public benefit,” in turn, as both cash benefits and
noncash benefits such as Supplemental Nutrition Assistance Program, Medicaid, and public housing and Section 8 housing assistance. Id. Each benefit is to be
counted separately in calculating the duration of use,
such that, for example, receipt of two benefit in one
month would count as two months. Id.
The Rule also provides a new framework for assessing whether a noncitizen is likely at any time to become a public charge. Specifically, the Rule enumerates an expanded non-exclusive list of factors relevant
to analyzing whether a person is likely to receive 12
months of public benefits within 36 months. See id. at
41,502-04. It includes, for example, family size, Englishlanguage proficiency, credit score, and any application
for the enumerated public benefits, regardless of the actual receipt or use of such benefits. Id. The Rule designates the factors as “positive,” “negative,” “heavily

96a
weighted positive,” or “heavily weighted negative,” and
instructs the DHS officer to “weigh” all such factors “individually and cumulatively.” Id. at 41,397; see also id.
at 41,502-04. Under this framework, if the negative
factors outweigh the positive factors, the applicant
would be found likely to receive 12 months of public benefits in the future. The applicant would then be found
inadmissible as likely to become a public charge. Conversely, if the positive factors outweigh the negative factors, the applicant would not be found inadmissible as
likely to receive 12 months of public benefits and thereby become a public charge. Id. at 41,397.
DHS published various corrections to the Rule as recently as October 2, 2019. Inadmissibility on Public
Charge Grounds; Correction, 84 Fed. Reg. 52,357 (Oct.
2, 2019). None of these corrections materially alter the
new public charge determination framework as outlined
above. The Rule, as corrected, is set to go into effect
on October 15, 2019.
II.

LEGAL STANDARD

“[A] preliminary injunction is ‘an extraordinary remedy never awarded as of right.’ ” Benisek v. Lamone,
138 S. Ct. 1942, 1943 (2018) (per curiam) (citation omitted). To obtain a preliminary injunction, the moving
party must establish “that he is likely to succeed on the
merits, that he is likely to suffer irreparable harm in the
absence of preliminary relief, that the balance of equities tips in his favor, and that an injunction is in the public interest.” Winter v. Nat. Res. Def. Council, Inc.,
555 U.S. 7, 20 (2008).

97a
III. PLAINTIFFS HAVE DEMONSTRATED A
LIKELIHOOD OF SUCCESS ON THE MERITS OF
THEIR CLAIMS

The Administrative Procedure Act (“APA”) authorizes judicial review of agency rules. Under the APA, a
reviewing court must “hold unlawful and set aside
agency action” that is “in excess of statutory jurisdiction, authority, or limitations”; is “not in accordance
with law”; or is “arbitrary, capricious, [or] an abuse of
discretion.” 5 U.S.C § 706(2)(A), (C). Here, Plaintiffs
are likely to succeed on the merits of their claim that the
Rule conflicts with the APA in all of these respects.
A.

Plaintiffs Satisfy the Threshold Justiciability
Requirements.

As a preliminary matter, Defendants raise several
arguments that Plaintiffs’ claims are not justiciable.
Specifically, they assert that Plaintiffs lack standing,
the claims are not ripe for judicial review, and Plaintiffs
fall outside the zone of interests regulated by the Rule.
1. Plaintiffs Have Standing.

Article III of the U.S. Constitution limits the judicial
power of federal courts to “Cases” or “Controversies.”
U.S. Const. art. III, § 2, cl. 1. To invoke this power, a
plaintiff must have standing to sue. Clapper v. Amnesty Int’l USA, 568 U.S. 398, 408 (2013) (citation omitted). The plaintiff bears the burden of establishing
standing, Rajamin v. Deutsche Ban Nat’l Tr. Co., 757
F.3d 79, 84 (2d Cir. 2014) (citing Lujan v. Defs. of Wildlife, 504 U.S. 555, 560-61 (1992); Premium Mortg. Corp.
v. Equifax, Inc., 583 F.3d 103, 108 (2d Cir. 2009)), and
such burden applies to each claim and form of relief
sought, DaimlerChrysler Corp. v. Cuno, 547 U.S. 332,

98a
352 (2006). To demonstrate Article III standing, the
plaintiff must show that (1) “it has suffered a concrete
and particularized injury that is either actual or imminent,” (2) “the injury is fairly traceable to the defendant,” and (3) “it is likely that a favorable decision will
redress that injury.” Massachusetts v. EPA, 549 U.S.
497, 517 (2007) (citing Lujan, 504 U.S. at 560-61).
“[T]he presence of one party with standing is sufficient
to satisfy Article III’s case-or-controversy requirement.”
Rumsfeld v. Forum for Acad. & Institutional Rights,
Inc., 547 U.S. 47, 52 n.2. (2006) (citation omitted).
Defendants, focusing on the first element, argue that
Plaintiffs have not alleged any injury sufficient to confer
standing. They principally argue that Plaintiffs’ claims
of irreparable injury “consist of potential future harms
that, if they ever came to pass, would be spurred by decisions of third parties not before the Court,” and that
these injuries are therefore too attenuated and speculative. (Mem. of Law in Opp’n to Pls.’ Mot. for a Prelim.
Inj. (“Defs.’ Opp’n”), ECF No. 99, at 7). In Defendants’ view, the Rule governs only DHS personnel and
certain noncitizens, but does not directly affect Plaintiffs, either by requiring or forbidding any action on
Plaintiffs’ part or by expressly interfering with any of
Plaintiffs’ programs. (Id.) Defendants argue that in
the context of challenges to federal immigration policies,
courts have found state standing only where “the States’
claims arise out of their proprietary interests as employers or operators of state universities.” (Id.) They
further insist that certain of Plaintiffs’ alleged injuries,
such as the health effects arising from noncitizens forgoing health care, “would be borne by [the] affected individuals, not [Plaintiffs].” (Id at 9.) Finally, Defend-

99a
ants dismiss the alleged programmatic and administrative harm as “[b]ureaucratic inconvenience” and “voluntary expenditures” that do not give rise to standing.
(Id. at 10.)
Plaintiffs sufficiently allege ‘‘concrete and particularized’’ injuries. They adequately demonstrate, for example, that the Rule will have a chilling effect and decrease enrollment in benefits programs, which will harm
Plaintiffs’ proprietary interests as operators of hospitals and healthcare systems. (Pls.’ Reply in Supp. of
Their Mot. for Prelim. Inj. and Stay Pending Judicial
Review (‘‘Pls.’ Reply’’), ECF No. 102, at 1.) Namely,
Plaintiffs allege that this drop in participation will reduce Plaintiffs’ consumers and revenue, including through
Medicaid participants, while simultaneously shifting
costs of providing emergency healthcare and shelter
benefits from the federal government to Plaintiffs, who
offer subsidized healthcare services. (Id.) Other injuries include increased healthcare costs as noncitizen
patients avoid preventative care; programmatic costs
since Plaintiffs are the administrators of the public benefits implicated by the Rule; 2 and economic harm, including $3.6 billion in ‘‘economic ripple effects,’’ 26,000
lost jobs, and $175 million in lost tax revenue. (Mem.
of Law in Supp. of Pls.’ Mot. for Prelim. Inj. and Stay
Pending Judicial Review (‘‘Pls.’ Mem.’’), ECF No. 35, at
10-13.) Such actual and imminent injuries are ‘‘fairly
traceable’’ to Defendants’ promulgation of the Rule.

Plaintiffs allege that such programmatic costs include those associated with updating Plaintiffs’ “enrollment, processing, and recordkeeping systems; retraining staff and preparing updated materials;
and responding to public concerns.” (Id. at 3.)
2

100a
Accordingly, Plaintiffs have standing to assert their
claims.
2. Plaintiffs’ Claims Are Ripe for Judicial
Review.

To be justiciable, Plaintiffs’ claims must also be ripe
—that is, they ‘‘must present ‘a real, substantial controversy, not a mere hypothetical question.’ ’’ Nat’l Org.
for Marriage, Inc. v. Walsh, 714 F.3d 682, 687 (2d Cir.
2013) (quoting AMSAT Cable Ltd. v. Cablevision of
Conn., 6 F.3d 867, 872 (2d Cir. 1993)). ‘‘Ripeness ‘is peculiarly a question of timing,’ ’’ and ‘‘[a] claim is not ripe
if it depends upon ‘contingent future events that may not
occur as anticipated, or indeed may not occur at all.’ ’’
Id. (quoting Thomas v. Union Carbide Agric. Prods.
Co., 473 U.S. 568, 580-81 (1985)).
‘‘Ripeness encompasses two overlapping doctrines
concerning the exercise of federal court jurisdiction.’’
Entergy Nuclear Vt. Yankee, LLC v. Shumlin, 733 F.3d
393, 429 (2d Cir. 2013) (citing Reno v. Catholic Soc.
Servs., Inc., 509 U.S. 43, 57 n.18 (1993)) (internal quotation marks omitted). The first, constitutional ripeness,
‘‘overlaps with the standing doctrine, ‘most notably in
the shared requirement that the plaintiff ’s injury be imminent rather than conjectural or hypothetical.’ ’’ In re
Methyl Tertiary Butyl Ether (MTBE) Prods. Liab.
Litig., 725 F.3d 65, 110 (2d Cir. 2013) (quoting Ross v.
Bank of Am., N.A., 524 F.3d 217, 226 (2nd Cir. 2008)).
Prudential ripeness, meanwhile, is ‘‘ ‘an important exception to the usual rule that where jurisdiction exists a
federal court must exercise it,’ and allows a court to determine ‘that the case will be better decided later.’ ’’
Id. (quoting Simmonds v. Immigration Naturaliza-

101a
zion Serv., 326 F.3d 351, 357 (2d Cir. 2003)). In determining whether a case is prudentially ripe, courts examine ‘‘(1) whether [the case] is fit for judicial decision and
(2) whether and to what extent the parties will endure
hardship if decision is withheld.’’ Simmonds, 326 F.3d
at 359 (citing Abbott Labs. v. Gardner, 387 U.S. 136, 14849 (1967)).
One can conceive of no issue of greater ripeness than
that presented here. The Rule is scheduled to go into
effect in a matter of days, at which point hundreds of
thousands of individuals who were previously eligible
for admission and permanent residence in the United
States will no longer be eligible because of this change
of law. Adverse consequences and determinations will
soon begin to have their effect. The Rule is intended
to immediately cause the immigrant population to avoid
public benefits. Plaintiffs must be prepared to immediately adjust to the results of this change in policy.
No further factual predicate is necessary for purposes of determining ripeness, where there is clearly a
legal question about whether the Rule exceeds Defendants’ delegated authority, violates the law, and is arbitrary and capricious. Moreover, for the same reasons
that Plaintiffs sufficiently allege an injury under the
standing inquiry, they have shown that they will endure
significant hardship with any delay. Accordingly, Plaintiffs’ claims are ripe for review, both constitutionally and
prudentially.

102a
3. Plaintiffs Are Within the Zone of Interests
Regulated By the Rule.

The final threshold question raised by Defendants is
whether Plaintiffs have concerns that ‘‘fall within the
zone of interests protected by the law invoked.’’
Lexmark Int’l, Inc. v. Static Control Components, Inc.,
572 U.S. 118, 129 (2014) (citation and internal quotation
marks omitted). The zone-of-interests test is ‘‘not ‘especially demanding,’ ’’ particularly with respect to the
APA and its ‘‘generous review provisions.’’ Id. at 130
(citation and internal quotation marks omitted). Indeed, in the APA context, the Supreme Court has ‘‘often
‘conspicuously included the word ‘‘arguably’’ in the test
to indicate that the benefit of any doubt goes to the
plaintiff.’ ’’ Id. (citation omitted). ‘‘The test forecloses suit only when a plaintiff ’s ‘interests are so marginally related to or inconsistent with the purposes implicit in the statute that it cannot reasonably be assumed
that Congress intended to permit the suit.’ ’’ Match-EBe-Nash-She-Wish Band of Pottawatomi Indians v.
Patchak, 567 U.S. 209, 225 (2012) (citation omitted).
Plaintiffs plainly fall within the INA’s zone of interests. The interests of immigrants and state and local
governments are inextricably intertwined. Among a
state government’s many obligations are representing
and protecting the rights and welfare of its residents.
As administrators of the public benefits programs targeted by the Rule, (see Pls.’ Mem. at 14-17; Pls.’ Reply
at 4 (noting INA’s direct reference to states’ roles as
benefit administrators)), Plaintiffs’ interests are all the
more implicated. Furthermore, the zone-of-interests
test ‘‘does not require the plaintiff to be an intended
beneficiary of the law in question,’’ but instead allows

103a
parties simply ‘‘who are injured’’ to seek redress. Citizens for Responsibility & Ethics in Wash. v. Trump,
No. 18-474, 2019 WL 4383205, at *16 (2d Cir. Sept. 13,
2019). The Supreme Court has consistently found that
economic injuries like those alleged here satisfy the test.
See, e.g., Bank of Am. Corp. v. City of Miami, 137 S. Ct.
1296, 1304-05, (2017) (finding city’s discriminatory lending claims within zone of interests of Fair Housing Act,
despite economic nature of harms alleged and absence
of any indication that Act was intended to protect municipal budgets).
B.

Plaintiffs Sufficiently Allege That the Rule Exceeds Statutory Authority and Is Contrary to Law.

Turning to the merits of Plaintiffs’ claims, Plaintiffs
argue that the Rule violates the APA because it exceeds
DHS’s delegated authority under the INA and is contrary to law. See 5 U.S.C. § 706(2)(A), (C). In analyzing an agency’s interpretation of a statute and whether
the agency’s action exceeds statutory authority, courts
often apply the two-step framework articulated in Chevron U.S.A., Inc. v. Natural Resources Defense Council,
Inc., 467 U.S. 837 (1984). ‘‘[T]he question . . . is always whether the agency has gone beyond what Congress has permitted it to do[.]’’ City of Arlington v.
FCC, 569 U.S. 290, 298 (2013). Under Chevron, courts
first ask whether the statute is clear. Chevron, 467
U.S. at 842. If so, ‘‘that is the end of the matter[,] for
the court, as well as the agency, must give effect to the
unambiguously expressed intent of Congress.’’ Id. at
842-43. Where there is ambiguity, however, courts
then ask whether the agency’s interpretation of the statute is reasonable. Id. at 843-44. Such deference ‘‘is

104a
premised on the theory that a statute’s ambiguity constitutes an implicit delegation from Congress to the
agency to fill in the statutory gaps.’’ FDA v. Brown &
Williamson Tobacco Corp., 529 U.S. 120, 159 (2000).
Notwithstanding this implicit delegation, ‘‘agencies
must operate ‘within the bounds of reasonable interpretation,’ ” and ‘‘reasonable statutory interpretation must
account for both ‘the specific context in which . . .
language is used’ and ‘the broader context of the statute
as a whole.’ ” Util. Air Regulatory Grp. v. EPA, 573
U.S. 302, 321 (2014) (citations omitted).
1. Long-Standing Definition of ‘‘Public Charge.’’

Plaintiffs argue that the new Rule’s definition of
‘‘public charge’’ is a drastic deviation from the unambiguous and well-established meaning of the term that has
existed for over 130 years. (Pls.’ Mem. at 2, 19-24.)
They assert that the term has consistently been interpreted narrowly to mean ‘‘an individual who is or is
likely to become primarily and permanently dependent
on the government for subsistence.’’ (Id. at 3.) Going
as far back as 1882, when Congress passed the first federal immigration statute, Plaintiffs note that the statute
rendered excludable ‘‘convicts, lunatics, idiots, and any
person unable to take care of himself without becoming
a public charge,’’ (id. at 20 (quoting Immigration Act of
1882, ch. 376, 22 Stat. 214, 47th Cong. (1882))), and that
it sought to ‘‘prevent long-term residence in the United
States of those ‘who ultimately become life-long dependents on our public charities,’ ” (id. (quoting 13 Cong. Rec.
5108-10 (June 19, 1882) (statement of Rep. Van
Voorhis)).) As Plaintiffs note, ‘‘[f ]ar from excluding as
public charges immigrants who received temporary assistance, the same law authorized immigration officials

105a
to provide ‘support and relief ’ to immigrants who may
‘need public aid’ after their arrival.’’ (Id. (quoting Immigration Act of 1882 at §§ 1, 2).)
Plaintiffs point to court decisions in the years that
followed, confirming this definition of ‘‘public charge,’’
as well as the INA itself, which adopted this interpretation upon its passage in 1952. (Id. at 21-22.) According to Plaintiffs, federal agencies have also consistently
viewed ‘‘public charge’’ to mean someone who is ‘‘primarily dependent on the government for cash assistance
or on long-term institutionalization,’’ as evidenced by (1)
INS’s 1999 Field Guidance, which formally codified this
definition; (2) INS’s ‘‘extensive[ ]’’ consultations with
other agencies prior to issuing the guidance; and (3) the
Department of Justice’s use of the ‘‘primarily dependent’’ standard in the deportation context. (Id. at 2223.)
In opposition, Defendants assert that the definition
of ‘‘public charge’’ in the Rule ‘‘is consistent with the
plain meaning of the statutory text, which ‘is to be determined at the time that it became law.’ ” (Defs.’
Opp’n at 13 (quoting One West Bank v. Melina, 827 F.3d
214, 220 (2d Cir. 2016)).) They direct this Court to dictionaries used in the 1880s, when the Immigration Act
of 1882 was passed, which allegedly ‘‘make clear’’ that a
noncitizen becomes a ‘‘public charge’’ “when his inability
to achieve self-sufficiency imposes an ‘obligation’ or ‘liability’ on ‘the body of the citizens’ to provide for his basic
necessities.’’ (Id. at 13-14.)
Upon review of the plain language of the INA, the
history and common-law meaning of ‘‘public charge,’’
agency interpretation, and Congress’s repeated reenactment of the INA’s public charge provision without

106a
material change, one thing is abundantly clear—‘‘public
charge’’ has never been understood to mean receipt of
12 months of benefits within a 36-month period. Defendants admit that this is a ‘‘new definition’’ under the
Rule. (Id. at 5.) And at oral argument, they did not
dispute that this definition has never been referenced in
the history of U.S. immigration law or that there is zero
precedent supporting this particular definition. (See,
e.g., Tr. of Oral Arg. dated Oct. 7, 2019 at 51:8-11, 52:1-3.)
No ordinary or legal dictionary definition of ‘‘public
charge’’ references Defendants’ proposed meaning of
that term. As such, Plaintiffs raise a compelling argument that Defendants lack the authority to redefine
‘‘public charge’’ as they have.
2. Congress’s Intent.

Nor is there any evidence that Congress intended for
a redefinition of ‘‘public charge,’’ and certainly not in the
manner set forth in the Rule. No legislative intent or
historical precedent alludes to this new definition. Defendants have made no showing that Congress was anything but content with the current definition set forth in
the Field Guidance, which defines public charge as
someone who has become or is likely to become primarily dependent on the government for cash assistance.
Indeed, Congress has repeatedly endorsed this definition and rejected efforts to expand it. For example,
during the 1996 debate over IIRIRA, several members
of Congress tried and failed to extend the meaning of
public charge to include the use of non-cash benefits.
See 142 Cong. Rec. S11612, at S11712 (daily ed. Sept. 16,
1996). Congress rejected similar efforts in 2013 because of its ‘‘strict benefit restrictions and requirements.’’ S. Rep. 113-40, at 42 (2013).

107a
In addition, if Congress wanted to deny immigrants
any of the public benefits enumerated in the Rule, it
could have done so, as it similarly has in the past. The
Welfare Reform Act, for example, restricted certain
noncitizens’ eligibility for certain benefits. Specifically, it provided that only ‘‘qualified’’ noncitizens—
which, in most cases, meant those who had remained in
the United States for five years—could have access to
most federal means-tested public benefits. 8 U.S.C.
§§ 1612, 1613. Therefore, the absence of any Congressional intent to redefine public charge also counsels in
favor of a preliminary injunction.
C.

Plaintiffs Sufficiently Demonstrate That the Rule
Is Arbitrary and Capricious.

Plaintiffs additionally argue that the Rule is arbitrary and capricious. See 5 U.S.C. § 706(2)(A). ‘‘The
scope of review under the ‘arbitrary and capricious’
standard is narrow[.]’’ Motor Vehicle Mfrs. Ass’n of
U.S., Inc. v. State Farm Mut. Auto. Ins. Co., 463 U.S.
29, 43 (1983). Nevertheless, the APA requires an agency to ‘‘engage in ‘reasoned decisionmaking,’ ” Michigan
v. EPA, 135 S. Ct. 2699, 2706 (2015) (citation omitted),
and to ‘‘articulate a satisfactory explanation for its action,’’ State Farm, 463 U.S. at 43 (citation omitted). An
agency rule is arbitrary and capricious if the agency:
relied on factors which Congress has not intended it
to consider, entirely failed to consider an important
aspect of the problem, offered an explanation for its
decision that runs counter to the evidence before the
agency, or is so implausible that it could not be ascribed to a difference in view or the product of agency
expertise.

108a
Id. Where an agency action changes prior policy, the
agency need not demonstrate ‘‘that the reasons for the
new policy are better than the reasons for the old one.’’
FCC v. Fox Television Stations, Inc., 556 U.S. 502, 515
(2008). It must, however, ‘‘show that there are good
reasons for the new policy.’’ Id. This requirement is
heightened where the ‘‘new policy rests upon factual
findings that contradict those which underlay its prior
policy,’’ id. (citation omitted), as ‘‘a reasoned explanation is needed for disregarding facts and circumstances
that underlay or were engendered by the prior policy,’’
id. at 516.
1. Defendants’ Justification of Rule.

Here, Defendants fail to provide any reasonable explanation for changing the definition of ‘‘public charge’’
or the framework for evaluating whether a noncitizen is
likely to become a public charge. As noted above,
‘‘public charge’’ has never been interpreted as someone
‘‘who receives one or more public benefits . . . for
more than 12 months in the aggregate within any 36month period.’’ 84 Fed. Reg. at 41,501. This new definition essentially changes the public charge assessment
into a benefits issue, rather than an inquiry about selfsubsistence, such that any individual who is deemed
likely to accept a benefit is considered a public charge.
Receipt of a benefit, however, does not necessarily indicate that the individual is unable to support herself.
One could envision, for example, a scenario where an individual is fully capable of supporting herself without
government assistance but elects to accept a benefit,
such as public housing, simply because she is entitled to
it. Under the Rule, although this individual is legally
entitled to public housing, if she takes advantage of this

109a
right, she may be penalized with denial of adjustment of
status. There is no logic to this framework. Moreover, considering that the federal welfare program was
not established in the United States until the 1930s,
whereas the concept of public charge existed at least as
early as 1882, there must be some definition of public
charge separate and apart from mere receipt of benefits.
At oral argument, Defendants were afforded numerous opportunities to articulate a rational basis for equating public charge with receipt of benefits for 12 months
within a 36-month period, particularly when this has
never been the rule. Defendants failed each and every
time. When asked, for example, why the standard was
12 months and 36 months as opposed to any other number of months, Defendants merely responded that they
do not need to ‘‘show a case from 100 years ago that also
adopted this precise 12[/]36 standard.’’ (Tr. of Oral
Arg. dated Oct. 7, 2019 at 53:14-20.) Defendants were
asked to explain how the new framework would operate
and to provide an example of the ‘‘typical person’’ that
Defendants could predict is going to receive 12 months
of benefits in a 36-month period. (Id. 68:11-80:123.)
Defendants again stumbled along and were unable to
adequately explain what the determinative factor is under the Rule, what individual would fall across the line
and be considered a public charge, and what evaluation
of the factors enumerated in the Rule would make the
DHS officer confident that she could make an appropriate prediction. (Id.) And yet, according to Defendants, the Rule is intended to ‘‘provide[] a number of concrete guidelines to assist in making [the public charge]
determination’’ and is ‘‘designed . . . to make it

110a
more predictable for people on both sides of the adjudicatory process.’’ (Id. at 80:20-23.) Quite the opposite
appears to be the case.
Defendants suggest that the totality-of-circumstances
test remains and that receipt of benefits for 12 months
out of a 36-month period is only one of several factors to
be considered. (Id. at 52:17-22.) This characterization of the Rule is plainly incorrect. Under the Rule,
receipt of such benefits is not one of the factors considered; it is the factor. That is, if a DHS officer believes
that an individual is likely to have benefits for 12 months
out of a 36-month period, the inquiry ends there, and the
individual is automatically considered a public charge.
As such, Defendants are not simply expanding or elaborating on the list of factors to consider in the totality of
the circumstances. Rather, they are entirely reworking the framework, and with no rational basis.
Defendants also fail to demonstrate rational relationships between many of the additional factors enumerated in the Rule and a finding of benefits use. One illustrative example is the addition of English-language
proficiency as a factor. Defendants do not dispute that
there has never been an English-language requirement
in the public charge analysis. They argue, however,
that it was ‘‘entirely reasonable’’ to add English proficiency as a factor, given the requirement in the INA to
consider an applicant’s ‘‘education and skills,’’ and the
‘‘correlation between a lack of English language skills
and public benefit usage, lower incomes, and lower rates
of employment.’’ (Defs.’ Opp’n at 27.) Defendants’ suggestion that an individual is likely to become a public
charge simply by virtue of her limited English proficiency is baseless, as one can certainly be a productive

111a
and self-sufficient citizen without knowing any English.
The United States of America has no official language.
Many, if not most, immigrants who arrived at these
shores did not speak English. It is simply offensive to
contend that English proficiency is a valid predictor of
self-sufficiency. 3
In short, Defendants do not articulate why they are
changing the public charge definition, why this new definition is needed now, or why the definition set forth in
the Rule—which has absolutely no support in the history of U.S. immigration law—is reasonable. The Rule
is simply a new agency policy of exclusion in search of a
justification. It is repugnant to the American Dream
of the opportunity for prosperity and success through
hard work and upward mobility. Immigrants have always come to this country seeking a better life for themselves and their posterity. With or without help, most
succeed.

Similarly, it is unclear how the credit score of a new immigrant—
who, for example, may have only recently opened her first credit account and therefore has a short credit history, which would negatively impact her credit score—is indicative of her likelihood to receive 12 months of public benefits. Defendants blithely argue that
a low credit score ‘‘is an indication that someone has made financial
decisions that are not necessarily entirely responsible’’ and that
‘‘those irresponsible financial decisions may be the product of someone who doesn’t have very much money to work with.’’ (Tr. of Oral
Arg. dated Oct. 7, 2019 at 86:16-20).
3

112a
2. Rehabilitation Act.

Plaintiffs further argue that the Rule discriminates
against individuals with disabilities, in contravention of
Section 504 of the Rehabilitation Act, Pub. L. No. 93112, 87 Stat. 394 (1973) (codified at 29 U.S.C. § 794).
Section 504 provides that no individual with a disability
‘‘shall, solely by reason of her or his disability, be excluded from the participation in, be denied the benefits
of, or be subjected to discrimination . . . under any
program or activity conducted by any Executive agency.’’
29 U.S.C. § 794(a). DHS, in particular, is prohibited
from denying access to benefits and services on the basis
of disability, 6 C.F.R. § 15.30(b)(1), and from using discriminatory criteria or methods of administration, id.
§ 15.30(b)(4). See also id. § 15.49. ‘‘Exclusion or discrimination [under Section 504] may take the form of
disparate treatment, disparate impact, or failure to make
reasonable accommodation.’’ B.C. v. Mount Vernon Sch.
Dist., 837 F.3d 152, 158 (2d Cir. 2016).
The Rule clearly considers disability as a negative
factor in the public charge assessment. Defendants
acknowledge that disability is ‘‘one factor . . . that
may be considered’’ and that it is ‘‘relevant . . . to
the extent that an alien’s particular disability tends to
show that he is ‘more likely than not to become a public
charge’ at any time.’’ (Defs.’ Opp’n at 30 (quoting 84
Fed. Reg. at 41,368).) Defendants do not explain how
disability alone is itself a negative factor indicative of
being more likely to become a public charge. In fact, it
is inconsistent with the reality that many individuals
with disabilities live independent and productive lives.
As such, Plaintiffs have raised at least a colorable argu-

113a
ment that the Rule as to be applied may violate the Rehabilitation Act, and further discovery and development
of the record is warranted prior to its implementation.
IV. PLAINTIFFS HAVE DEMONSTRATED THAT
THEY WILL SUFFER IRREPARABLE HARM
ABSENT A PRELIMINARY INJUNCTION

‘‘A showing of irreparable harm is ‘the single most
important prerequisite for the issuance of a preliminary
injunction.’ ” Faiveley Transp. Malmo AB v. Wabtec
Corp., 559 F.3d 110, 118 (2d Cir. 2009) (citation omitted).
‘‘To satisfy the irreparable harm requirement, Plaintiffs
must demonstrate that absent a preliminary injunction
they will suffer ‘an injury that is neither remote nor
speculative, but actual and imminent,’ and one that cannot be remedied ‘if a court waits until the end of trial to
resolve the harm.’ ” Grand River Enter. Six Nations,
Ltd. v. Pryor, 481 F.3d 60, 66 (2d Cir. 2007) (citation
omitted). However, Plaintiffs need only show ‘‘a threat
of irreparable harm, not that irreparable harm already
ha[s] occurred.’’ Mullins v. City of New York, 626 F.3d
47, 55 (2d Cir. 2010).
The irreparable injury to Plaintiffs by shifting the
burden of providing services to those who can no longer
obtain federal benefits without jeopardizing their status
in the United States, and the immediate response that is
necessary by this shift of burden to Plaintiffs, is a direct
and inevitable consequence of the impending implementation of the Rule. As discussed above, Plaintiffs allege
that their injuries will include proprietary and economic
harm, as well as increased healthcare and programmatic
costs, and that they will suffer substantial hardship without a preliminary injunction. See supra Parts III.A.1-

114a
2. Plaintiffs provide declarations extensively describing and calculating such injuries. (See Decl. of Elena
Goldstein, ECF No. 34 (attaching additional declarations and comment letters on proposed rule).)
No less important is the immediate and significant
impact that the implementation of the Rule will have on
law-abiding residents who have come to this country to
seek a better life. The consequences that Plaintiffs
must address, and America must endure, will be personal and public disruption, much of which cannot be undone. Overnight, the Rule will expose individuals to
economic insecurity, health instability, denial of their
path to citizenship, and potential deportation—none of
which is the result of any conduct by those such injuries
will affect. It is a rule that will punish individuals for
their receipt of benefits provided by our government,
and discourages them from lawfully receiving available
assistance intended to aid them in becoming contributing members of our society. It is impossible to argue
that there is no irreparable harm for these individuals,
Plaintiffs, and the public at large.
V. THE BALANCE OF HARDSHIPS AND
PUBLIC INTEREST TIP IN PLAINTIFFS’ FAVOR

Finally, Plaintiffs must demonstrate that ‘‘the balance of equities tips in [their] favor’’ and that ‘‘an injunction is in the public interest.’’ Winter, 555 U.S. at 20.
‘‘These factors merge when the Government is the opposing party.’’ Nken v. Holder, 556 U.S. 418, 435 (2009).
In assessing these factors, the court must ‘‘balance the
competing claims of injury and must consider the effect
on each party of the granting or withholding of the requested relief,’’ as well as ‘‘the public consequences in

115a
employing the extraordinary remedy of injunction.’’
Winter, 555 U.S. at 24 (citations omitted).
Here, preventing the alleged economic and public
health harms provides a significant public benefit. As
discussed above, these harms are not speculative or insufficiently immediate. In fact, the notice of proposed
rulemaking itself acknowledged that the Rule could
cause ‘‘[w]orse health outcomes’’; ‘‘[i]ncreased use of
emergency rooms and emergent care as a method of primary health care due to delayed treatment’’; ‘‘[i]ncreased
prevalence of communicable diseases, including among
members of the U.S. citizen population who are not vaccinated’’; ‘‘[i]ncreases in uncompensated care in which a
treatment or service is not paid for by an insurer or patient’’; ‘‘[i]ncreased rates of poverty and housing instability’’; ‘‘[r]educed productivity and educational attainment’’; and other ‘‘unanticipated consequences and indirect costs.’’ 83 Fed. Reg. at 51,270.
Moreover, there is no public interest in allowing Defendants to proceed with an unlawful, arbitrary, and capricious rule that exceeds their statutory authority.
See Planned Parenthood of N.Y.C., Inc. v. U.S. Dep’t of
Health & Human Servs., 337 F. Supp. 3d 308, 343
(S.D.N.Y. 2018) (‘‘It is evident that ‘[t]here is generally
no public interest in the perpetuation of unlawful agency
action.’ . . . The inverse is also true: ‘there is a
substantial public interest in ‘having governmental
agencies abide by the federal laws that govern their existence and operations.’ ” (quoting League of Women
Voters of U.S. v. Newby, 838 F.3d 1, 12 (D.C. Cir. 2016)).)
To be sure, Defendants have a legitimate interest in
administering the national immigration system. How-

116a
ever, that interest is not paramount in this instance, particularly where Defendants fail to demonstrate why or
how the current public charge framework is inadequate.
Defendants have applied their current rules for decades,
and the current concept of ‘‘public charge’’ has been accepted for over a century. Aside from conclusory allegations that they will ‘‘be harmed by an impediment’’ to
administering the immigration system, (Defs.’ Opp’n at
38), Defendants do not—and cannot—articulate what
actual hardship they will suffer by maintaining the status quo.
Accordingly, because Plaintiffs are likely to succeed
on the merits and to suffer irreparable harm absent preliminary relief, and the balance of hardships and public
interest tip in their favor, Plaintiffs are entitled to a preliminary injunction.
VI.

THE INJUNCTION SHOULD APPLY
NATIONWIDE

As to the scope of the relief, a nationwide injunction
is necessary. The scope of preliminary injunctive relief
generally should be ‘‘no broader than necessary to cure
the effects of the harm caused by the violation’’ and ‘‘not
impose unnecessary burdens on lawful activity.’’ Church
& Dwight Co. v. SPD Swiss Precision Diagnostics,
GmBH, 843 F.3d 48, 72 (2d Cir. 2016) (citations omitted). However, there is no requirement that an injunction affect only the parties in the suit. See Califano v.
Yamasaki, 442 U.S. 682, 702 (1979) (‘‘[T]he scope of injunctive relief is dictated by the extent of the violation
established, not by the geographical extent of the plaintiff class.’’)

117a
Here, a nationwide injunction is appropriate. First,
national immigration policies, such as the Rule, require
uniformity. Hawaii v. Trump, 878 F.3d 662, 701 (9th
Cir. 2017), rev’d on other grounds, 138 S. Ct. 2392 (2018);
see also Batalla Vidal v. Nielsen, 279 F. Supp. 3d 401,
438 (E.D.N.Y. 2018) (granting nationwide injunction
preventing rescission of Deferred Action for Childhood
Arrivals program in part because ‘‘there is a strong federal interest in the uniformity of federal immigration
law’’); U.S. Const. art. I, § 8, cl. 4 (‘‘The Congress shall
have Power . . . To establish a[ ] uniform Rule of
Naturalization.’’). A geographically limited injunction
that would result in inconsistent applications of the
Rule, and different public charge determinations based
upon similar factors, is inimical to this need for uniformity in immigration enforcement.
Indeed, at least nine lawsuits have already been filed
challenging the Rule, including State of California v.
U.S. Department of Homeland Security, 19 Civ. 4975
(PJH) (N.D. Cal.) and State of Washington v. United
States Department of Homeland Security, 19 Civ. 5210
(RMP) (E.D. Wash.). 4 In just these two actions alone,
Plaintiffs include the State of California, District of Columbia, State of Maine, Commonwealth of Pennsylvania,
State of Oregon, State of Washington, Commonwealth
In addition to the instant action and the related action both before this Court, these other actions include Mayor and City Council
of Baltimore v. United States Department of Homeland Security,
19 Civ. 2851 (PJM) (D. Md.); Casa De Maryland, Inc. v. Trump,
19 Civ. 2715 (PWG) (D. Md.); City and County of San Francisco v.
U.S. Citizenship and Immigration Services, 19 Civ. 4717 (PJH)
(N.D. Cal.); La Clinica De La Raza v. Trump, 19 Civ. 4980 (PJH)
(N.D. Cal.); and Cook County, Illinois v. McAleenan, 19 Civ. 6334
(GF) (N.D. Ill.).
4

118a
of Virginia, State of Colorado, State of Delaware, State
of Illinois, State of Maryland, Commonwealth of Massachusetts, Attorney General Dana Nessel on behalf of the
People of Michigan, State of Minnesota, State of Nevada, State of New Jersey, State of New Mexico, and
State of Rhode Island. Combined with the instant action, that means that nearly two dozen jurisdictions
have already brought suit. It would clearly wreak
havoc on the immigration system if limited injunctions
were issued, resulting in different public charge frameworks spread across the country, based solely on geography. Batalla, 279 F. Supp. 3d at 438 (granting nationwide injunction where more limited injunction ‘‘would
likely create administrative problems for the Defendants’’).
There is no reasonable basis to apply one public
charge framework to one set of individuals and a different public charge framework to a second set of individuals merely because they live in different states. It
would be illogical, for example, if a New York resident
was eligible for adjustment of status but a resident of a
sister state with the same exact background was not eligible, only because the second resident had the misfortune of living somewhere not covered by a limited injunction.
Relatedly, a nationwide injunction is necessary to accord Plaintiffs and other interested parties with complete redress. In particular, an individual should not
have to fear that moving from one state to another could
result in a denial of adjustment of status. For example,
if the injunction were limited to New York, Connecticut,
and Vermont, and a New York resident moved to New

119a
Jersey where the injunction would not apply, this individual could there be considered a public charge and
face serious repercussions simply for crossing state borders. ‘‘[F]reedom to travel throughout the United States
has long been recognized as a basic right under the Constitution.’’ United States v. Guest, 383 U.S. 745, 758,
(1966) (citations omitted). It has been considered a
‘‘right so elementary [that it] was conceived from the beginning to be a necessary concomitant of the stronger
Union the Constitution created.’’ Id.; see also Griffin
v. Breckenridge, 403 U.S. 88, 105 (1971) (‘‘Our cases
have firmly established that the right of interstate
travel is constitutionally protected, does not necessarily
rest on the Fourteenth Amendment, and is assertable
against private as well as governmental interference.’’)
The Supreme Court’s recognition of the preeminence of
this right lends further support for a nationwide injunction that would not interfere with individuals’ ability to
move from one place to another. See, e.g., Batalla, 279
F. Supp. 3d at 438 (finding nationwide injunction appropriate ‘‘partly in light of the simple fact that people move
from state to state and job to job’’).
Accordingly, this Court grants a nationwide injunction, as well as a stay postponing the effective date of
the Rule pending a final ruling on the merits, or further
order of the Court. 5

The standard for a stay under 5 U.S.C. § 705 is the same as the
standard for a preliminary injunction. Nat. Res. Def. Council v.
U.S. Dep’t of Energy, 362 F. Supp. 3d 126, 149 (S.D.N.Y. 2019). Accordingly, this Court grants the stay for the same reasons it grants
the injunction.
5

120a
VII.

CONCLUSION

Plaintiffs’ motion for issuance of a preliminary injunction, (ECF No. 33), is GRANTED.
Dated: New York, New York
Oct. 11, 2019
SO ORDERED.
/s/

GEORGE B. DANIELS
GEORGE B. DANIELS
United States District Judge

121a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

19 Civ. 7777 (GBD)
STATE OF NEW YORK, CITY OF NEW YORK, STATE OF
CONNECTICUT, AND STATE OF VERMONT, PLAINTIFFS
v.
UNITED STATES DEPARTMENT OF HOMELAND
SECURITY; SECRETARY KEVIN K. MCALEENAN, IN HIS
OFFICIAL CAPACITY AS ACTING SECRETARY OF THE
UNITED STATES DEPARTMENT OF HOMELAND
SECURITY, AGENT OF ACTING SECRETARY OF THE
UNITED STATES DEPARTMENT OF HOMELAND SECURITY; UNITED STATES CITIZENSHIP AND
IMMIGRATION SERVICES; DIRECTOR KENNETH T.
CUCCINELLI II, IN HIS OFFICIAL CAPACITY AS ACTING
DIRECTOR OF UNITED STATES CITIZENSHIP AND
IMMIGRATION SERVICE; AND UNITED STATES OF
AMERICA, DEFENDANTS
[Filed: Oct. 11, 2019]
ORDER GRANTING PLAINTIFFS’ MOTION FOR A
PRELIMINARY INJUNCTION

GEORGE B. DANIELS, United States District Judge:
WHEREAS on September 9, 2019, the State of New
York, the City of New York, the State of Connecticut,
and the State of Vermont (the “State Plaintiffs”) filed a
Motion for Preliminary Injunction in Case No. 19 Civ.

122a
7777 (GBD) (S.D.N.Y.) (the “State Action”) to enjoin defendants from implementing or enforcing the Final Rule
of the Department of Homeland Security titled “Inadmissibility on Public Charge Grounds,” 84 Fed. Reg.
41,292 (the “Rule”) pursuant to Federal Rule of Civil
Procedure 65, or to postpone the effective date of the
Rule pursuant to 5 U.S.C. § 705;
WHEREAS also on September 9, 2019, Make the
Road New York, African Services Committee, Asian
American Federation, Catholic Charities Community
Services, and Catholic Legal Immigration Network, Inc.
(the “Organizational Plaintiffs,” and, together with the
State Plaintiffs, “Plaintiffs”) similarly filed a Motion for
Preliminary Injunction in Case No. 19 Civ. 7993 (GBD)
(S.D.N.Y.) (the “Organizational Action,” and, together
with the State Action, the “Actions”) to enjoin defendants from implementing or enforcing the Rule pursuant
to Federal Rule of Civil Procedure 65, or to postpone the
effective date of the Rule pursuant to 5 U.S.C. § 705 (together with the State Plaintiffs’ motion, the “Motions”);
WHEREAS on September 27, 2019, Kenneth T.
Cuccinelli II, United State Citizenship & Immigration
Services, Kevin K. McAleenan, Department of Homeland Security, and the United States of America (as to
the State Action only) (“Defendants”) submitted briefs
in opposition to the Motions;
WHEREAS on October 4, 2019, Plaintiffs filed replies in further support of the Motions;
WHEREAS amici have filed briefs in support of or
opposition to the Motions;

123a
WHEREAS on October 7, 2019, this Court held a
hearing on the Motions at which counsel for all parties
presented oral argument;
WHEREAS this Court, having considered the Motion and the documents filed therewith, as well as all
other papers filed in the Actions, and having heard oral
arguments from the parties, finds good cause to grant
the Motions because:
1.

Plaintiffs are likely to succeed on the merits of
their claims under the Administrative Procedure
Act, and, with respect to the Organizational
Plaintiffs, under the United States Constitution.

2.

Plaintiffs will suffer irreparable harm in the
Rule becomes effective; and

3.

The balance of equities and the interests of justice favor issuance of a preliminary injunction;

It is hereby ORDERED that, pursuant to Federal
Rule of Civil Procedure 65(a), Defendants are RESTRAINED AND ENJOINED from:
1.

Enforcing, applying or treating as effective, or
allowing persons under their control to enforce,
apply, or treat as effective, the Rule; and

2.

Implementing, considering in connection with
any application or requiring the use of any new
or updated forms whose submission would be required under the Rule, including the new Form
I-944, titled “Declaration of Self Sufficiency,”
and the updated Form I-485, titled “Application
to Register Permanent Residence of Adjust Status”; and,

124a
It is hereby FURTHER ORDERED that, pursuant
to 5 U.S.C. § 705, the effective date of the Rule is
STAYED and POSTPONED sine die pending further
Order of the Court such that, if this Order is later
terminated and the Rule goes into effect, the Rule’s
stated effective date of October 15, 2019, as well
as any references in the Rule to October 15, 2019, including but not limited those contained in proposed 8 CFR
§§ 212.20, 212.22(b)(4)(i)(E), 212.22(b)(4)(ii)(E)(1),
212.22(b)(4)(ii)(E)(2), 212.22(b)(4)(ii)(F),
212.22(c)(1)(ii),
212.22(d), 214.1, 248.1(a), and 248.1(c)(4), shall be replaced with a date after this Order is terminated.
Dated: New York, New York
Oct. 11, 2019
SO ORDERED.
/s/

GEORGE B. DANIELS
GEORGE B. DANIELS
United States District Judge

125a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

19 Civ. 7993 (GBD)
MAKE THE ROAD NEW YORK, AFRICAN SERVICES
COMMITTEEE, ASIAN AMERICAN FEDERATION,
CATHOLIC CHARITIES COMMUNITIES SERVICES,
(ARCHDIOCESE OF NEW YORK), AND CATHOLIC LEGAL
IMMIGRATION NETWORK, INC., PLAINTIFFS
v.
KEN CUCCINELLI, IN HIS OFFICIAL CAPACITY
AS ACTING DIRECTOR OF UNITED STATES CITIZENSHIP
AND IMMIGRATION SERVICES; UNITED STATES
CITIZENSHIP & IMMIGRATION SERVICES;
KEVIN K. MCALEENAN, IN HIS OFFICIAL CAPACITY AS
ACTING SECRETARY OF HOMELAND SECURITY; AND
UNITED STATES DEPARTMENT OF HOMELAND
SECURITY, DEFENDANTS
[Filed: Oct. 11, 2019]
MEMORANDUM DECISION AND ORDER

GEORGE B. DANIELS, United States District Judge:
Plaintiffs Make the Road New York, African Services
Committee, Asian American Federation, Catholic Charities Community Services (Archdiocese of New York),
and Catholic Legal Immigration Network, Inc. bring
this action against Defendants Kenneth T. Cuccinelli II,
in his official capacity as Acting Director of the United

126a
States Citizenship and Immigration Services (‘‘USCIS’’);
Kevin K. McAleenan, in his official capacity as Acting
Secretary of the United States Department of Homeland Security (‘‘DHS’’); USCIS; and DHS. (Compl.,
ECF No. 1.) Plaintiffs challenge Defendants’ promulgation, implementation, and enforcement of a rule, Inadmissibility on Public Charge Grounds, 84 Fed. Reg.
41,292 (Aug. 14, 2019) (to be codified at 8 C.F.R. pts. 103,
212, 213, 214, 245, 248) (the ‘‘Rule’’), which redefines the
term ‘‘public charge’’ and establishes new criteria for
determining whether a noncitizen applying for admission into the United States or for adjustment of status
is ineligible because he or she is likely to become a ‘‘public charge.’’ (See id. ¶¶ 1-3.) Plaintiffs seek, inter alia,
(1) a judgment declaring that the Rule is unauthorized
and contrary to law, (2) a vacatur of the Rule, and (3) an
injunction enjoining Defendants from implementing the
Rule. (Id. at 115.)
Plaintiffs now move pursuant to Federal Rule of Civil
Procedure 65 for a preliminary injunction enjoining Defendants from implementing or enforcing the Rule,
which is scheduled to take effect on October 15, 2019.
(See Notice of Mot., ECF No, 38.) Plaintiffs’ motion
for a preliminary injunction is GRANTED. 1

This Court also grants, under separate order, the same preliminary injunction and stay in a related action, State of New York v.
United States Department of Homeland Security, 19 Civ. 7777
(GBD).
1

127a
I.
A.

FACTUAL BACKGROUND

Current Framework for Public Charge Determination.

The Immigration and Nationality Act (the ‘‘INA’’)
provides that the federal government may deny admission or adjustment of status to any noncitizen who it determines is ‘‘likely at any time to become a public
charge.’’ 8 U.S.C. § 1182(a)(4)(A). In 1996, Congress
enacted two pieces of legislation focusing on noncitizens’
eligibility for public benefits and on public charge determinations. It first passed the Personal Responsibility
and Work Opportunity Reconciliation Act, Pub. L. No.
104-193, § 403, 110 Stat. 2105, 2265-67 (1996) (the ‘‘Welfare Reform Act’’), which established a detailed—and
restrictive—scheme governing noncitizens’ access to
benefits. It also passed the Illegal Immigration Reform and Immigrant Responsibility Act of 1996, Pub. L.
No. 104-208, § 531, 110 Stat. 3009, 3674-75 (1996)
(‘‘IIRIRA’’), which amended the INA by codifying five
factors relevant to a public charge determination. Specifically, IIRIRA provides that in assessing whether an
applicant is likely to fall within the definition of public
charge, DHS should, ‘‘at a minimum,’’ take into account
the applicant’s age; health; family status; assets, resources, and financial status; and education and skills.
8 U.S.C. § 1182(a)(4)(B)(i).
In 1999, DHS’s predecessor, the Immigration and
Naturalization Service (‘‘INS’’), issued its Field Guidance on Deportability and Inadmissibility on Public
Charge Grounds, 64 Fed. Reg. 28,689 (May 26, 1999)
(the ‘‘Field Guidance’’), as well as a parallel proposed
rule, 64 Fed. Reg. 28,676, which ‘‘summarize[d] long-

128a
standing law with respect to public charge and provide[d] new guidance on public charge determinations’’
in light of IIRIRA, the Welfare Reform Act, and other
recent legislation. 64 Fed. Reg. at 28,689. Both the Field
Guidance and proposed rule defined ‘‘public charge’’ as a
noncitizen who has become or is likely to become ‘‘primarily dependent on the government for subsistence, as
demonstrated by either (i) the receipt of public cash assistance for income maintenance or (ii) institutionalization for long-term care at government expense.’’ Id.
(internal quotation marks omitted). Consistent with
the INA, INS regulations, and several INS, Board of
Immigration Appeals, and Attorney General decisions,
they instructed INS officials to evaluate a noncitizen’s
likelihood of becoming a public charge by examining the
totality of the noncitizen’s circumstances at the time of
his or her application. Id. at 28,690. The Field Guidance noted that ‘‘[t]he existence or absence of a particular factor should never be the sole criterion for determining if an alien is likely to become a public charge.’’
Id. (emphasis omitted). Although the parallel proposed rule was never finalized, the Field Guidance sets
forth the current framework for public charge determinations.
B.

The 2018 Proposed Rulemaking and Rule.

On October 10, 2018, DHS published a notice of proposed rulemaking, Inadmissibility on Public Charge
Grounds, 83 Fed. Reg. 51,114 (Oct. 10, 2018), which withdrew the 1999 proposed rule that INS had issued with
the Field Guidance. Id. at 51,114. This newly proposed
rule sought, among other things, to redefine ‘‘public
charge,’’ and to amend the totality-of-the-circumstances

129a
standard that is currently used in public charge determinations. See id. The notice provided a 60-day period for public comments on the proposed rule. Id.
DHS collected 266,077 comments, ‘‘the vast majority of
which opposed the rule.’’ 84 Fed. Reg. at 41,297; see
also id. at 41,304-484 (describing and responding to public comments).
Subsequently, on August 14, 2019, DHS issued the
Rule. It was finalized, with several changes, as the
proposed rule described in the October 2018 notice. Id.
at 41,292; see also id. at 41,297-303 (summarizing changes
in Rule).
Under the Rule, ‘‘public charge’’ is to be defined as
any noncitizen ‘‘who receives one or more public benefits
. . . for more than 12 months in the aggregate within
any 36-month period.’’ Id. at 41,501, The Rule defines
‘‘public benefit,’’ in turn, as both cash benefits and noncash benefits such as Supplemental Nutrition Assistance Program, Medicaid, and public housing and Section 8 housing assistance. Id. Each benefit is to be
counted separately in calculating the duration of use,
such that, for example, receipt of two benefits in one
month would count as two months. Id.
The Rule also provides a new framework for assessing whether a noncitizen is likely at any time to become a public charge. Specifically, the Rule enumerates an expanded non-exclusive list of factors relevant
to analyzing whether a person is likely to receive 12
months of public benefits within 36 months. See id.
41,502-04. It includes, for example, family size, Englishlanguage proficiency, credit score, and any application
for the enumerated public benefits, regardless of the ac-

130a
tual receipt or use of such benefits. Id. The Rule designates the factors as ‘‘positive,’’ ‘‘negative,’’ ‘‘heavily
weighted positive,’’ or ‘‘heavily weighted negative,’’ and
instructs the DHS officer to ‘‘weigh’’ all such factors ‘‘individually and cumulatively.’’ Id., at 41,397; see also id.
41,502-04. Under this framework, if the negative factors outweigh the positive factors, the applicant would
be found likely to receive 12 months of public benefits in
the future. The applicant would then be found inadmissible as likely to become a public charge. Conversely, if the positive factors outweigh the negative factors, the applicant would not be found inadmissible as
likely to receive 12 months of public benefits and thereby become a public charge. Id. at 41,397.
DHS published various corrections to the Rule as
recently as October 2, 2019. Inadmissibility on Public
Charge Grounds; Correction, 84 Fed. Reg. 52,357 (Oct.
2, 2019). None of these corrections materially alter the
new public charge determination framework as outlined
above. The Rule, as corrected, is set to go into effect
on October 15, 2019.
C.

Plaintiffs’ Services.

Plaintiffs are nonprofit organizations that work with
and for immigrants. (Compl. ¶¶ 21-46.) They provide
direct services, including legal, educational, and healthrelated. (Id. ¶¶ 21-22, 26, 31, 34-36, 40-42.) Make the
Road New York, for instance, conducts educational
workshops on issues affecting immigrants, represents
immigrants in removal proceedings, and assists immigrants in applying for benefits and accessing health services. (Id. ¶ 22.) Similarly, African Services Committee provides legal representation in immigration proceedings, including those for adjustment of status;

131a
health-related services; emergency financial support;
and food pantry and nutrition services. (Id. ¶ 26.)
Plaintiffs also administer community outreach programs that, for example, disseminate information on immigration policies, (id. ¶¶ 21, 26), make referrals to social service providers, (id. ¶ 36), and host in-person
trainings on immigration-related matters, (id. ¶ 40).
II.

LEGAL STANDARD

‘‘[A] preliminary injunction is ‘an extraordinary remedy never awarded as of right.’ ” Benisek v. Lamone,
138 S. Ct. 1942, 1943 (2018) (per curiam) (citation omitted). To obtain a preliminary injunction, the moving
party must establish ‘‘that he is likely to succeed on the
merits, that he is likely to suffer irreparable harm in the
absence of preliminary relief, that the balance of equities tips in his favor, and that an injunction is in the public interest.’’ Winter v. Nat. Res. Def. Council, Inc.,
555 U.S. 7, 20 (2008).
III. PLAINTIFFS HAVE DEMONSTRATED A
LIKELIHOOD OF SUCCESS ON THE MERITS OF
THEIR CLAIMS

The Administrative Procedure Act (‘‘APA’’) authorizes judicial review of agency rules. Under the APA, a
reviewing court must ‘‘hold unlawful and set aside agency
action’’ that is ‘‘in excess of statutory jurisdiction, authority, or limitations’’; is ‘‘not in accordance with law’’; or is
‘‘arbitrary, capricious, [or] an abuse of discretion.’’
5 U.S.C. § 706(2)(A), (C). Here, Plaintiffs are likely to
succeed on the merits of their claim that the Rule conflicts with the APA in all of these respects.

132a
A.

Plaintiffs Satisfy the Threshold Justiciability Requirements.

As a preliminary matter, Defendants raise several
arguments that Plaintiffs’ claims are not justiciable.
Specifically, they assert that Plaintiffs lack standing,
the claims are not ripe for judicial review, and Plaintiffs
fall outside the zone of interests regulated by the Rule.
1. Plaintiffs Have Standing.

Article III of the U.S. Constitution limits the judicial
power of federal courts to ‘‘Cases’’ or ‘‘Controversies.’’
U.S. Const. art. III, § 2, cl. 1. To invoke this power, a
plaintiff must have standing to sue. Clapper v. Amnesty Int’l USA, 568 U.S. 398, 408 (2013) (citation omitted). The plaintiff bears the burden of establishing
standing, Rajamin v. Deutsche Bank Nat’l Tr. Co., 757
F.3d 79, 84 (2d Cir. 2014) (citing Lujan v. Defs. of Wildlife, 504 U.S. 555, 560-61 (1992); Premium Mortg. Corp.
v. Equifax, Inc., 583 F.3d 103, 108 (2d Cir. 2009)), and
such burden applies to each claim and form of relief
sought, DaimlerChrysler Corp. v. Cuno, 547 U.S. 332,
352 (2006). To demonstrate Article III standing, the
plaintiff must show that (1) ‘‘it has suffered a concrete
and particularized injury that is either actual or imminent,’’ (2) ‘‘the injury is fairly traceable to the defendant,’’ and (3) ‘‘it is likely that a favorable decision will
redress that injury.’’ Massachusetts v. EPA, 549 U.S.
497, 517 (2007) (citing Lujan, 504 U.S. at 560-61. ‘‘[T]he
presence of one party with standing is sufficient to satisfy Article III’s case-or-controversy requirement.’’
Rumsfeld v. Forum for Acad. & Institutional Rights,
Inc., 547 U.S. 47, 52 n.2 (2006) (citation omitted).

133a
Defendants argue, on several grounds, that Plaintiffs
lack standing. First, they challenge Plaintiffs’ reliance
on an ‘‘organizational’’ standing theory. An organization ‘‘may have standing in its own right to seek judicial
relief from injury to itself and to vindicate whatever
rights and immunities the association itself may enjoy.’’
Warth v. Seldin, 422 U.S. 490, 511 (1975). ‘‘Under this
theory of ‘‘organizational’’ standing, the organization is
just another person—albeit a legal person—seeking to
vindicate a right.’’
N.Y. Civil Liberties Union v.
N.Y.C. Transit Auth., 684 F.3d 286, 294 (2d Cir. 2012).
Therefore, ‘‘[t]o qualify, the organization itself ‘must
‘meet[ ] the same standing test that applies to individuals.’ ” Id. (second alteration in original) (citations omitted).
The Second Circuit has found that an organization
has standing where the defendant’s conduct interferes
with or burdens the organization’s ability to carry out its
usual activities, or where the organization is forced to
expend resources to prevent some adverse consequence
on a well-defined and particularized class of individuals.
See, e.g., Centro de la Comunidad Hispana de Locust
Valley v. Town of Oyster Bay, 868 F.3d 104, 110 (2d Cir.
2017) (finding concrete and cognizable injury where local ordinance regulating ability of day laborers to solicit
employment would ‘‘force’’ organization to expend
greater resources since ‘‘if the laborers are dispersed, it
will be more costly to reach them’’); N. Y. Civil Liberties
Union, 684 F.3d at 295 (finding standing where organization’s ability to represent its clients in administrative
hearings was ‘‘impeded’’ and ‘‘will continue to [be] impede[d]’’ by defendant’s policy barring public access to
such hearings). ‘‘Only a ‘perceptible impairment’ of an
organization’s activities is necessary for there to be an

134a
‘injury in fact.’ ’’ Nnebe v. Daus, 644 F.3d 147 (2d Cir.
2011) (quoting Ragin v. Harry Macklowe Real Estate
Co., 6 F.3d 898, 905 (2d Cir. 1993)). Moreover, ‘‘ ‘somewhat relaxed standing’ rules apply’’ where ‘‘a party
seeks review of a prohibition prior to its being enforced.’’ Centro de la Comunidad Hispana de Locust
Valley v. Town of Oyster Bay, 868 F.3d 104, 110 (2d Cir.
2017).
Courts have distinguished between cases where a defendant’s conduct forced a plaintiff to divert its resources and provide new services, therefore giving rise
to organizational standing, and cases where a plaintiff
was already providing the services at issue and therefore failed to allege any injury. Compare Nat. Res.
Def. Council, Inc. v. Wheeler, 367 F. Supp. 3d 219, 230
(S.D.N.Y. 2019) (finding no injury where organization
failed to allege that it ‘‘diverted any other resources
from its activities (specific or otherwise)’’ because of directive at issue), and Lowell v. Lyft, Inc., 352 F. Supp.
3d 248, 259 (S.D.N.Y. 2018) (finding no injury where no
allegations that defendant’s conduct caused organization ‘‘to expend any resources separate from this litigation or that it was otherwise impeded in its ability to pursue its mission’’), with Oyster Bay, 868 F.3d at 110 (finding standing where ordinance would force organization
to divert resources from its other activities in order to
combat negative effects of ordinance), and Olsen v.
Stark Homes, Inc., 759 F.3d 140, 158 (2d Cir. 2014) (finding standing where organization devoted new resources
to investigate its clients’ housing discrimination claims
and advocate on their behalf ), and Mental Disability
Law Clinic, Touro Law Ctr. v. Hogan, 519 F. App’x 714,
716-17 (2d Cir. 2013) (finding standing where organization expended resources to challenge state mental

135a
health agency’s policy of asserting counterclaims for
outstanding treatment charges against patients who
sued agency and thereby discouraged patients from
bringing such suits), and Nnebe, 644 F.3d at 157-58
(finding standing where organization ‘‘allocated resources to assist drivers only when another party—the
City—ha[d] initiated proceedings against one of its
members’’).
This case falls squarely in the category of those
where the plaintiff was forced to divert its resources
from its usual mission-related activities because of the
defendant’s conduct. As Plaintiffs adequately demonstrate, the Rule forces them to devote substantial resources to mitigate its potentially harmful effects—
resources that Plaintiffs could and would have used for
other purposes. Plaintiffs allege, for example, that
they will have to divert resources to educate their clients, members, and the public about the Rule. (Mem.
of Law in Supp. of Pls.’ Mot. for Prelim. Inj. (‘‘Pls.’
Mem.’’), ECF No. 39, at 36-37.) Those Plaintiffs that
provide direct legal services will also have to expend additional resources helping clients prepare applications
for adjustments, representing clients in removal proceedings, and conducting additional trainings. (Id. at
37.) In fact, Plaintiffs allege that they have already
had to dedicate significant resources addressing the
Rule since the announcement of the Rule last year.
They have, for example, already conducted dozens of
workshops. (Decl. of Theo Oshiro, ECF No. 43, ¶¶ 21,
25). They have also developed new materials for legal
information sessions that previously could be held on a
groupwide basis but now require individualized consultation due to the Rule’s complexity. (Decl. of C. Mario
Russell, ECF No. 44, ¶ 19). These are entirely new

136a
services that, but for the Rule, Plaintiffs would not have
had to provide.
Defendants additionally argue that Plaintiffs’ claims
of irreparable injury ‘‘consist of potential future harms
that, if they ever came to pass, would be spurred by decisions of third parties not before the Court,’’ and that
these injuries are therefore too speculative. (Mem. of
Law in Opp’n to Pls.’ Mot. for a Prelim. Inj. (‘‘Defs.’
Opp’n’’), ECF No. 129, at 9). In Defendants’ view, the
Rule governs only DHS personnel and certain noncitizens, but does not directly affect Plaintiffs, either by requiring or forbidding any action on Plaintiffs’ part or by
expressly interfering with any of Plaintiffs’ programs.
(Id.) This argument fails. As set forth above, Plaintiffs sufficiently allege ‘‘concrete and particularized’’ injuries that they themselves will suffer and, in fact, have
already begun to suffer. Plaintiffs therefore have standing to bring this action on their own behalf.
2. Plaintiffs’ Claims Are Ripe for Judicial Review.

To be justiciable, Plaintiffs’ claims must also be ripe
—that is, they ‘‘must present ‘a real, substantial controversy, not a mere hypothetical question.’ ” Nat’l Org.
for Marriage, Inc. v. Walsh, 714 F.3d 682, 687 (2d Cir.
2013) (quoting AMSAT Cable Ltd. v. Cablevision of
Conn., 6 F.3d 867, 872 (2d Cir. 1993)). ‘‘Ripeness ‘is peculiarly a question of timing,’ ’’ and ‘‘[a] claim is not ripe
if it depends upon ‘contingent future events that may not
occur as anticipated, or indeed may not occur at all.’ ’’
Id. (quoting Thomas v. Union Carbide Agric. Prods.
Co., 473 U.S. 568, 580-81 (1985)).
‘‘Ripeness encompasses two overlapping doctrines
concerning the exercise of federal court jurisdiction.’’

137a
Entergy Nuclear Vt. Yankee, LLC v. Shumlin, 733 F.3d
393, 429 (2d Cir. 2013) (citing Reno v. Catholic Soc.
Servs., Inc., 509 U.S. 43, 57 n.18 (1993)) (internal quotation marks omitted). The first, constitutional ripeness,
‘‘overlaps with the standing doctrine, ‘most notably in
the shared requirement that the plaintiff ’s injury be imminent rather than conjectural or hypothetical.’ ’’ In re
Methyl Tertiary Butyl Ether (MTBE) Prods. Liab.
Litig., 725 F.3d 65, 110 (2d Cir. 2013) (quoting Ross v.
Bank of Am., N.A., 524 F.3d 217, 226 (2d Cir. 2008)).
Prudential ripeness, meanwhile, is ‘‘ ‘an important exception to the usual rule that where jurisdiction exists a
federal court must exercise it,’ and allows a court to determine ‘that the case will be better decided later.’ ’’
Id. (quoting Simmonds v. Immigration Naturalization
Serv., 326 F.3d 351, 357 (2d Cir. 2003)). In determining
whether a case is prudentially ripe, courts examine ‘‘(1)
whether [the case] is fit for judicial decision and (2)
whether and to what extent the parties will endure hardship if decision is withheld.’’ Simmonds, 326 F.3d at
359 (citing Abbott Labs. v. Gardner, 387 U.S. 136, 14849 (1967)).
One can conceive of no issue of greater ripeness than
that presented here. The Rule is scheduled to go into
effect in a matter of days, at which point hundreds of
thousands of individuals who were previously eligible
for admission and permanent residence in the United
States will no longer be eligible because of this change
of law. Adverse consequences and determinations will
soon begin to have their effect. The Rule is intended
to immediately cause the immigrant population to avoid
public benefits. Plaintiffs must be prepared to immediately adjust to the results of this change in policy.

138a
No further factual predicate is necessary for purposes of determining ripeness, where there is clearly a
legal question about whether the Rule exceeds Defendants’ delegated authority, violates the law, and is arbitrary and capricious. Moreover, for the same reasons
that Plaintiffs sufficiently allege an injury under the
standing inquiry, they have shown that they will endure
significant hardship with any delay.
Accordingly,
Plaintiffs’ claims are ripe for review, both constitutionally and prudentially.
3. Plaintiffs Are Within the Zone of Interests
Regulated By the Rule.

The final threshold question raised by Defendants is
whether Plaintiffs have concerns that ‘‘fall within the
zone of interests protected by the law invoked.’’
Lexmark Int’l, Inc. v. Static Control Components, Inc.,
572 U.S. 118, 129 (2014) (citation and internal quotation
marks omitted). The zone-of-interests test is ‘‘not ‘especially demanding,’ ’’ particularly with respect to the
APA and its ‘‘generous review provisions.’’ Id. at 130,
(citation and internal quotation marks omitted). Indeed, in the APA context, the Supreme Court has ‘‘often
‘conspicuously included the word ‘‘arguably’’ in the test
to indicate that the benefit of any doubt goes to the
plaintiff.’ ’’ Id. (citation omitted). ‘‘The test forecloses suit only when a plaintiff ’s ‘interests are so marginally related to or inconsistent with the purposes implicit in the statute that it cannot reasonably be assumed
that Congress intended to permit the suit.’ ’’ Match-EBe-Nash-She-Wish Band of Pottawatomi Indians v.
Patchak, 567 U.S. 209, 225 (2012) (citation omitted).

139a
Plaintiffs plainly fall within the INA’s zone of interests. The interests of immigrants and immigrant advocacy organizations such as Plaintiffs are inextricably
intertwined. In fact, the court in Batalla Vidal v. Nielsen, 291 F. Supp. 3d 260 (E.D.N.Y. 2018), found that
Make the Road New York, one of the Plaintiffs in this
very action, fall within the zone of interests of the INA.
Id. at 269 n.3. Furthermore, the zone-of-interests test
‘‘does not require the plaintiff to be an intended beneficiary of the law in question,’’ but instead allows parties
simply ‘‘who are injured’’ to seek redress. Citizens for
Responsibility & Ethics in Wash. v. Trump, No. 18-474,
2019 WL 4383205, at *16 (2d Cir. Sept. 13, 2019). The
Supreme Court has consistently found that economic injuries like those alleged here satisfy the test. See, e.g.,
Bank of Am. Corp. v. City of Miami, 137 S. Ct. 1296,
1304-05 (2017) (finding city’s discriminatory lending
claims within zone of interests of Fair Housing Act, despite economic nature of harms alleged and absence of
any indication that Act was intended to protect municipal budgets).
B.

Plaintiffs Sufficiently Allege That the Rule Exceeds Statutory Authority and Is Contrary to Law.

Turning to the merits of Plaintiffs’ claims, Plaintiffs
argue that the Rule violates the APA because it exceeds
DHS’s delegated authority under the INA and is contrary to law. See 5 U.S.C. § 706(2)(A), (C). In analyzing an agency’s interpretation of a statute and whether
the agency’s action exceeds statutory authority, courts
often apply the two-step framework articulated in Chevron U.S.A., Inc. v. Natural Resources Defense Council,
Inc., 467 U.S. 837 (1984), ‘‘[T]he question . . . is al-

140a
ways whether the agency has gone beyond what Congress has permitted it to do[.]’’ City of Arlington v.
FCC, 569 U.S. 290, 298 (2013). Under Chevron, courts
first ask whether the statute is clear. Chevron, 467
U.S. at 842. If so, ‘‘that is the end of the matter[,] for
the court, as well as the agency, must give effect to the
unambiguously expressed intent of Congress.’’ Id. at
842-43. Where there is ambiguity, however, courts
then ask whether the agency’s interpretation of the statute is reasonable. Id. at 843-44. Such deference ‘‘is
premised on the theory that a statute’s ambiguity constitutes an implicit delegation from Congress to the
agency to fill in the statutory gaps.’’ FDA v. Brown &
Williamson Tobacco Corp., 529 U.S. 120, 159 (2000).
Notwithstanding this implicit delegation, ‘‘agencies must
operate ‘within the bounds of reasonable interpretation,’ ’’ and ‘‘reasonable statutory interpretation must
account for both ‘the specific context in which . . .
language is used’ and ‘the broader context of the statute
as a whole.’ ’’ Util. Air Regulatory Grp. v. EPA, 573
U.S. 302, 321 (2014) (citations omitted).
1. Long-Standing Definition of ‘‘Public Charge.’’

Plaintiffs argue that the Rule’s definition of ‘‘public
charge’’ is a drastic deviation from the unambiguous and
well-established meaning of the term that has existed
for over 130 years. (Pls.’ Mem. at 5, 18-19.) They assert that the term has been interpreted narrowly to refer to an individual who is ‘‘institutionalized or [is] otherwise primarily dependent on the government for subsistence.’’ (Id. at 5.) Going as far back as 1882, when
Congress passed the first federal immigration statute,
Plaintiffs note that the statute rendered excludable ‘‘any
person unable to take care of himself or herself without

141a
becoming a public charge,’’ (id. at 6 (quoting Immigration Act of 1882, ch. 376, 22 Stat. 214, 47th Cong.
(1882))), and that its legislative history showed that
Congress intended ‘‘public charge’’ to refer to ‘‘those
likely to become long-term residents of ‘poor-houses and
alms-houses,’ ’’ (id. (quoting 13 Cong. Rec. 5109 (June
19, 1882) (statement of Rep. Davis)).) Plaintiffs point
to court decisions in the years that followed, which confirmed this definition of ‘‘public charge.’’ (Id. at 6-7.)
According to Plaintiffs, federal agencies have also affirmed this narrow interpretation, as evidenced by
INS’s 1999 Field Guidance. (Id. at 12.)
In opposition, Defendants assert that the definition
of ‘‘public charge’’ in the Rule ‘‘is consistent with the
plain meaning of the statutory text, which ‘is to be determined as of the time that it became law.’ ’’ (Defs.’
Opp’n at 11-12 (quoting One West Bank v. Melina, 827
F.3d 214, 220 (2d Cir. 2016)).) They direct this Court
to dictionaries used in the 1880s, when the Immigration
Act of 1882 was passed, which allegedly ‘‘make clear’’
that a noncitizen becomes a ‘‘public charge’’ ‘‘when his
inability to achieve self-sufficiency imposes an ‘obligation’ or ‘liability’ on ‘the body of the citizens’ to provide
for his basic necessities.’’ (Id. at 12-13.)
Upon review of the plain language of the INA, the
history and common-law meaning of ‘‘public charge,’’
agency interpretation, and Congress’s repeated reenactment of the INA’s public charge provision without
material change, one thing is abundantly clear—‘‘public
charge’’ has never been understood to mean receipt of
12 months of benefits within a 36-month period. Defendants admit that this is a ‘‘new definition’’ under the

142a
Rule, (Id. at 5.) And at oral argument, they did not dispute that this definition has never been referenced in
the history of U.S. immigration law or that there is
zero precedent supporting this particular definition.
(See, e.g., Tr. of Oral Arg. dated Oct. 7, 2019 at 51:8-11,
52:1-3.) No ordinary or legal dictionary definition of
‘‘public charge’’ references Defendants’ proposed meaning of that term. As such, Plaintiffs raise a compelling
argument that Defendants lack the authority to redefine
‘‘public charge’’ as they have.
2. Congress’s Intent.

Nor is there any evidence that Congress intended for
a redefinition of ‘‘public charge,’’ and certainly not in the
manner set forth in the Rule. No legislative intent or
historical precedent alludes to this new definition. Defendants have made no showing that Congress was anything but content with the current definition set forth in
the Field Guidance, which defines public charge as
someone who has become or is likely to become primarily dependent on the government for cash assistance.
Indeed, Congress has repeatedly endorsed this definition and rejected efforts to expand it. For example,
during the 1996 debate over IIRIRA, several members
of Congress tried and failed to extend the meaning of
public charge to include the use of non-cash benefits.
See 142 Cong. Rec. S11612, at S11712 (daily ed. Sept. 16,
1996). Congress rejected similar efforts in 2013 because of its ‘‘strict benefit restrictions and requirements.’’ S. Rep. 113-40, at 42 (2013).
In addition, if Congress wanted to deny immigrants
any of the public benefits enumerated in the Rule, it
could have done so, as it similarly has in the past. The
Welfare Reform Act, for example, restricted certain

143a
noncitizens’ eligibility for certain benefits. Specifically, it provided that only ‘‘qualified’’ noncitizens—which,
in most cases, meant those who had remained in the
United States for five years—could have access to most
federal means-tested public benefits. 8 U.S.C. §§ 1612,
1613. Therefore, the absence of any Congressional intent to redefine public charge also counsels in favor of a
preliminary injunction.
C.

Plaintiffs Sufficiently Demonstrate That the Rule
Is Arbitrary and Capricious.

Plaintiffs additionally argue that the Rule is arbitrary and capricious. See 5 U.S.C. § 706(2)(A). ‘‘The
scope of review under the ‘arbitrary and capricious’
standard is narrow[.]’’ Motor Vehicle Mfrs. Ass’n of
U.S., Inc. v. State Farm Mut. Auto. Ins. Co., 463 U.S.
29, 43 (1983). Nevertheless, the APA requires an agency to ‘‘engage in ‘reasoned decisionmaking,’ ’’ Michigan
v. EPA, 135 S. Ct. 2699, 2706 (2015) (citation omitted),
and to ‘‘articulate a satisfactory explanation for its action,’’ State Farm, 463 U.S. at 43 (citation omitted). An
agency rule is arbitrary and capricious if the agency:
relied on factors which Congress has not intended it
to consider, entirely failed to consider an important
aspect of the problem, offered an explanation for its
decision that runs counter to the evidence before the
agency, or is so implausible that it could not be ascribed to a difference in view or the product of agency
expertise.
Id. Where an agency action changes prior policy, the
agency need not demonstrate ‘‘that the reasons for the
new policy are better than the reasons for the old one.’’
FCC v. Fox Television Stations, Inc., 556 U.S. 502, 515

144a
(2008). It must, however, ‘‘show that there are good
reasons for the new policy.’’ Id. This requirement is
heightened where the ‘‘new policy rests upon factual
findings that contradict those which underlay its prior
policy,’’ id. (citation omitted), as ‘‘a reasoned explanation is needed for disregarding facts and circumstances
that underlay or were engendered by the prior policy,’’
id. at 516.
1. Defendants’ Justification of Rule.

Here, Defendants fail to provide any reasonable explanation for changing the definition of ‘‘public charge’’
or the framework for evaluating whether a noncitizen is
likely to become a public charge. As noted above, ‘‘public
charge’’ has never been interpreted as someone ‘‘who receives one or more public benefits . . . for more than
12 months in the aggregate within any 36-month period.’’ 84 Fed. Reg. at 41,501. This new definition
essentially changes the public charge assessment into
a benefits issue, rather than an inquiry about selfsubsistence, such that any individual who is deemed
likely to accept a benefit is considered a public charge.
Receipt of a benefit, however, does not necessarily indicate that the individual is unable to support herself.
One could envision, for example, a scenario where an individual is fully capable of supporting herself without
government assistance but elects to accept a benefit,
such as public housing, simply because she is entitled to
it. Under the Rule, although this individual is legally
entitled to public housing, if she takes advantage of this
right, she may be penalized with denial of adjustment of
status. There is no logic to this framework. Moreover, considering that the federal welfare program was
not established in the United States until the 1930s,

145a
whereas the concept of public charge existed at least as
early as 1882, there must be some definition of public
charge separate and apart from mere receipt of benefits.
At oral argument, Defendants were afforded numerous opportunities to articulate a rational basis for equating public charge with receipt of benefits for 12 months
within a 36-month period, particularly when this has
never been the rule. Defendants failed each and every
time. When asked, for example, why the standard was
12 months and 36 months as opposed to any other number of months, Defendants merely responded that they
do not need to ‘‘show a case from 100 years ago that also
adopted this precise 12[/]36 standard.’’ (Tr. of Oral
Arg. dated Oct. 7, 2019 at 53:14-20.) Defendants were
asked to explain how the new framework would operate
and to provide an example of the ‘‘typical person’’ that
Defendants could predict is going to receive 12 months
of benefits in a 36-month period. (Id. 68:11-80:123.)
Defendants again stumbled along and were unable to
adequately explain what the determinative factor is under the Rule, what individual would fall across the line
and be considered a public charge, and what evaluation
of the factors enumerated in the Rule would make the
DHS officer confident that she could make an appropriate prediction. (Id.) And yet, according to Defendants, the Rule is intended to ‘‘provide[] a number of concrete guidelines to assist in making [the public charge]
determination’’ and is ‘‘designed . . . to make it
more predictable for people on both sides of the adjudicatory process.’’ (Id. at 80:20-23.) Quite the opposite
appears to be the case.
Defendants suggest that the totality-of-circumstances
test remains and that receipt of benefits for 12 months

146a
out of a 36-month period is only one of several factors to
be considered. (Id. at 52:17-22.) This characterization of the Rule is plainly incorrect. Under the Rule,
receipt of such benefits is not one of the factors considered; it is the factor. That is, if a DHS officer believes
that an individual is likely to have benefits for 12 months
out of a 36-month period, the inquiry ends there, and the
individual is automatically considered a public charge.
As such, Defendants are not simply expanding or elaborating on the list of factors to consider in the totality of
the circumstances. Rather, they are entirely reworking the framework, and with no rational basis.
Defendants also fail to demonstrate rational relationships between many of the additional factors enumerated in the Rule and a finding of benefits use. One illustrative example is the addition of English-language
proficiency as a factor. Defendants do not dispute that
there has never been an English-language requirement
in the public charge analysis. They argue, however,
that the Rule ‘‘properly’’ adds English proficiency as a
factor, given the requirement in the INA to consider an
applicant’s ‘‘education and skills.’’ (Defs.’ Opp’n at 26.)
Defendants’ suggestion that an individual is likely to become a public charge simply by virtue of her limited
English proficiency is baseless, as one can certainly be
a productive and self-sufficient citizen without knowing
any English. The United States of America has no official language. Many, if not most, immigrants who arrived at these shores did not speak English. It is

147a
simply offensive to contend that English proficiency is a
valid predictor of self-sufficiency. 2
In short, Defendants do not articulate why they are
changing the public charge definition, why this new definition is needed now, or why the definition set forth in
the Rule—which has absolutely no support in the history of U.S. immigration law—is reasonable. The Rule
is simply a new agency policy of exclusion in search of a
justification. It is repugnant to the American Dream
of the opportunity for prosperity and success through
hard work and upward mobility. Immigrants have always come to this country seeking a better life for themselves and their posterity. With or without help, most
succeed.
2. Rehabilitation Act.

Plaintiffs further argue that the Rule discriminates
against individuals with disabilities, in contravention
of Section 504 of the Rehabilitation Act, Pub. L. No.
93-112, 87 Stat. 394 (1973) (codified at 29 U.S.C. § 794).
Section 504 provides that no individual with a disability
‘‘shall, solely by reason of her or his disability, be excluded from the participation in, be denied the benefits
of, or be subjected to discrimination . . . under any
Similarly it is unclear how the credit score of a new immigrant—
who, for example, may have only recently opened her first credit account and therefore has a short credit history, which would negatively impact her credit score—is indicative of her likelihood to receive 12 months of public benefits. Defendants blithely argue that
a low credit score ‘‘is an indication that someone has made financial
decisions that are not necessarily entirely responsible’’ and that
‘‘those irresponsible financial decisions may be the product of someone who doesn’t have very much money to work with.’’ (Tr. of Oral
Arg. dated Oct. 7, 2019 at 86:16-20).
2

148a
program or activity conducted by any Executive
agency.’’ 29 U.S.C. § 794(a). DHS, in particular, is
prohibited from denying access to benefits and services
on the basis of disability, 6 C.F.R. § 15.30(b)(1), and from
using discriminatory criteria or methods of administration, id. § 15.30(b)(4). See also id. § 15.49. ‘‘Exclusion
or discrimination [under Section 504] may take the
form of disparate treatment, disparate impact, or failure
to make reasonable accommodation.’’ B.C. v. Mount
Vernon Sch. Dist., 837 F.3d 152, 158 (2d Cir. 2016).
The Rule clearly considers disability as a negative
factor in the public charge assessment. Defendants
acknowledge that disability is ‘‘one factor . . . that
may be considered’’ and that it is ‘‘relevant . . . to
the extent that an alien’s particular disability tends to
show that he is ‘more likely than not to become a public
charge’ at any time.’’ (Defs.’ Opp’n at 22 (quoting 84
Fed. Reg. at 41,368).) Defendants do not explain how
disability alone is itself a negative factor indicative of
being more likely to become a public charge. In fact, it
is inconsistent with the reality that many individuals
with disabilities live independent and productive lives.
As such, Plaintiffs have raised at least a colorable argument that the Rule as to be applied may violate the Rehabilitation Act, and further discovery and development
of the record is warranted prior to its implementation.
3. Fifth Amendment Equal Protection Guarantee.

According to Plaintiffs, the Rule violates the equal
protection guarantee of the Fifth Amendment to the
U.S. Constitution because it disproportionately harms
noncitizens of color. Plaintiffs and Defendants disagree about the appropriate level of scrutiny under which
to assess the Rule’s constitutionality. Plaintiffs argue

149a
that the Rule was motivated by discriminatory animus
towards noncitizens of color and is therefore subject to
strict scrutiny under Village of Arlington Heights v.
Metropolitan Housing Development Corp., 429 U.S. 252
(1977). (Pls.’ Mem. at 31-32.) Defendants, on the other
hand, contend that because the government has ‘‘broad
power over naturalization and immigration,’’ (Defs.’
Opp’n at 34 (quoting Lewis v. Thompson, 252 F.3d 567,
582 (2d Cir. 2001))), the Rule is subject only to rational
basis review, (id. at 34-35).
Under either standard, the conclusion remains the
same: Plaintiffs have sufficiently demonstrated a likelihood of success on the merits of their equal protection
claim. Indeed, even under the highly deferential standard advanced by Defendants, Defendants have yet to
articulate a ‘‘rational relationship between the disparity
of treatment and some legitimate government purpose.’’
Lewis, 252 F.3d at 582 (citations and internal quotation
marks omitted). Defendants do not dispute that the
Rule will disparately impact noncitizens of color. At
oral argument, when asked whether the Rule ‘‘will have
a greater impact on people of Hispanic and African descent,’’ for example, Defendants’ response was that they
‘‘don’t know’’ and that ‘‘that’s the same issue that would
have applied under the [Field Guidance], which [Defendants] assume also would have had a disproportionate impact.’’ (Tr. of Oral Arg. dated Oct. 7, 2019 at 81:10-16.)
Defendants instead challenge Plaintiffs’ equal protection claim by arguing that the Rule is ‘‘rationally related
to the government’s compelling, statutorily-codified interest in minimizing the incentive of aliens to immigrate
to the United States due to the availability of public benefits and promoting the self-sufficiency of aliens within

150a
the United States.’’ (Defs.’ Opp’n at 35.) But, as discussed above, this is no reasonable basis for Defendants’
sharp departure from the current public charge determination framework. See supra Part III.C.1. As
such, ‘‘Plaintiffs have, at the very least, raised serious
questions going to the merits of their Equal Protection
Claim.’’ Saget v. Trump, 375 F. Supp. 3d 280, 374
(E.D.N.Y. 2019).
IV. PLAINTIFFS HAVE DEMONSTRATED THAT
THEY WILL SUFFER IRREPARABLE HARM
ABSENT A PRELIMINARY INJUNCTION

‘‘A showing of irreparable harm is ‘the single most
important prerequisite for the issuance of a preliminary
injunction.’ ’’ Faiveley Transp. Malmo AB v. Wabtec
Corp., 559 F.3d 110, 118 (2d Cir. 2009) (citation omitted).
‘‘To satisfy the irreparable harm requirement, Plaintiffs
must demonstrate that absent a preliminary injunction
they will suffer ‘an injury that is neither remote nor
speculative, but actual and imminent,’ and one that cannot be remedied ‘if a court waits until the end of trial to
resolve the harm.’ ’’ Grand River Enter. Six Nations,
Ltd. v. Pryor, 481 F.3d 60, 66 (2d Cir. 2007) (citation
omitted). However, Plaintiffs need only show ‘‘a threat
of irreparable harm, not that irreparable harm already
ha[s] occurred.’’ Mullins v. City of New York, 626 F.3d
47, 55 (2d Cir. 2010).
The irreparable injury to Plaintiffs by forcing them
to divert resources and by shifting the burden of providing services to those who can no longer obtain federal
benefits without jeopardizing their status in the United
States, and the immediate response that is necessary by
this shift of burden to Plaintiffs, is a direct and inevitable consequence of the impending implementation of the

151a
Rule. As discussed above, Plaintiffs allege that the
Rule will hinder their ability to carry out their missions
and force them to expend substantial resources to mitigate the potentially adverse effects of the Rule. See
supra Parts III.A.1-2. Plaintiffs provide declarations
extensively describing and calculating such injuries.
(See, e.g., Decl. of Diane Schanzenbach, Ph.D., ECF No.
40; Decl. of Ryan Allen, Ph.D., ECF No. 41; Decl. of
Leighton Ku, Ph.D., M.P.H., ECF No. 42.)
No less important is the immediate and significant
impact that the implementation of the Rule will have on
law-abiding residents who have come to this country to
seek a better life. The consequences that Plaintiffs
must address, and America must endure, will be personal and public disruption, much of which cannot be undone. Overnight, the Rule will expose individuals to
economic insecurity, health instability, denial of their
path to citizenship, and potential deportation—none of
which is the result of any conduct by those such injuries
will affect. It is a rule that will punish individuals for
their receipt of benefits provided by our government,
and discourages them from lawfully receiving available
assistance intended to aid them in becoming contributing members of our society. It is impossible to argue
that there is no irreparable harm for these individuals,
Plaintiffs, and the public at large.
V.

THE BALANCE OF HARDSHIPS AND PUBLIC
INTEREST TIP IN PLAINTIFFS’ FAVOR

Finally, Plaintiffs must demonstrate that ‘‘the balance of equities tips in [their] favor’’ and that ‘‘an injunction is in the public interest.’’ Winter, 555 U.S. at 20.
‘‘These factors merge when the Government is the opposing party.’’ Nken v. Holder, 556 U.S. 418, 435 (2009).

152a
In assessing these factors, the court must ‘‘balance the
competing claims of injury and must consider the effect
on each party of the granting or withholding of the requested relief,’’ as well as ‘‘the public consequences in
employing the extraordinary remedy of injunction,’’
Winter, 555 U.S. at 24 (citations omitted).
Here, preventing the alleged economic and public
health harms provides a significant public benefit. As
discussed above, these harms are not speculative or insufficiently immediate. In fact, the notice of proposed
rulemaking itself acknowledged that the Rule could
cause ‘‘[w]orse health outcomes’’; ‘‘[i]ncreased use of
emergency rooms and emergent care as a method of primary health care due to delayed treatment’’; ‘‘[i]ncreased prevalence of communicable diseases, including
among members of the U.S. citizen population who are
not vaccinated’’; ‘‘[i]ncreases in uncompensated care in
which a treatment or service is not paid for by an insurer
or patient’’; ‘‘[i]ncreased rates of poverty and housing
instability’’; ‘‘[r]educed productivity and educational attainment’’; and other ‘‘unanticipated consequences and
indirect costs.’’ 83 Fed. Reg. at 51,270.
Moreover, there is no public interest in allowing Defendants to proceed with an unlawful, arbitrary, and capricious rule that exceeds their statutory authority.
See Planned Parenthood of N.Y.C., Inc. v. U.S. Dep’t of
Health & Human Servs., 337 F. Supp. 3d 308, 343
(S.D.N.Y. 2018) (‘‘It is evident that ‘[t]here is generally
no public interest in the perpetuation of unlawful agency
action.’ . . . The inverse is also true: ‘there is a
substantial public interest in ‘having governmental

153a
agencies abide by the federal laws that govern their existence and operations.’ ” (quoting League of Women
Voters of U.S. v. Newby, 838 F.3d 1, 12 (D.C. Cir. 2016)).)
To be sure, Defendants have a legitimate interest in
administering the national immigration system. However, that interest is not paramount in this instance, particularly where Defendants fail to demonstrate why or
how the current public charge framework is inadequate.
Defendants have applied their current rules for decades,
and the current concept of ‘‘public charge’’ has been accepted for over a century. Aside from conclusory allegations that they will ‘‘be harmed by an impediment’’ to
administering the immigration system, (Defs.’ Opp’n at
38), Defendants do not—and cannot—articulate what
actual hardship they will suffer by maintaining the status quo.
Accordingly, because Plaintiffs are likely to succeed
on the merits and to suffer irreparable harm absent preliminary relief, and the balance of hardships and public
interest tip in their favor, Plaintiffs are entitled to a preliminary injunction.
VI.

THE INJUNCTION SHOULD APPLY
NATIONWIDE

As to the scope of the relief, a nationwide injunction
is necessary. The scope of preliminary injunctive relief
generally should be ‘‘no broader than necessary to cure
the effects of the harm caused by the violation’’ and ‘‘not
impose unnecessary burdens on lawful activity.’’ Church
& Dwight Co. v. SPD Swiss Precision Diagnostics,
GmBH, 843 F.3d 48, 72 (2d Cir. 2016) (citations omitted). However, there is no requirement that an injunction affect only the parties in the suit. See Califano v.

154a
Yamasaki, 442 U.S. 682, 702 (1979) (‘‘[T]he scope of injunctive relief is dictated by the extent of the violation
established, not by the geographical extent of the plaintiff class.’’)
Here, a nationwide injunction is appropriate. First,
national immigration policies, such as the Rule, require
uniformity.
Hawaii v. Trump, 878 F.3d 662, 701
(9th Cir. 2017), rev’d on other grounds, 138 S. Ct. 2392,
(2018); see also Batalla Vidal v. Nielsen, 279 F. Supp.
3d 401, 438 (E.D.N.Y. 2018) (granting nationwide injunction preventing rescission of Deferred Action for Childhood Arrivals program in part because ‘‘there is a strong
federal interest in the uniformity of federal immigration
law’’); U.S. Const. art. I, § 8, cl. 4 (‘‘The Congress shall
have Power . . . To establish a[ ] uniform Rule of
Naturalization.’’). A geographically limited injunction
that would result in inconsistent applications of the
Rule, and different public charge determinations based
upon similar factors, is inimical to this need for uniformity in immigration enforcement.
Indeed, at least nine lawsuits have already been filed
challenging the Rule, including State of California v.
U.S. Department of Homeland Security, 19 Civ. 4975
(PJH) (N.D. Cal.) and State of Washington v. United
States Department of Homeland Security, 19 Civ. 5210
(RMP) (E.D. Wash.). 3 In just these two actions alone,
In addition to the instant action and the related action both before this Court, these other actions include Mayor and City Council
of Baltimore v. United States Department of Homeland Security,
19 Civ. 2851 (PJM) (D Md.); Casa De Maryland, Inc. v. Trump,
19 Civ. 2715 (PWG) (D. Md.); City and County of San Francisco v.
U.S. Citizenship and Immigration Services, 19 Civ. 4717 (PJH)
(N.D. Cal.); La Clinica De La Raza v. Trump, 19 Civ. 4980 (PJH)
3

155a
Plaintiffs include the State of California, District of Columbia, State of Maine, Commonwealth of Pennsylvania,
State of Oregon, State of Washington, Commonwealth
of Virginia, State of Colorado, State of Delaware, State
of Illinois, State of Maryland, Commonwealth of Massachusetts, Attorney General Dana Nessel on behalf of the
People of Michigan, State of Minnesota, State of Nevada, State of New Jersey, State of New Mexico, and
State of Rhode Island. Combined with the instant action, that means that nearly two dozen jurisdictions
have already brought suit. It would clearly wreak
havoc on the immigration system if limited injunctions
were issued, resulting in different public charge frameworks spread across the country, based solely on geography. Batalla, 279 F. Supp. 3d at 438 (granting nationwide injunction where more limited injunction ‘‘would
likely create administrative problems for the Defendants’’).
There is no reasonable basis to apply one public
charge framework to one set of individuals and a different public charge framework to a second set of individuals merely because they live in different states. It
would be illogical, for example, if a New York resident
was eligible for adjustment of status but a resident of a
sister state with the same exact background was not eligible, only because the second resident had the misfortune of living somewhere not covered by a limited injunction.
Relatedly, a nationwide injunction is necessary to accord Plaintiffs and other interested parties with complete redress. In particular, an individual should not
(N.D. Cal.); and Cook County, Illinois v. McAleenan, 19 Civ. 6334
(GF) (N.D. Ill.).

156a
have to fear that moving from one state to another could
result in a denial of adjustment of status. For example,
if the injunction were limited to New York, Connecticut,
and Vermont, and a New York resident moved to New
Jersey where the injunction would not apply, this individual could there be considered a public charge and
face serious repercussions simply for crossing state borders. ‘‘[F]reedom to travel throughout the United States
has long been recognized as a basic right under the Constitution.’’ United States v. Guest, 383 U.S. 745, 758
(1966) (citations omitted). It has been considered a
‘‘right so elementary [that it] was conceived from the beginning to be a necessary concomitant of the stronger
Union the Constitution created.’’ Id.; see also Griffin
v. Breckenridge, 403 U.S. 88, 105 (1971) (‘‘Our cases
have firmly established that the right of interstate
travel is constitutionally protected, does not necessarily
rest on the Fourteenth Amendment, and is assertable
against private as well as governmental interference.’’)
The Supreme Court’s recognition of the preeminence of
this right lends further support for a nationwide injunction that would not interfere with individuals’ ability to
move from one place to another. See, e.g., Batalla, 279
F. Supp. 3d at 438 (finding nationwide injunction appropriate ‘‘partly in light of the simple fact that people move
from state to state and job to job’’).
Accordingly, this Court grants a nationwide injunction, as well as a stay postponing the effective date of
the Rule pending a final ruling on the merits, or further
order of the Court. 4

The standard for a stay under 5 U.S.C. § 705 is the same as the
standard for a preliminary injunction. Nat. Res. Def. Council v.
4

157a
VII.

CONCLUSION

Plaintiffs’ motion for issuance of a preliminary injunction, (ECF No. 33), is GRANTED.
Dated: New York, New York
Oct. 11, 2019
SO ORDERED.
/s/

GEORGE B. DANIELS
GEORGE B. DANIELS
United States District Judge

U.S. Dep’t of Energy, 362 F. Supp. 3d 126, 149 (S.D.N.Y. 2019). Accordingly, this Court grants the stay for the same reasons it grants
the injunction.

158a
APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

19 Civ. 7993 (GBD)
MAKE THE ROAD NEW YORK, AFRICAN SERVICES
COMMITTEEE, ASIAN AMERICAN FEDERATION,
CATHOLIC CHARITIES COMMUNITIES SERVICES,
(ARCHDIOCESE OF NEW YORK), AND CATHOLIC LEGAL
IMMIGRATION NETWORK, INC., PLAINTIFFS
v.
KEN CUCCINELLI, IN HIS OFFICIAL CAPACITY
AS ACTING DIRECTOR OF UNITED STATES CITIZENSHIP
AND IMMIGRATION SERVICES; UNITED STATES
CITIZENSHIP & IMMIGRATION SERVICES;
KEVIN K. MCALEENAN, IN HIS OFFICIAL CAPACITY AS
ACTING SECRETARY OF HOMELAND SECURITY; AND
UNITED STATES DEPARTMENT OF HOMELAND
SECURITY, DEFENDANTS
[Filed: Oct. 11, 2019]
ORDER GRANTING PLAINTIFFS’ MOTION FOR A
PRELIMINARY INJUNCTION

GEORGE B. DANIELS, United States District Judge:
WHEREAS on September 9, 2019, Make the Road
New York, African Services Committee, Asian American Federation, Catholic Charities Community Services, and Catholic Legal Immigration Network, Inc.

159a
(the “Organizational Plaintiffs”) filed a Motion for Preliminary Injunction in Case No. 19 Civ. 7993 (GBD)
(S.D.N.Y.) (the “Organizational Action”) to enjoin defendants from implementing or enforcing the Final Rule
of the Department of Homeland Security titled “Inadmissibility on Public Charge Grounds,” 84 Fed. Reg.
41,292 (the “Rule”) pursuant to Federal Rule of Civil
Procedure 65, or to postpone the effective date of the
Rule pursuant to 5 U.S.C. § 705;
WHEREAS also on September 9, 2019, the State of
New York, the City of New York, the State of Connecticut, and the State of Vermont (the “State Plaintiffs,”
and, together with the Organizational Plaintiffs, “Plaintiffs”) similarly filed a Motion for Preliminary Injunction in Case No. 19 Civ. 7777 (GBD) (S.D.N.Y.) (the
“State Action,” and, together with the Organizational
Action, the “Actions”) to enjoin defendants from implementing or enforcing the Rule pursuant to Federal Rule
of Civil Procedure 65, or to postpone the effective date
of the Rule pursuant to 5 U.S.C. § 705 (together with the
Organizational Plaintiffs' motion, the “Motions”);
WHEREAS on September 27, 2019, Kenneth T.
Cuccinelli II, United States Citizenship & Immigration
Services, Kevin K. McAleenan, Department of Homeland Security, and the United States of America (as to
the State Action only) (“Defendants”) submitted briefs
in opposition to the Motions;
WHEREAS on October 4, 2019, Plaintiffs filed replies in further support of the Motions;
WHEREAS amici have filed briefs in support of or
opposition to the Motions;

160a
WHEREAS on October 7, 2019, this Court held a
hearing on the Motions at which counsel for all parties
presented oral argument;
WHEREAS this Court, having considered the Motion and the documents filed therewith, as well as all
other papers filed in the Actions, and having heard oral
arguments from the parties, finds good cause to grant
the Motions because:
1.

Plaintiffs are likely to succeed on the merits of
their claims under the Administrative Procedure
Act, and, with respect to the Organizational
Plaintiffs, under the United States Constitution;

2.

Plaintiffs will suffer irreparable harm if the Rule
becomes effective; and

3.

The balance of equities and the interests of justice favor issuance of a preliminary injunction;

It is hereby ORDERED that, pursuant to Federal
Rule of Civil Procedure 65(a), Defendants are RESTRAINED AND ENJOINED from:
1.

Enforcing, applying or treating as effective, or
allowing persons under their control to enforce,
apply, or treat as effective, the Rule; and

2.

Implementing, considering in connection with
any application, or requiring the use of any new
or updated forms whose submission would be required under the Rule, including the new Form
I-944, titled “Declaration of Self Sufficiency,”
and the updated Form I-485, titled “Application
to Register Permanent Residence of Adjust Status”; and,

161a
It is hereby FURTHER ORDERED that, pursuant
to 5 U.S.C. § 705, the effective date of the Rule is
STAYED and POSTPONED sine die pending further
Order of the Court such that, if this Order is later
terminated and the Rule goes into effect, the Rule’s
stated effective date of October 15, 2019, as well as
any references in the Rule to October 15, 2019, including
but not limited those contained in proposed 8 CFR
§§ 212.20, 212.22(b)(4)(i)(E), 212.22(b)(4)(ii)(E)(1),
212.22(b)(4)(ii)(E)(2), 212.22(b)(4)(ii)(F), 212.22(c)(1)(ii),
212.22(d), 214.1, 248.1(a), and 248.1(c)(4), shall be replaced with a date after this Order is terminated.
Dated: New York, New York
Oct. 11, 2019
SO ORDERED.
/s/

GEORGE B. DANIELS
GEORGE B. DANIELS
United States District Judge

162a
APPENDIX F

1.

8 U.S.C. 1182(a)(4) provides:

Inadmissible aliens
(a)

Classes of aliens ineligible for visas or admission

Except as otherwise provided in this chapter, aliens
who are inadmissible under the following paragraphs
are ineligible to receive visas and ineligible to be admitted to the United States:
(4) Public charge
(A)

In general

Any alien who, in the opinion of the consular officer at the time of application for a visa, or in the
opinion of the Attorney General at the time of application for admission or adjustment of status, is
likely at any time to become a public charge is inadmissible.
(B)

Factors to be taken into account

(i) In determining whether an alien is inadmissible under this paragraph, the consular officer
or the Attorney General shall at a minimum consider the alien’s—
(I)

age;

(II)

health;

(III) family status;
(IV) assets, resources, and financial status;
and
(V)

education and skills.

163a
(ii) In addition to the factors under clause (i),
the consular officer or the Attorney General may
also consider any affidavit of support under section 1183a of this title for purposes of exclusion
under this paragraph.
(C)

Family-sponsored immigrants

Any alien who seeks admission or adjustment
of status under a visa number issued under section
1151(b)(2) or 1153(a) of this title is inadmissible
under this paragraph unless—
(i)

the alien has obtained—

(I) status as a spouse or a child of a
United States citizen pursuant to clause (ii),
(iii), or (iv) of section 1154(a)(1)(A) of this title;
(II) classification pursuant to clause
(ii) or (iii) of section 1154(a)(1)(B) of this title; or
(III) classification or status as a VAWA
self-petitioner; or
(ii) the person petitioning for the alien’s
admission (and any additional sponsor required
under section 1183a(f ) of this title or any alternative sponsor permitted under paragraph
(5)(B) of such section) has executed an affidavit
of support described in section 1183a of this title with respect to such alien.
(D)

Certain employment-based immigrants

Any alien who seeks admission or adjustment
of status under a visa number issued under section

164a
1153(b) of this title by virtue of a classification petition filed by a relative of the alien (or by an entity
in which such relative has a significant ownership
interest) is inadmissible under this paragraph unless such relative has executed an affidavit of support described in section 1183a of this title with
respect to such alien.
(E)

Special rule for qualified alien victims

Subparagraphs (A), (B), and (C) shall not apply
to an alien who—
(i)

is a VAWA self-petitioner;

(ii) is an applicant for, or is granted, nonimmigrant status under section 1101(a)(15)(U) of
this title; or
(iii) is a qualified alien described in section
1641(c) of this title.
2.

8 U.S.C. 1183a provides in pertinent part:

Requirements for sponsor’s affidavit of support
(a)

Enforceability
(1) Terms of affidavit

No affidavit of support may be accepted by the Attorney General or by any consular officer to establish
that an alien is not excludable as a public charge under section 1182(a)(4) of this title unless such affidavit is executed by a sponsor of the alien as a contract—

165a
(A) in which the sponsor agrees to provide
support to maintain the sponsored alien at an annual income that is not less than 125 percent of the
Federal poverty line during the period in which
the affidavit is enforceable;
(B) that is legally enforceable against the
sponsor by the sponsored alien, the Federal Government, any State (or any political subdivision of
such State), or by any other entity that provides
any means-tested public benefit (as defined in
subsection (e)1), consistent with the provisions of
this section; and
(C) in which the sponsor agrees to submit to
the jurisdiction of any Federal or State court for
the purpose of actions brought under subsection
(b)(2).
(2) Period of enforceability

An affidavit of support shall be enforceable with
respect to benefits provided for an alien before the
date the alien is naturalized as a citizen of the United
States, or, if earlier, the termination date provided
under paragraph (3).
*
(b)

*

*

*

*

Reimbursement of government expenses
(1) Request for reimbursement
(A)

1

Requirement

See Reference in Text note below.

166a
Upon notification that a sponsored alien has received any means-tested public benefit, the appropriate nongovernmental entity which provided such
benefit or the appropriate entity of the Federal
Government, a State, or any political subdivision
of a State shall request reimbursement by the
sponsor in an amount which is equal to the unreimbursed costs of such benefit.
(B)

Regulations

The Attorney General, in consultation with the
heads of other appropriate Federal agencies, shall
prescribe such regulations as may be necessary to
carry out subparagraph (A).
(2) Actions to compel reimbursement
(A)

In case of nonresponse

If within 45 days after a request for reimbursement under paragraph (1)(A), the appropriate entity has not received a response from the sponsor
indicating a willingness to commence payment an
action may be brought against the sponsor pursuant to the affidavit of support.
(B)

In case of failure to pay

If the sponsor fails to abide by the repayment
terms established by the appropriate entity, the
entity may bring an action against the sponsor
pursuant to the affidavit of support.
(C)

Limitation on actions

No cause of action may be brought under this
paragraph later than 10 years after the date on
which the sponsored alien last received any means-

167a
tested public benefit to which the affidavit of support applies.
*
3.

*

*

*

*

8 U.S.C. 1227(a)(5) provides:

Deportable aliens
(a)

Classes of deportable aliens

Any alien (including an alien crewman) in and admitted to the United States shall, upon the order of the Attorney General, be removed if the alien is within one or
more of the following classes of deportable aliens:
(5) Public charge

Any alien who, within five years after the date of
entry, has become a public charge from causes not
affirmatively shown to have arisen since entry is deportable.
4.

8 U.S.C. 1601 provides:

Statements of national policy concerning welfare and immigration

The Congress makes the following statements concerning national policy with respect to welfare and immigration:
(1) Self-sufficiency has been a basic principle of
United States immigration law since this country’s
earliest immigration statutes.
(2) It continues to be the immigration policy of
the United States that—

168a
(A) aliens within the Nation’s borders not depend on public resources to meet their needs, but
rather rely on their own capabilities and the resources of their families, their sponsors, and private organizations, and
(B) the availability of public benefits not constitute an incentive for immigration to the United
States.
(3) Despite the principle of self-sufficiency, aliens have been applying for and receiving public benefits from Federal, State, and local governments at
increasing rates.
(4) Current eligibility rules for public assistance
and unenforceable financial support agreements have
proved wholly incapable of assuring that individual
aliens not burden the public benefits system.
(5) It is a compelling government interest to enact new rules for eligibility and sponsorship agreements in order to assure that aliens be self-reliant in
accordance with national immigration policy.
(6) It is a compelling government interest to remove the incentive for illegal immigration provided
by the availability of public benefits.
(7) With respect to the State authority to make
determinations concerning the eligibility of qualified
aliens for public benefits in this chapter, a State that
chooses to follow the Federal classification in determining the eligibility of such aliens for public assistance shall be considered to have chosen the least restrictive means available for achieving the compelling governmental interest of assuring that aliens be

169a
self-reliant in accordance with national immigration
policy.
5.

8 U.S.C. 1611 provides:

Aliens who are not qualified aliens ineligible for Federal
public benefits
(a)

In general

Notwithstanding any other provision of law and except as provided in subsection (b), an alien who is not a
qualified alien (as defined in section 1641 of this title) is
not eligible for any Federal public benefit (as defined in
subsection (c)).
(b)

Exceptions

(1) Subsection (a) shall not apply with respect to the
following Federal public benefits:
(A) Medical assistance under title XIX of the
Social Security Act [42 U.S.C. 1396 et seq.] (or any
successor program to such title) for care and services
that are necessary for the treatment of an emergency
medical condition (as defined in section 1903(v)(3) of
such Act [42 U.S.C. 1396b(v)(3)]) of the alien involved
and are not related to an organ transplant procedure,
if the alien involved otherwise meets the eligibility
requirements for medical assistance under the State
plan approved under such title (other than the requirement of the receipt of aid or assistance under
title IV of such Act [42 U.S.C. 601 et seq.], supplemental security income benefits under title XVI of
such Act [42 U.S.C. 1381 et seq.], or a State supplementary payment).

170a
(B) Short-term, non-cash, in-kind emergency disaster relief.
(C) Public health assistance (not including any
assistance under title XIX of the Social Security Act
[42 U.S.C. 1396 et seq.]) for immunizations with respect to immunizable diseases and for testing and
treatment of symptoms of communicable diseases
whether or not such symptoms are caused by a communicable disease.
(D) Programs, services, or assistance (such as
soup kitchens, crisis counseling and intervention, and
short-term shelter) specified by the Attorney General, in the Attorney General’s sole and unreviewable
discretion after consultation with appropriate Federal agencies and departments, which (i) deliver inkind services at the community level, including
through public or private nonprofit agencies; (ii) do
not condition the provision of assistance, the amount
of assistance provided, or the cost of assistance provided on the individual recipient’s income or resources;
and (iii) are necessary for the protection of life or
safety.
(E) Programs for housing or community development assistance or financial assistance administered by the Secretary of Housing and Urban Development, any program under title V of the Housing
Act of 1949 [42 U.S.C. 1471 et seq.], or any assistance
under section 1926c of title 7, to the extent that the
alien is receiving such a benefit on August 22, 1996.
(2) Subsection (a) shall not apply to any benefit payable under title II of the Social Security Act [42 U.S.C.
401 et seq.] to an alien who is lawfully present in the

171a
United States as determined by the Attorney General,
to any benefit if nonpayment of such benefit would contravene an international agreement described in section
233 of the Social Security Act [42 U.S.C. 433], to any
benefit if nonpayment would be contrary to section
202(t) of the Social Security Act [42 U.S.C. 402(t)], or to
any benefit payable under title II of the Social Security
Act to which entitlement is based on an application filed
in or before August 1996.
(3) Subsection (a) shall not apply to any benefit payable under title XVIII of the Social Security Act
[42 U.S.C. 1395 et seq.] (relating to the medicare program) to an alien who is lawfully present in the United
States as determined by the Attorney General and, with
respect to benefits payable under part A of such title
[42 U.S.C. 1395c et seq.], who was authorized to be employed with respect to any wages attributable to employment which are counted for purposes of eligibility
for such benefits.
(4) Subsection (a) shall not apply to any benefit payable under the Railroad Retirement Act of 1974
[45 U.S.C. 231 et seq.] or the Railroad Unemployment
Insurance Act [45 U.S.C. 351 et seq.] to an alien who is
lawfully present in the United States as determined by
the Attorney General or to an alien residing outside the
United States.
(5) Subsection (a) shall not apply to eligibility for
benefits for the program defined in section 1612(a)(3)(A)
of this title (relating to the supplemental security income program), or to eligibility for benefits under any
other program that is based on eligibility for benefits
under the program so defined, for an alien who was receiving such benefits on August 22, 1996.

172a
(c)

“Federal public benefit” defined

(1) Except as provided in paragraph (2), for purposes of this chapter the term “Federal public benefit”
means—
(A) any grant, contract, loan, professional license, or commercial license provided by an agency
of the United States or by appropriated funds of the
United States; and
(B) any retirement, welfare, health, disability,
public or assisted housing, postsecondary education,
food assistance, unemployment benefit, or any other
similar benefit for which payments or assistance are
provided to an individual, household, or family eligibility unit by an agency of the United States or by
appropriated funds of the United States.
(2) Such term shall not apply—
(A) to any contract, professional license, or commercial license for a nonimmigrant whose visa for entry is related to such employment in the United
States, or to a citizen of a freely associated state, if
section 141 of the applicable compact of free association approved in Public Law 99-239 or 99-658 (or a
successor provision) is in effect;
(B) with respect to benefits for an alien who as
a work authorized nonimmigrant or as an alien lawfully admitted for permanent residence under the
Immigration and Nationality Act [8 U.S.C. 1101
et seq.] qualified for such benefits and for whom the
United States under reciprocal treaty agreements is
required to pay benefits, as determined by the Attorney General, after consultation with the Secretary of
State; or

173a
(C) to the issuance of a professional license to,
or the renewal of a professional license by, a foreign
national not physically present in the United States.
6.

29 U.S.C. 794 provides:

Nondiscrimination under Federal grants and programs
(a)

Promulgation of rules and regulations

No otherwise qualified individual with a disability in
the United States, as defined in section 705(20) of this
title, shall, solely by reason of her or his disability, be
excluded from the participation in, be denied the benefits of, or be subjected to discrimination under any program or activity receiving Federal financial assistance
or under any program or activity conducted by any Executive agency or by the United States Postal Service.
The head of each such agency shall promulgate such
regulations as may be necessary to carry out the amendments to this section made by the Rehabilitation, Comprehensive Services, and Developmental Disabilities
Act of 1978. Copies of any proposed regulation shall be
submitted to appropriate authorizing committees of the
Congress, and such regulation may take effect no earlier
than the thirtieth day after the date on which such regulation is so submitted to such committees.
(b)

“Program or activity” defined

For the purposes of this section, the term “program
or activity” means all of the operations of—
(1)(A) a department, agency, special purpose district, or other instrumentality of a State or of a local
government; or

174a
(B) the entity of such State or local government
that distributes such assistance and each such department or agency (and each other State or local government entity) to which the assistance is extended, in
the case of assistance to a State or local government;
(2)(A) a college, university, or other postsecondary institution, or a public system of higher education; or
(B) a local educational agency (as defined in section 7801 of title 20), system of career and technical
education, or other school system;
(3)(A) an entire corporation, partnership, or other
private organization, or an entire sole proprietorship—
(i) if assistance is extended to such corporation, partnership, private organization, or sole proprietorship as a whole; or
(ii) which is principally engaged in the business of providing education, health care, housing,
social services, or parks and recreation; or
(B) the entire plant or other comparable, geographically separate facility to which Federal financial assistance is extended, in the case of any other
corporation, partnership, private organization, or sole
proprietorship; or
(4) any other entity which is established by two
or more of the entities described in paragraph (1), (2),
or (3);
any part of which is extended Federal financial assistance.

175a
(c)

Significant structural alterations by small providers

Small providers are not required by subsection (a) to
make significant structural alterations to their existing
facilities for the purpose of assuring program accessibility, if alternative means of providing the services are
available. The terms used in this subsection shall be
construed with reference to the regulations existing on
March 22, 1988.
(d)

Standards used in determining violation of section

The standards used to determine whether this section has been violated in a complaint alleging employment discrimination under this section shall be the
standards applied under title I of the Americans with
Disabilities Act of 1990 (42 U.S.C. 12111 et seq.) and the
provisions of sections 501 through 504, and 510,1 of the
Americans with Disabilities Act of 1990 (42 U.S.C.
12201-12204 and 12210), as such sections relate to employment.

1

See References in Text note below.

